U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                           Review of the Federal
                          Bureau of Investigation’s
                            Disciplinary System

                                      May 2009




                      Report Number I-2009-002
                               EXECUTIVE DIGEST


INTRODUCTION

      This review of the Federal Bureau of Investigation’s (FBI)
disciplinary system is the fifth in a series of Department of Justice
(Department) Office of the Inspector General (OIG) reviews assessing
Department components’ disciplinary systems. 1

       The FBI’s mission is to “protect and defend the United States
against terrorist and foreign intelligence threats; uphold and enforce
the criminal laws of the United States; and provide leadership and
criminal justice services to federal, state, municipal, and international
agencies and partners.” 2 To meet its mission, the FBI states that it
expects its more than 30,000 employees to exemplify its core values,
which include:

       1. Uncompromising personal integrity and institutional integrity;
       2. Accountability by accepting responsibility for their actions and
          decisions and the consequences of their actions and decisions; and
       3. Leadership, both personal and professional.

The FBI has defined the actions that violate its standards of conduct and
hinder the performance of the FBI’s mission. In addition, the FBI has
identified the range of discipline it may impose when an employee
deviates from these standards and commits misconduct.

       The OIG conducted this review to examine the FBI’s investigations
of allegations of misconduct against FBI employees and to assess
whether the FBI imposed consistent, reasonable, and timely discipline for
misconduct.

      In this Executive Digest, we first provide a brief overview of the
FBI’s disciplinary system, followed by a summary of our results and our
recommendations.


       1 The four previous OIG reports are Review of the Bureau of Alcohol, Tobacco,
Firearms and Explosives’ Disciplinary System, I-2005-009, September 2005; Review of the
Federal Bureau of Prisons’ Disciplinary System, I-2004-008, September 2004; Review of the
Drug Enforcement Administration’s Disciplinary System, I-2004-002, January 2004; and
Review of the United States Marshals Service Discipline Process, I-2001-011, September 2001.

       2   www.fbi.gov/libref/historic/history/changeman.htm.



U.S. Department of Justice                                                            i
Office of the Inspector General
Evaluation and Inspections Division
OVERVIEW OF THE FBI’S DISCIPLINARY SYSTEM

      The legal framework for federal agencies to address employee
misconduct through what is called non-adverse actions (suspensions of
14 days or less, letters of censure, and oral reprimands) and also
through adverse actions (suspensions of greater than 14 days,
demotions, and removals) is established in 5 U.S.C. Chapter 75 and
5 C.F.R. Part 752. However, the procedural protections outlined in these
regulations do not apply for most FBI employees. 3

       For example, FBI employees cannot appeal disciplinary decisions
to the Merit Systems Protection Board like most other federal employees.
5 U.S.C. § 7511(b)(8). However, the FBI has established a process that
allows employees to appeal their discipline internally. 4

       The FBI’s disciplinary system is divided into five phases:

       •   reporting of alleged misconduct,
       •   investigation of the alleged misconduct,
       •   adjudication of the misconduct investigation,
       •   the appellate process, and
       •   implementation of discipline on FBI employees.

      Under FBI policy, FBI employees must report all allegations of
misconduct to appropriate FBI officials – who in turn are required to
report them to the OIG. As with other Department agencies, the OIG can
investigate any of these allegations. Normally, the OIG investigates
criminal allegations or the most serious administrative allegations
involving high-level FBI employees or those that implicate systemic




        3 FBI employees to whom these procedural protections apply during the

disciplinary process include preference-eligible veterans. 5 U.S.C. § 7511(a)(1)(B).
Veterans are preference eligible if they are disabled or served on active duty during
certain specified time periods or in military campaigns. 5 U.S.C. § 2108.

       4  The Merit Systems Protection Board (MSPB) is an independent, quasi-judicial
agency in the Executive Branch that was established by Reorganization Plan No. 2 of
1978, which was codified by the Civil Service Reform Act of 1978, Pub. L. No. 95-454,
92 Stat. 1111. The Act authorized the MSPB to hear appeals of various agency
decisions, most of which are appeals of agencies’ adverse actions.



U.S. Department of Justice                                                              ii
Office of the Inspector General
Evaluation and Inspections Division
 issues. 5 Most allegations of less serious administrative misconduct are
referred back to the FBI for appropriate handling. 6

      The Internal Investigations Section in the FBI’s Inspection Division
oversees the reporting and investigative phases of the disciplinary
process. Investigations of misconduct by the FBI are handled by either
personnel in the FBI’s Inspection Division or designated FBI staff in field
and headquarters divisions overseen by the Internal Investigations
Section.

      During the adjudicative phase, overseen by the FBI’s Office of
Professional Responsibility (FBI OPR), the FBI determines whether the
allegations are substantiated and, if so, FBI OPR proposes and decides
the discipline. 7 For oral reprimands, letters of censure, and suspensions
of 14 days or less (known as “non-adverse actions”), there is no formal
proposal stage and FBI OPR Unit Chiefs decide the discipline that will be
imposed. For suspensions greater than 14 days, demotions, and
removals (known as “adverse actions”), the Unit Chiefs must propose
discipline and the FBI OPR Assistant Director makes the disciplinary
decision. Generally, the FBI attempts to complete the investigation and
adjudication of a misconduct case within 180 days.

      In the appellate phase, an FBI employee may appeal a disciplinary
decision, other than an oral reprimand or letter of censure, to the
Assistant Director of the FBI’s Human Resources Division. The Assistant
Director decides appeals of non-adverse actions, while a Disciplinary

       5  FBI employees are not covered by the Whistleblower Protection Act
(5 U.S.C. § 1211 et seq.) which applies to most other federal employees. They are
covered by whistleblower regulations developed by the Department that attempt to
mirror the Whistleblower Protection Act. The OIG and the Department’s Office of
Professional Responsibility share responsibility for investigating allegations of
retaliation against FBI whistleblowers. 28 C.F.R. Part 27.

        6 The percentage of misconduct investigations of FBI employees conducted by

the OIG, the Department’s Office of Professional Responsibility, or the Department’s
Public Integrity Section is smaller than the percentage handled by the FBI. During the
time period of our review, the FBI conducted 90 percent of the misconduct
investigations (69 percent were delegated to the divisions to complete), the OIG
conducted 6 percent, and the Department’s Office of Professional Responsibility or
Public Integrity Section conducted 4 percent.

       7  FBI OPR adjudicators use the “preponderance of the evidence” standard of
proof when deciding whether to substantiate allegations. Preponderance of the evidence
is defined as “the degree of relevant evidence that a reasonable person, considering the
record as a whole, would accept as sufficient to find that a contested fact is more likely
to be true than untrue.” 5 C.F.R. § 1201.56(c)(2).



U.S. Department of Justice                                                             iii
Office of the Inspector General
Evaluation and Inspections Division
Review Board, which is chaired by the Assistant Director and is made up
of five FBI employees, decides appeals of adverse actions.

       FBI policy states that during the appellate process, FBI OPR’s
findings are subject to the substantial evidence standard of review.
Substantial evidence is defined as “the degree of relevant evidence that a
reasonable person, considering the record as a whole, might accept as
adequate to support a conclusion, even though other reasonable persons
might disagree.” 5 C.F.R. § 1201.56(c)(1). 8 As explained in the Appellate
section of this report, however, we found that the FBI’s August 2007
Electronic Communication describing the standard of review does not
clearly indicate what standard of review applies to the review of the
penalty decisions.

      In the implementation phase, final discipline should be imposed
and documented in employees’ personnel records to show that the
discipline was implemented. Discipline resulting in suspension,
demotion, or removal should be documented on an Office of Personnel
Management Standard Form 50 (SF-50) in the employee’s personnel
records to confirm that discipline was implemented. Notices of oral
reprimands and letters of censure should also be maintained in an
employee’s personnel records.

OIG METHODOLOGY

       In this review, we examined the consistency, reasonableness, and
timeliness of the five phases of the FBI’s disciplinary system. 9 As part of
the review, we interviewed employees in the FBI Director’s Office, the
Inspection Division, FBI OPR, and the Human Resources Division to
understand these divisions’ involvement in the disciplinary system. We
also interviewed employees involved in the disciplinary process in six FBI

        8 This standard means that appellate officials should generally defer to FBI

OPR’s findings of fact regarding the misconduct and should not attempt to redecide the
facts of the case unless the FBI OPR record “is insufficient to decide the merits of an
appeal.” See FBI Memorandum to All Special Agents in Charge, Standards of Conduct
Disciplinary Matters – Revision of the FBI’s Disciplinary Process, March 5, 1997, p. 14.

        9 We considered consistency to be whether the disciplinary system processed

similar misconduct cases using uniform standards. We defined reasonableness to be
whether the record as a whole contained sufficient evidence to allow a reasonable
person to support the same conclusion, even though another reasonable person might
have reached a different conclusion. We also considered whether the processes for
investigations and adjudications were complete and objective. We considered timeliness
to be whether policies and procedures ensured timely reporting and investigation of
alleged misconduct, as well as timely adjudication and implementation of discipline.



U.S. Department of Justice                                                             iv
Office of the Inspector General
Evaluation and Inspections Division
divisions across the country to understand how misconduct is reported,
investigated, and adjudicated on a local level.

       In addition to interviews, we analyzed FBI data related to
1,551 misconduct investigations closed from fiscal year (FY) 2005 to FY
2007 and 5,377 allegations of misconduct received during the same 3-
year time period to determine the timeliness and overall outcomes of the
disciplinary process. We obtained this data from the FBI’s Case
Management System, established in November 2004 to track the FBI’s
misconduct allegations, investigations, and adjudications.

       We also conducted a detailed file review of misconduct investigations
involving 69 FBI employees to determine if the investigations, as well as
the resulting disciplinary decisions at the adjudicative and appellate
stages, were consistent and reasonable. Three of the 69 employees were at
the Senior Executive Service (SES) level. 10 To better determine if
disciplinary decisions were influenced by an employee’s grade level, we
also reviewed the case files for an additional 17 SES employees. In sum,
we reviewed misconduct files related to 20 SES employees and 66 non-SES
employees. Finally, to determine whether discipline was actually
implemented, we analyzed the personnel records for 83 FBI employees to
confirm that they had been suspended for the correct number of days.

       To learn about the experiences and perceptions of FBI employees
regarding the disciplinary system, especially whether they believed there
was a double standard of discipline for higher-ranking and lower-ranking
employees, we surveyed a random sample of 1,449 FBI employees, 818 of
whom responded. Finally, we reviewed FBI policies and manuals
regarding the disciplinary system; OIG Investigations Division data
relating to the FBI’s disciplinary system; previous reports about FBI
discipline; and federal and Department-wide laws and regulations
applicable to disciplinary systems.

RESULTS IN BRIEF

       Our review found that aspects of the FBI disciplinary process work
well, but there are deficiencies in the reporting, adjudicative, appellate,
and implementation phases of the FBI’s disciplinary system that hamper
the FBI’s ability to ensure reasonable and consistent discipline for its

       10  The Senior Executive Service consists of the highest-ranking supervisory
positions in a federal agency, with the exception of those positions that are appointed
by the President. As of December 2008, the FBI had 260 employees in the Senior
Executive Service.



U.S. Department of Justice                                                                v
Office of the Inspector General
Evaluation and Inspections Division
employees. Additionally, we found that problems identified in previous
reviews of the FBI’s disciplinary system, such as a perception of a double
standard of discipline between higher-ranking and lower-ranking
employees, continue. 11

       Our key findings for each of the phases of the disciplinary process
are:

   •   In the reporting phase, potential misconduct was not consistently
       reported to FBI headquarters or to the OIG as required by FBI
       policy.

   •   In the investigative phase, the FBI’s investigations of misconduct
       generally were thorough and conducted in a consistent manner,
       and the FBI had improved its timeliness.

   •   In the adjudicative phase, most of FBI OPR’s penalty decisions for
       misconduct that we reviewed were reasonable. However, we found
       inconsistencies in the discipline imposed and a lack of adequate
       explanation for those inconsistencies in some cases. In addition,
       we found that the FBI OPR Assistant Director has at times
       considered unwritten information she received outside the normal
       disciplinary process before making disciplinary decisions. As in
       the investigative phase, the timeliness of the adjudicative phase
       had also improved.

   •   In the appellate phase, we found that the majority of decisions for
       non-SES employees appeared reasonable. However, we found that
       almost all SES appeals were mitigated, and we found that most of
       these decisions were unreasonable. We also found a lack of clear
       guidance about the appropriate standard of review the appellate
       officials should apply when reviewing penalties imposed by FBI
       OPR. As in the previous two phases, the timeliness of the
       appellate phase also had improved.

   •   We found that a significant percentage of FBI employees we
       surveyed believed that there was a double standard of discipline in

       11  There have been two previous OIG reviews of the FBI disciplinary system: A
Review of Allegations of a Double Standard of Discipline at the FBI (November 2002) and
A Review of Allegations of a Continuing Double Standard of Discipline at the FBI
(November 2003). Additionally in May 2003, the FBI Director requested that former
Attorney General Griffin Bell and former Associate Director of the FBI Dr. Lee Colwell
lead a comprehensive study of FBI OPR. Griffin B. Bell and Lee Colwell, Study of the
FBI’s Office of Professional Responsibility (February 2004).



U.S. Department of Justice                                                            vi
Office of the Inspector General
Evaluation and Inspections Division
       the FBI for higher- and lower-ranking employees. Our review of
       FBI disciplinary decisions found that allegations of misconduct
       were much more likely to be unsubstantiated against SES
       employees than non-SES employees. We found even more
       significant differences in the rates that SES employees’ penalties
       were mitigated on appeal (5 out of 6, or 83 percent of the time) as
       compared to non-SES employees’ penalties (44 out of 247, or
       18 percent of the time). In addition, as noted in the previous
       finding, we concluded that the mitigation of most of these SES
       appeals was unreasonable.

   •   In the implementation phase, we found that the FBI did not ensure
       that disciplined employees served their suspensions. We found
       many examples of FBI employees whose imposed suspensions were
       not served at all or were served for the wrong amount of time.

      The following sections of this Executive Digest describe these
findings in more detail.

Reporting of Misconduct Allegations

      Our survey results indicated that FBI employees were not
consistently reporting incidents of potential misconduct. Of 818 survey
respondents, 226 stated that they had observed or been made aware of
incidents of misconduct, and 18 percent of them (40 of 226) stated that
they did not report it. An additional 12 percent (27 respondents) stated
that they reported less than half of the misconduct that they observed.
The survey respondents’ main reason for why they might not report
potential misconduct was being unsure about whether what they
observed was misconduct or a performance-related matter. 12

       In addition, during our site visits to field and headquarters
divisions, we found that three of six FBI field divisions that we visited did
not report all incidents of potential misconduct to the Internal
Investigations Section. After reviewing information about 25 incidents
that we believed described potential misconduct, Internal Investigations
Section personnel agreed that 8 should have been forwarded to them.

      We also determined that while the FBI had established appropriate
procedures to ensure that misconduct allegations it receives were

       12  According to the Office of Personnel Management, misconduct involves failure to
follow a workplace rule. In contrast, poor performance occurs if an employee does not do
his or her job at an acceptable level.



U.S. Department of Justice                                                          vii
Office of the Inspector General
Evaluation and Inspections Division
provided to the OIG for review as required, some allegations were not
shown to the OIG. We examined a random sample of 103 allegations to
determine if the FBI had actually shown them to the OIG. Internal
Investigations Section personnel were unable to document that they had
shown eight allegations to the OIG.

       Finally, we were unable to analyze the amount of time taken by
field and headquarters divisions to report misconduct because the FBI’s
Case Management System does not track when the divisions become
aware of potential misconduct.

Investigation of Misconduct Allegations

       To determine whether the Internal Investigations Section
succeeded in ensuring thorough investigations, 2 OIG Special Agents and
1 OIG Inspector reviewed a sample of misconduct investigations
conducted by the FBI’s Internal Investigations Section personnel and
field investigators of misconduct allegations made against 69 FBI
employees. Overall, our review found that the investigations were
generally thorough, the necessary investigative steps were taken, and the
investigations were well documented in the investigative reports.

      To examine the timeliness of the investigative phase, we analyzed
Case Management System data for all 1,551 misconduct investigations
closed from FY 2005 through FY 2007. We found that the timeliness of
FBI misconduct investigations improved from a median of 92 days in
FY 2005 to complete an investigation after an allegation was reported to
a median of 81 days in FY 2007. Additionally, we found that
the percentage of investigations completed in 90 days or less after an
allegation was reported increased from 49 percent in FY 2005 to
60 percent in FY 2007.

Adjudication of Misconduct Investigations

      We concluded that the adjudicative decisions reached by FBI OPR
generally were reasonable. However, we found that some of FBI OPR’s
decisions on what penalties to impose contained inconsistencies that
could not be explained by the record in the case files. In cases we
reviewed, we also found variations in discipline imposed among cases
that appeared to be similar. Some of these cases lacked a discussion of
FBI OPR’s assessment of precedent cases, making it difficult to assess
whether there was sufficient justification for the disparity in penalties
between similar cases. In other cases, we found that FBI divisions did



U.S. Department of Justice                                             viii
Office of the Inspector General
Evaluation and Inspections Division
not submit an assessment of Douglas Factors to FBI OPR, as required by
the FBI’s Internal Investigations Supervisor’s Guide. 13

      In addition, we found that the FBI OPR Assistant Director
sometimes informally solicited or received information, outside the
normal disciplinary process, from the supervisors or co-workers of the
subject of a misconduct investigation before making her disciplinary
decision. 14 We believe that the FBI OPR Assistant Director should limit
disciplinary considerations to the information contained in official
misconduct files and provided by the employee.

       One area of significant improvement for FBI OPR was the
timeliness of adjudications. The median completion time for
adjudications improved from FY 2005 to FY 2007, from 94 days to
44 days. Overall, we found that the time frame for completing the
investigation and adjudication of disciplinary cases has improved. When
investigations and adjudications are combined, the median amount of
time it took to complete both phases of the 1,551 completed cases in our
review decreased from 199 days to 133 days, an improvement of
33 percent. In addition, the percentage of cases completed within the
180-day time frame increased from 44 percent in FY 2005 to 67 percent
in FY 2007.

Appeals of Disciplinary Decisions

       We found a lack of clear guidance about the appropriate standard
of review that appellate officials should apply when reviewing penalties
imposed by FBI OPR.

     We also identified concerns related to how the FBI selects
employees to serve on the Disciplinary Review Board. While adverse
appeals by non-SES employees are decided by a Disciplinary Review
Board consisting of SES and non-SES members, adverse appeals by SES
employees are decided by a Disciplinary Review Board consisting of only
SES members. We believe that a board composed exclusively of SES

       13 Under civil service law, there are 12 factors, known as the Douglas Factors,

that should be considered in determining the appropriateness of a disciplinary penalty.
See Douglas v. Veterans Administration, 5 M.S.P.B. 313 (1981).

       14  5 C.F.R. § 752.404(f) states that in “arriving at its decision, the agency shall
not consider any reasons for action other than those specified in the notice of proposed
action,” as well as any information presented in the employee’s written and oral
presentation to the agency. However, as discussed above, these regulations do not
apply to most FBI employees.



U.S. Department of Justice                                                                ix
Office of the Inspector General
Evaluation and Inspections Division
employees hearing an SES employee’s appeal can result in either bias or
the appearance of bias. We believe that a permanent appeals decision
maker or board, rather than a board composed of SES employees who
rotate in and out of their board service after 6 months, could improve the
quality and consistency of disciplinary decisions, and could also help
address concerns about bias in individual cases or the appearance of
SES board members issuing more lenient decisions for their SES
colleagues.

      When we reviewed the files of a selected sample of 22 cases
appealed by non-SES employees, we concluded that most of the appellate
decisions were reasonable. However, we identified two appeals in which
we believe the Disciplinary Review Board unreasonably reversed
misconduct findings or mitigated penalty findings by FBI OPR.

      In addition, we conducted a file review of six appeals by SES
employees. The penalties in five of those cases were mitigated on appeal.
We concluded that most of these mitigation decisions were not
reasonable.

     Finally, we found that the timeliness of the appeals process
improved.

Double Standard of Discipline

       A significant percentage of FBI employees that we surveyed
believed that higher-level employees were treated more leniently in the
FBI’s disciplinary system. In our survey, we asked FBI employees
whether they agreed or disagreed with the following statement: “There is
a double standard of discipline for higher-ranking versus lower-ranking
FBI employees.” Of 717 respondents who answered this question,
33 percent agreed with the statement that a double standard of
discipline exists in the FBI, 11 percent disagreed, and the rest either had
a neutral opinion or responded that they did not know. When we
compared the survey responses of non-SES employees with those of SES
employees, we found non-SES employees were more likely to believe that
there is a double standard than SES employees were.

       We analyzed the FBI’s Case Management System data to determine
if there were different rates of substantiation of misconduct allegations
among various demographic groups. We found that misconduct
allegations against SES employees were much more likely to be
unsubstantiated (49 percent) than those against non-SES employees
(22 percent). When we compared employees at the GS-14 level and


U.S. Department of Justice                                                x
Office of the Inspector General
Evaluation and Inspections Division
above (including SES employees) to those at the GS-13 level and below,
we again found differences, although not as significant as when we
compared SES and non-SES employees. In contrast to differences in
substantiation rates based on an FBI employee’s SES or supervisory
status, there was little variation in substantiation rates between
employees in different job categories and of different genders.

      When we analyzed the outcomes for those employees who appealed
the discipline imposed by FBI OPR, we found that the penalties imposed
on SES employees for misconduct were mitigated on appeal much more
frequently than for non-SES employees. We found that 5 of 6 cases
(83 percent) appealed by SES employees resulted in mitigation of the
discipline originally imposed by FBI OPR, while only 44 of 247 cases
(18 percent) appealed by non-SES employees resulted in mitigation.

      In addition, as noted above, when we examined the appeals
process we found that the appellate officials unreasonably mitigated
discipline in most of the SES cases we reviewed. Our review of the six
SES cases that were appealed during our time period confirmed that
appellate officials often substituted their judgment for FBI OPR’s
decisions, even on findings of fact. We also concluded that the board’s
reasons for overturning FBI OPR’s findings in these cases, and for
mitigating punishment, were unpersuasive and unreasonable. In sum,
although the number of appealed SES cases is small, we believe the
evidence indicates that SES employees were treated more leniently on
appeal than non-SES employees, and that this more lenient treatment
was not justified.

       We believe that the FBI should consider appointing a permanent
appellate decision maker, rather than continuing to use a board
composed of employees who rotate in and out of their board service after
6 months, to decide appeals of disciplinary decisions. This change could
improve the quality and consistency of appellate decisions and could also
help address concerns about bias in individual cases or the appearance
of a board composed only of SES members issuing more lenient decisions
for SES appeals.

Implementation of Discipline

      We found that the FBI does not ensure that disciplined employees
serve their suspensions. To assess whether FBI employees actually
served their suspensions, we reviewed the personnel and time and
attendance records for 83 suspended employees. Of the 83 employees,



U.S. Department of Justice                                                xi
Office of the Inspector General
Evaluation and Inspections Division
15 employees (18 percent) were either not suspended at all or were
suspended for an incorrect number of days.

       We also found many cases in which employees’ personnel files did
not contain documentation showing their suspensions. We found that
the personnel records for 29 of the 83 employees we sampled (35 percent)
did not contain the required SF-50s to document the beginning and end
of the suspension. Of the 29 employees’ files, 11 were missing 1 of the
SF-50s, while another 18 employees’ files were missing both. We found
that the time and attendance records for another 9 of 83 suspended
employees (11 percent) showed the employees as being absent for
reasons other than a suspension. The records for five of these employees
indicated they were on “leave without pay,” two were on “absence without
official leave,” one was on “furlough,” and the last was on leave for
sickness.

       Finally, FBI policy states that a “period of suspension will always
commence at the close of business, Friday of any given week,” except for
extraordinary circumstances due to an employee’s work schedule. In
contrast, the four other Department components whose disciplinary
systems we previously reviewed – the Bureau of Alcohol, Tobacco,
Firearms and Explosives; the Drug Enforcement Agency; the United
States Marshals Service; and the Bureau of Prisons – begin employee
suspensions on the first workday (usually Monday) of the workweek. The
FBI’s practice results in FBI employees effectively serving fewer days and
receiving less time off without pay than employees in other Department
components who are suspended for the same amount of time.

CONCLUSION AND RECOMMENDATIONS

      Overall, we found that some aspects of the FBI’s disciplinary
system worked well, but that improvements are needed in several critical
areas. To the FBI’s credit, the timeliness of all phases of the FBI’s
disciplinary process improved since FY 2005, and the FBI’s misconduct
investigations are generally thorough, necessary investigative steps
generally are taken, and the investigations are well documented in the
investigative reports.

      However, we found problems with the reporting of misconduct
allegations, the adjudication of investigations, the appeals of disciplinary
decisions, and the implementation of discipline that prevent us from
concluding that the FBI’s disciplinary system overall is consistent and
reasonable.



U.S. Department of Justice                                                xii
Office of the Inspector General
Evaluation and Inspections Division
       We found that most incidents of misconduct were reported to the
FBI’s Inspection Division and to the OIG, as required. However,
30 percent of survey respondents who had observed misconduct said
they either never reported misconduct they observed or reported less
than half the misconduct they observed. Also, some divisions did not
consistently report incidents of potential misconduct to FBI’s Internal
Investigations Section, and the FBI’s process for reporting alleged
misconduct to the OIG was not effective in ensuring the OIG was
provided all misconduct allegations or in tracking the OIG’s review of the
allegations.

       We concluded that the adjudicative decisions reached by FBI OPR
generally were reasonable. However, for almost one-third of
substantiated misconduct cases, FBI OPR did not explain how it
considered precedent cases when it chose non-standard penalties or FBI
divisions did not submit their assessment of the Douglas Factors, as
required by the FBI’s Internal Investigations Supervisor’s Guide. We
found some inconsistencies in penalties imposed between factually
similar cases, and the lack of discussion of precedent or the Douglas
Factors made it difficult to determine if these inconsistencies were
appropriate. We also learned that the FBI OPR Assistant Director has at
times considered unwritten information she received outside the normal
disciplinary process before making disciplinary decisions.

      In the appellate stage, we found a lack of clear guidance about
what standard of review appellate officials should apply when reviewing
FBI OPR’s penalty determinations. Further, we are concerned that
appeals of adverse actions by SES employees are decided by a
Disciplinary Review Board made up only of fellow SES employees. We
believe that a permanent appeals decision maker or board, rather than a
board composed of SES employees who rotate in and out of their board
service after 6 months, could improve the quality and consistency of
disciplinary decisions, and could also help address concerns about bias
in individual cases or the appearance of SES board members issuing
more lenient decisions for their SES colleagues. Most of the appellate
decisions for non-SES employees that we reviewed were reasonable, but
the majority of appellate decisions for SES employees were not.

      We found there continues to be a significant percentage of FBI
employees who believe that there is a double standard of discipline for
higher-ranking and lower-ranking FBI employees. In our review, we
found that allegations of misconduct against SES employees were
unsubstantiated at a much higher rate than allegations against non-SES
employees. Even more significant, SES employees’ penalties were


U.S. Department of Justice                                             xiii
Office of the Inspector General
Evaluation and Inspections Division
mitigated on appeal at a much higher rate than non-SES employees’
penalties. Moreover, when we examined the appellate officials’ decisions
to mitigate penalties for SES employees, we found that the mitigation in
most of these SES cases was unpersuasive and unreasonable.

       Finally, we found that the FBI did not ensure that imposed
disciplinary penalties were actually implemented and that discipline was
documented in employees’ personnel files. We found that 15 of the
83 suspended employees we reviewed (18 percent) either did not serve
their suspension at all or were suspended for an incorrect number of
days. We also determined that the personnel and pay records for an
additional 38 employees (46 percent) were incomplete or reflected
incorrect information regarding the suspensions. In addition, because
the FBI begins its suspensions at the close of business on Fridays, FBI
employees actually serve fewer days and receive less time off without pay
than employees in other Department components who are suspended for
the same amount of time.

       In sum, we believe the FBI must take significant action to improve
its disciplinary process, including ensuring that misconduct allegations
are consistently reported, that its adjudicative and appellate disciplinary
decisions are reasonable and well documented, that discipline is
implemented and recorded in employees’ personnel files, and that
discipline is administered equitably across all grade levels and for all job
categories. Our report makes 16 recommendations to assist the FBI in
improving its disciplinary process.

       As a result of our review, we recommend that the FBI:

       1.   Remind all employees on an annual basis that all allegations
            of misconduct must be promptly reported to the FBI Internal
            Investigations Section or to the OIG.

       2.   Stress to field and headquarters divisions that they must
            forward all allegations of potential misconduct they receive to
            the Internal Investigations Section.

       3.   Consider automating the allegation-reporting process so that
            allegations can be reviewed by the OIG electronically instead
            of in hard copy.

       4.   Ensure that Internal Investigations Section personnel enter
            information regarding the OIG’s review into the FBI’s Case
            Management System.


U.S. Department of Justice                                                xiv
Office of the Inspector General
Evaluation and Inspections Division
       5.   Require field and headquarters divisions to specify, when
            forwarding allegations to the Internal Investigations Section,
            the date they became aware of the potential misconduct.

       6.   Modify the FBI’s Case Management System so that users can
            track the date that divisions become aware of potential
            misconduct.

       7.   Require FBI OPR to document its consideration of precedent
            when a mitigated or aggravated penalty is imposed.

       8.   Require field and headquarters divisions to submit a Douglas
            Factors assessment in misconduct cases, except in
            unsubstantiated Delegated Investigation and Adjudication
            cases.

       9.   Clarify in policy that FBI OPR and appellate officials should
            not seek or consider unwritten information when making
            disciplinary decisions.

       10. Consider changing the adjudicative process to ensure that the
           proposing and deciding officials within FBI OPR are separate.

       11. Clarify FBI policies on the appellate officials’ authority to
           modify findings of fact and penalties to resolve different
           interpretations of the policies by FBI OPR and appellate
           officials.

       12. Consider appointing a permanent appeals decision maker or
           board, rather than an appeals board composed of employees
           who rotate in and out of their board service after 6 months. In
           addition, if the permanent appellate decision-maker is a board
           rather than an individual, expand the board membership for
           SES appeals beyond only SES employees.

       13. Require appellate officials to fully document in writing the
           reasons for their decisions, including their consideration of
           precedent and mitigating or aggravating factors.

       14. In addition to Recommendation 12, which recommends a
           change in the FBI’s appellate process, ensure that FBI policies
           are applied consistently to all levels of employees at all stages
           of the disciplinary process.



U.S. Department of Justice                                                   xv
Office of the Inspector General
Evaluation and Inspections Division
       15. Conduct a review of the personnel files and timekeeping
           records of all employees who were suspended since
           October 1, 2004, to verify that the suspensions were properly
           documented, that the employees served their suspensions,
           and the employees were not paid during their suspension
           periods.

       16. Revise FBI policy to begin suspensions on the first day of the
           workweek, as is done by other Department components.




U.S. Department of Justice                                              xvi
Office of the Inspector General
Evaluation and Inspections Division
                                 TABLE OF CONTENTS


BACKGROUND........................................................................................ 1

PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG REVIEW........... 29

RESULTS OF THE REVIEW ................................................................... 38

  REPORTING OF POTENTIAL MISCONDUCT ....................................... 38

  INVESTIGATION OF MISCONDUCT ALLEGATIONS ............................ 48

  ADJUDICATION OF MISCONDUCT INVESTIGATIONS ........................ 53

  APPEALS OF DISCIPLINARY DECISIONS ........................................... 65

  DOUBLE STANDARD OF DISCIPLINE ................................................ 76

  IMPLEMENTATION OF DISCIPLINE .................................................. 105

CONCLUSION AND RECOMMENDATIONS .......................................... 114

APPENDIX I: RESULTS OF OIG SURVEY TO FBI EMPLOYEES ........... 118

APPENDIX II: DOUGLAS FACTORS .................................................... 144

APPENDIX III: CONFIDENCE INTERVALS FOR EMPLOYEE SURVEY .. 146

APPENDIX IV: FBI RESPONSE ........................................................... 150

APPENDIX V: OIG ANALYSIS OF FBI RESPONSE ............................... 157




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                   BACKGROUND


Overview of the FBI and Its Disciplinary System

       The Federal Bureau of Investigation’s (FBI) stated mission is “to
protect and defend the United States against terrorist and foreign
intelligence threats; to uphold and enforce the criminal laws of the
United States; and to provide leadership and criminal justice services to
federal, state, municipal, and international agencies and partners.” 15

       As of September 2008, the FBI had 31,244 employees, including
12,851 Special Agents and 18,393 non-agent personnel. Non-agent
personnel include Intelligence Analysts, Language Specialists, scientists,
Information Technology Specialists, and administrative employees. The
FBI’s employees work at FBI headquarters in Washington, D.C., 56 field
divisions and more than 400 resident agencies throughout the United
States, and 60 Legal Attachés (Legats) in U.S. Embassies around the
world.

      The laws and regulations contained in 5 U.S.C. Chapter 75 and
5 C.F.R. Part 752 establish the legal framework governing the discipline
of most federal employees. However, the procedural protections outlined
in these regulations do not apply to most FBI employees. (See, e.g.,
5 U.S.C. § 7511(b)(8) (exempting most FBI employees from the right to
appeal disciplinary decisions to the Merit Systems Protection Board). 16)
Therefore, most FBI employees are subject to disciplinary rules
established by the FBI. Under the FBI’s process, the types of misconduct
for which an employee may be disciplined, and the penalties for such
misconduct, are described in the FBI’s Offense Table and Penalty
Guidelines. 17


       15 Federal Bureau of Investigation, “About Us – Quick Facts,”
www.fbi.gov/quickfacts.htm.

       16  FBI employees to whom these procedural protections apply during the
disciplinary process include preference-eligible veterans. 5 U.S.C. § 7511(a)(1)(B).
Veterans are preference eligible if they are disabled or served on active duty during
certain specified time periods or in military campaigns. 5 U.S.C. § 2108.

       17  The FBI’s Offense Table groups misconduct into five categories. Each
category of misconduct includes a specific list of offense codes, the standard penalty for
each offense code, and the mitigated and aggravated penalties. We discuss the Offense
Table in greater detail later in this report.



U.S. Department of Justice                                                               1
Office of the Inspector General
Evaluation and Inspections Division
       In addition, while the FBI is not required to follow civil service and
Office of Personnel Management (OPM) regulations during the
disciplinary process, like other federal agencies the FBI considers the 12
Douglas Factors when determining disciplinary actions. 18 The Douglas
Factors include information such as the employee’s performance record,
past disciplinary record, and the nature and seriousness of the current
offense. Based on the application of these factors, the agency may
mitigate (reduce) or aggravate (increase) a proposed penalty.

        The FBI also considers discipline imposed on other employees for
the same or similar offense. To review previous cases, the FBI uses a
“precedent database,” which contains final disciplinary determinations
for all misconduct cases initiated after the FBI established its current
Offense Table and Penalty Guidelines on November 1, 2004.

       The FBI’s disciplinary process consists of five phases – reporting,
investigation, adjudication, appeals, and implementation. The Internal
Investigations Section in the FBI’s Inspection Division oversees the
reporting and investigative phases of the disciplinary system. Under FBI
policy, FBI employees must report all allegations of misconduct to
appropriate FBI officials, such as their supervisors or the Inspection
Division, who are required to forward them to the Department of Justice
(Department) Office of the Inspector General (OIG). The OIG has the
authority to investigate any of these allegations, but normally the OIG
investigates criminal allegations, serious allegations involving high-level
FBI employees, or allegations that implicate systemic issues. 19 Similar to
how it handles misconduct allegations in all other Department




       18  The Civil Service Reform Act created the Merit Systems Protection Board
(MSPB) to decide appeals of certain agency disciplinary actions. The board identified
the 12 Douglas Factors as factors that it considered to be relevant for agencies to
consider in determining the appropriateness of a disciplinary penalty. See Douglas v.
Veterans Administration, 5 M.S.P.B. 313 (1981). See Appendix II for a full list of the
Douglas Factors. While the MSPB does not have jurisdiction over FBI discipline –
except in limited circumstances such as when the FBI employee is a preference-eligible
veteran – the FBI uses the Douglas Factors as guidance for its disciplinary actions.

       19  FBI employees are not covered by the Whistleblower Protection Act
(5 U.S.C. § 1211 et seq.) which covers most other federal employees, but instead are
covered by regulations developed by the Department that attempt to mirror the Act.
The OIG and the Department’s Office of Professional Responsibility share responsibility
for investigating allegations of retaliation against FBI whistleblowers. 28 C.F.R. Part 27.




U.S. Department of Justice                                                               2
Office of the Inspector General
Evaluation and Inspections Division
components, the OIG refers most allegations back to the FBI for
appropriate handling. 20

      FBI investigations of misconduct are conducted by personnel in
the Internal Investigations Section or are delegated to FBI staff in field
and headquarters divisions. When investigations are delegated, they are
overseen by personnel in the Internal Investigations Section.

      The adjudicative phase of the disciplinary process is overseen by
the FBI’s Office of Professional Responsibility (FBI OPR). FBI OPR
determines whether the allegations are substantiated and, if so, proposes
and decides on the discipline to be imposed. 21 For discipline ranging
from an oral reprimand to a suspension of 14 days or less – a category of
discipline known as “non-adverse actions” – there is no formal proposal
stage and FBI OPR Unit Chiefs decide the discipline that will be imposed.
For suspensions greater than 14 days, demotions, and removals – a
category of discipline known as “adverse actions” – FBI OPR Unit Chiefs
propose discipline, and the FBI OPR Assistant Director makes the final
decision on the penalty. Generally, the FBI attempts to complete the
investigation and adjudication of misconduct cases in 180 days.

       In the appellate phase, FBI employees may appeal a disciplinary
decision, other than an oral reprimand or letter of censure, to the
Assistant Director of the FBI’s Human Resources Division. The Assistant
Director decides appeals of non-adverse actions, while a Disciplinary
Review Board, which is chaired by the Assistant Director and composed
of five FBI employees, decides appeals of adverse actions. FBI policy
states that, generally, appellate officials should defer to FBI OPR’s
findings of fact regarding the misconduct, but may select a penalty
independent of FBI OPR’s penalty decision.




        20 The number of misconduct investigations of FBI employees conducted by the

OIG, the Department’s Office of Professional Responsibility, or the Department’s Public
Integrity Section is small. During the time period of our review, the FBI conducted
90 percent of the misconduct investigations (including 69 percent delegated to the
divisions to complete), the OIG conducted 6 percent, and the Department’s Office of
Professional Responsibility or Public Integrity Section conducted 4 percent.

       21 FBI OPR adjudicators use the “preponderance of the evidence” standard of
proof when deciding whether allegations have been substantiated by the investigation.
Preponderance of the evidence is defined as “the degree of relevant evidence that a
reasonable person, considering the record as a whole, would accept as sufficient to find
that a contested fact is more likely to be true than untrue.” 5 C.F.R. § 1201.56(c)(2).



U.S. Department of Justice                                                             3
Office of the Inspector General
Evaluation and Inspections Division
     The FBI Director has the discretionary authority to review and
change any disciplinary actions concerning all FBI employees, except FBI
employees at the Assistant Director level or above. For those senior
employees, disciplinary actions must be decided by a Department official.

       The FBI Director may increase or decrease the penalty that was
determined during the FBI’s disciplinary process. However, the FBI
Director’s authority is not considered an additional level of appeal and,
according to FBI policy, is exercised only on the initiative of the Director
in “rare and exceptional cases” when he considers it necessary to correct
an injustice or prevent harm to the FBI.

      In the implementation phase, final discipline is imposed and
documented in employees’ personnel records. Discipline resulting in
suspension, demotion, or removal is documented on an OPM Standard
Form 50 (SF-50) in the employee’s personnel file to confirm that
discipline was implemented. Notices of oral reprimands and letters of
censure are also documented in an employee’s personnel records.

      A more detailed description of each phase of the FBI’s disciplinary
system is provided below.

Reporting of Misconduct Allegations

       The FBI’s Manual of Administrative Operations and Procedures
requires FBI employees to promptly report allegations of criminal or
serious administrative misconduct by FBI employees. These allegations
are sent to the Internal Investigations Section in written form by mail,
facsimile, or e-mail, and may be sent anonymously. FBI employees may
also report misconduct allegations to the OIG. The FBI receives
allegations of misconduct from various other sources, such as members
of the public, other federal agencies, and state and local agencies.

      In fiscal years (FY) 2005 through FY 2007, the FBI’s Internal
Investigations Section received 5,377 misconduct allegations. The
majority of these allegations were received as Electronic Communications
from the heads of FBI headquarters divisions or field divisions where the
misconduct allegedly occurred. 22

      When allegations are received, they are reviewed by the Internal
Investigations Section’s Initial Processing Unit personnel. At the time of

       22  An Electronic Communication is the primary type of document used by the
FBI for internal communications.



U.S. Department of Justice                                                           4
Office of the Inspector General
Evaluation and Inspections Division
our review, the Initial Processing Unit consisted of one Unit Chief, seven
Conduct Review Specialists, and two Human Resources Assistants. The
personnel in the Initial Processing Unit enter information regarding all
new allegations into an FBI tracking database called the Case
Management System. 23 If an allegation is reported to the OIG first, in
most cases the OIG notifies the Internal Investigations Section of the
allegation and whether the OIG intends to investigate the matter or refer
it to the FBI for handling.

       Personnel in the Initial Processing Unit refer to the FBI’s Offense
Table and Penalty Guidelines to determine the appropriate category for
the alleged misconduct. The FBI Offense Table and Penalty Guidelines
group misconduct into the following five major categories:

       •    investigative misconduct,
       •    integrity/ethical misconduct,
       •    property-related misconduct,
       •    illegal/criminal misconduct, and
       •    general misconduct.

      Each category of misconduct includes a specific list of offense
codes, the standard penalty for each offense code, and the range of
potential mitigated and aggravated penalties. For example, Offense
Code 2.2 is described as knowingly providing false or misleading
information in a fiscal-related document. This includes providing false
information on time and attendance records, travel vouchers, and
insurance forms. The standard penalty for this offense is a 10-day
suspension. However, if mitigating factors are present, the 10-day
standard penalty can be reduced to a 7-day suspension or to a letter of
censure. If aggravating factors are present, the penalty can be increased
to a 15-day suspension or up to dismissal.

Investigation of Misconduct Allegations

      Once information regarding an allegation is entered into the FBI’s
Case Management System, Initial Processing Unit personnel provide the
allegation to the OIG for review. The OIG has the right of first refusal to
investigate any allegations of potential employee misconduct. The OIG
reviews all allegations to determine whether to: (1) initiate an OIG
investigation; (2) refer the matter to the FBI for investigation with an

       23  The Case Management System contains data from November 1, 2004, to the
present. The FBI uses the Case Management System to collect and store information
related to misconduct investigations, adjudications, and appeals.



U.S. Department of Justice                                                          5
Office of the Inspector General
Evaluation and Inspections Division
instruction to report back to the OIG upon completion of the FBI
investigation; or (3) refer the matter to the FBI for it to handle as it deems
appropriate.

      The OIG generally investigates the following four types of
allegations:

       •   an allegation that, if substantiated, would likely result in
           criminal prosecution;
       •   serious administrative allegations made against employees at
           the GS-15 level and above;
       •   allegations pertaining to whistleblower retaliation; and
       •   allegations that, for various reasons, the OIG believes should
           not be investigated by the FBI.

      If the OIG decides to investigate an allegation, it normally conducts
the investigation independently from the FBI and provides a report on
the completed investigation to the FBI’s Internal Investigations Section.
The Internal Investigations Section then forwards the investigation to
FBI OPR for adjudication.

       If the OIG returns an allegation to the FBI for investigation, the
Internal Investigations Section reviews the allegation and determines
whether the allegation will be: (1) investigated by the Internal
Investigations Section; (2) referred to a field or headquarters division for
an investigation monitored by the Internal Investigations Section; or
(3) classified as “no action,” meaning the allegation does not warrant
further investigation.

      If Internal Investigations Section personnel determine that an FBI
investigation should be opened, the allegation is forwarded to personnel
in one of two Internal Investigations Units within the Internal
Investigations Section. At the time of our review, the units were
composed of 2 Unit Chiefs and 10 Supervisory Special Agents who
investigate allegations of misconduct.

       The Internal Investigations Section assigns its investigations to the
two units depending on geographical location. Internal Investigations
Unit I conducts investigations of potential employee misconduct in 24 of
the 40 headquarters divisions; FBI field divisions west of the Mississippi
River; the Chicago, Milwaukee, Springfield, Indianapolis, and Memphis
field divisions; and Legats in Asia, Africa, and North and South America.
Internal Investigations Unit II conducts investigations of potential
employee misconduct in the remaining 16 headquarters divisions; FBI


U.S. Department of Justice                                                     6
Office of the Inspector General
Evaluation and Inspections Division
field divisions east of the Mississippi River (except for Chicago,
Milwaukee, Springfield, Indianapolis, and Memphis); and Legats in
Europe, Eurasia, and the Middle East.

      Based on the type of alleged misconduct involved, personnel in the
Internal Investigations Section designate the investigation as: (1) a
Delegated Investigation and Adjudication (DIA), (2) a Delegated
Investigation Only (DIO), or (3) a Non-Delegated Investigation (NDI).

       DIAs are investigations into misconduct that the FBI has
determined are likely to result in non-adverse disciplinary action (which
can range from an oral reprimand to a suspension of 14 days or less).
For example, the investigation of the loss of an employee’s badge or
credentials would be conducted as a DIA. Because DIAs generally
involve less serious misconduct, the Internal Investigations Section
normally delegates the investigation to Supervisory Special Agents in the
field or headquarters division where the employee who allegedly
committed the misconduct is currently assigned. There, a Supervisory
Special Agent investigates the misconduct, and if the division determines
that the allegation is substantiated, the division recommends a
disciplinary action. The results of the investigation, including a
summary of the investigation, any documents collected, and records of
interviews with witnesses and the subject, are incorporated into an
investigative report which is forwarded to personnel in the Internal
Investigations Section. Conduct Review Specialists in the Internal
Investigations Section’s Initial Processing Unit monitor DIA
investigations, except those involving the loss of a weapon, which are
monitored by Supervisory Special Agents in one of the Internal
Investigations Units. If the Conduct Review Specialists are not satisfied
with an investigation, they can request that the field conduct additional
investigation. Once the completed investigation is approved, the Internal
Investigations Section forwards it to FBI OPR for review and approval of
the division’s recommendation for adjudication.

      DIOs are investigations that involve allegations of mid-level
misconduct matters, such as insubordination. Similar to DIAs, DIOs are
typically investigated by Supervisory Special Agents in the field or
headquarters division where the employee who allegedly committed the
misconduct is currently assigned. When the division completes its
misconduct investigation, it forwards an investigative report to the
Internal Investigations Section, which approves the completed
investigation and may request additional investigation if necessary.
Unlike in DIAs, divisions conducting DIO investigations do not determine
whether the allegations have been substantiated and make no


U.S. Department of Justice                                              7
Office of the Inspector General
Evaluation and Inspections Division
disciplinary recommendation. Instead, after the Internal Investigations
Section completes its review and forwards the investigative file to FBI
OPR, personnel there conduct the adjudication, including determining
whether the allegation has been substantiated and the appropriate
disciplinary action.

      In contrast to DIAs and DIOs, which are investigated by FBI
personnel in the field, NDIs are investigated by Supervisory Special
Agents assigned to one of the Internal Investigations Units in the Internal
Investigations Section. NDIs typically involve more serious misconduct
than DIOs or DIAs, such as fraud or theft, or lying under oath. When
the investigation is completed, the Supervisory Special Agent submits the
investigative file to a Unit Chief in the Internal Investigations Section for
review and approval. The Unit Chief reviews the file to determine if the
investigator has completed the necessary steps and if all necessary
documentation is included in the file. If so, the Unit Chief approves the
investigation and forwards the investigative file to FBI OPR for
adjudication.

       At the conclusion of these investigations, the division where the
subject is located prepares a written assessment of the Douglas
Factors. 24 This assessment allows the subject’s management to provide
its perspective on various aspects of the employee’s record and the
alleged misconduct. The field or headquarters division is given a
deadline by which it must submit the Douglas Factors assessment to FBI
OPR. If FBI OPR has not received the Douglas Factors assessment by
the deadline, it contacts the division to inquire about the status. FBI
OPR will extend the deadline at the request of the field or headquarters
division. However, if the new deadline passes and FBI OPR still has not
received the Douglas Factors analysis, FBI OPR will proceed with the
adjudication.

      To assist FBI personnel investigating alleged employee misconduct,
the Internal Investigations Section created an Internal Investigations
Supervisor’s Guide in 2005. The FBI distributed copies of the guide to
each field division, headquarters division, and Legat, and also posted it
on the FBI’s Intranet. The guide provides an overview of the FBI’s
disciplinary system, including an explanation of the different types of
investigations, steps for conducting investigations, the different types of
forms used during an investigation, and the FBI’s Offense Table and
Penalty Guidelines.

       24   The head of the division where the employee works submits Douglas Factors
for all investigations except for DIAs when the allegations are not substantiated.



U.S. Department of Justice                                                              8
Office of the Inspector General
Evaluation and Inspections Division
      In addition to the guide, the Internal Investigations Section created
an online training course to assist FBI employees who conduct
misconduct investigations. Although the Internal Investigations Section
strongly suggests that employees complete the online training prior to
conducting a misconduct investigation, it is not required. 25

      A misconduct investigation may involve more than one FBI
employee, and an employee may be investigated for more than one type
of misconduct. For example, the 1,551 closed misconduct investigations
from FY 2005 to FY 2007 that we examined in this review involved 1,657
employees who were investigated for 2,777 allegations of misconduct.
The breakdown of misconduct allegations during the time period we
reviewed is shown in Figure 1 below.




        25 The online training is required for Supervisory Special Agents assigned to the

Internal Investigations Section and for Assistant Inspectors-in-Place. Assistant
Inspectors-in-Place are Supervisory Special Agents who seek to be promoted to the
position of Assistant Special Agent in Charge and therefore must meet specific
minimum requirements, including completing an inspection certification program. To
complete the inspection certification program, an Assistant Inspector-in-Place must
complete various tasks, such as conducting misconduct investigations. The Assistant
Inspector-in-Place can conduct the required misconduct investigations in the field or
participate in a 2-week assignment in the Internal Investigations Section.



U.S. Department of Justice                                                              9
Office of the Inspector General
Evaluation and Inspections Division
                Figure 1: Types of Misconduct Allegations



                                             4%



                               27%                   20%




                             14%
                                                  35%




               Investigative Misconduct           Integrity/Ethical Misconduct

               Property-Related Misconduct        Illegal/Criminal Misconduct

               General Misconduct


Source: OIG analysis of data from the FBI’s Case Management System.

       If Internal Investigations Section personnel determine that no
action is required regarding an allegation, the information is placed in a
“zero file” that contains all allegations that were not opened as
investigations. The Internal Investigations Section also sends a written
notice to whomever reported the allegation (if the identity of that person
is known) stating that it will take no action. According to the FBI,
common reasons for not opening a misconduct investigation include:

       •   the issue described in the allegation was a performance issue;
       •   the allegation involved a former FBI employee or a non-FBI
           employee, such as a local police officer who was part of an FBI
           task force; or
       •   the allegation described behavior that is not misconduct (e.g., a
           married employee having an affair with a consenting adult who
           was not in any way connected to the FBI).

Of the 5,377 misconduct allegations that were received in the Internal
Investigations Section from FY 2005 through FY 2007, 74 percent were


U.S. Department of Justice                                                       10
Office of the Inspector General
Evaluation and Inspections Division
placed in the “zero file” instead of being opened as investigations by the
OIG, FBI, or the Department’s OPR. Figure 2 provides an overview of the
reporting and investigation process for allegations of misconduct at the
FBI.




U.S. Department of Justice                                             11
Office of the Inspector General
Evaluation and Inspections Division
                            Figure 2: FBI Process for Reporting and
                            Investigating Allegations of Misconduct
                                                                                                                            If the allegation was
                                              Misconduct allegation is received in the Initial Processing                   reported to the OIG first,
                                            Unit, which enters it into tracking database, then forwards it to               the OIG notifies the
                                                   OIG Assistant Special Agent in Charge for review.                        Internal Investigations
                                                                                                                            Section (IIS).




                                                                 OIG Assistant Special
                                                              Agent in Charge makes one
                                                                of three determinations
                                                               regarding the allegation:




                               The OIG will investigate               The OIG will not
                                                                                               The OIG deems allegation
                             allegation and send it to IIS     investigate allegation, but
                                                                                              is an FBI matter and has no
                                 when investigation is          will review completed FBI
                                                                                                  further involvement.
                                      complete.                        investigation.




                                         Need more
   Additional Information required to                                                               No action    No action: allegation is filed in the "zero
                                            info              The OIG returns allegation
        evaluate the allegation.                                                                                     file." Division notified that Initial
                                                               to IIS. IIS determines the
   Electronic Communication sent to                                                                              Processing Unit will take no action and
                                                                type of investigation or
     appropriate Division (typically                                                                             may be requested to counsel employee
                                                              decides to take no action.
   where the employee is assigned).                                                                                 or handle as performance issue.




                                           NDI                                DIO                          DIA

                                                                    The allegation is
                                The allegation is                                                         The allegation is
                                                                 investigated in field or
                         investigated by Supervisory                                              investigated and adjudicated
                                                             headquarters division where
                          Special Agent assigned to                                                  in field or headquarters
                                                              employee who committed
                         Internal Investigation Unit in                                             division where employee
                                                                 alleged misconduct is
                              IIS. The completed                                                      who committed alleged
                                                               currently assigned. The
                           investigation is sent to IIS                                               misconduct is currently
                                                              completed investigation is
                            Unit Chief for approval.                                                          assigned.
                                                                sent to IIS for approval.



                                                                                                    The field or headquarters
                                                                                                  division makes determination
                                                                                                  whether allegation has been
                                                                                                        substantiated and
                                                                                                    recommends disciplinary
                                                                                                              action.


                                                               An IIS Unit Chief ensures
                                                               investigation is complete
                                                                   and may request
                                                               more investigative work.



                                                 IIS sends all completed investigations to FBI OPR for
                                                 adjudication, including DIAs for approval of division's
                                                           recommended disciplinary action.

Source: FBI documents and interviews with FBI officials.




U.S. Department of Justice                                                                                                                    12
Office of the Inspector General
Evaluation and Inspections Division
Adjudication of Misconduct Investigations

      FBI OPR oversees the adjudication of misconduct investigations.
At the time of our review, FBI OPR consisted of an Assistant Director,
2 Unit Chiefs, 14 adjudicators, an Executive Assistant, 2 Special
Assistants, and a Human Resources Assistant. 26 Adjudicators are
assigned to work in either Adjudication Unit I or Unit II, which cover the
same geographical areas as the two Internal Investigations Units in the
Internal Investigations Section. For example, if a case was investigated
by Internal Investigations Unit I, then generally the case would be
adjudicated by Adjudication Unit I.

       When FBI OPR receives a completed investigation from the Internal
Investigations Section, the responsible Unit Chief reviews the file and
assigns the case to an adjudicator. The adjudicators initially analyze the
allegation using a preponderance of the evidence standard to determine if
the alleged misconduct is substantiated. Preponderance of the evidence
is defined as “the degree of relevant evidence that a reasonable person,
considering the record as a whole, would accept as sufficient to find that
a contested fact is more likely to be true than untrue.” 27 If FBI OPR
decides that more information is needed before the adjudication can be
completed, it can request that the Internal Investigations Section or the
OIG, depending on who investigated the case, conduct additional
investigation. The adjudicator prepares a draft memorandum (called an
“addendum”) that documents why FBI OPR did or did not substantiate
the offense and how it determined the disciplinary recommendation.

      To determine the appropriate penalty, adjudicators in FBI OPR
consider a variety of factors. According to FBI OPR managers,
considerations of particular importance are:

       •    the FBI Offense Table and Penalty Guidelines to establish the
            range of penalties (standard, mitigated, or aggravated) for the
            misconduct;
       •    precedent data to ensure the penalty is consistent with
            discipline imposed on other employees for the same or a similar
            offense; and
       •    the field or headquarters division’s written assessment of the
            Douglas Factors.

       26 These 14 adjudicators included 3 agents, 5 lawyers, and 6 support
adjudicators.

       27   5 C.F.R. § 1201.56(c)(2).



U.S. Department of Justice                                                    13
Office of the Inspector General
Evaluation and Inspections Division
       A Unit Chief reviews the adjudicator’s draft recommendation and
finalizes the addendum. The addendum is then returned to the
adjudicator, who drafts a letter to the employee based on the revised
addendum. Once the adjudicator completes the letter, the complete
package, including all investigative materials, the addendum, and the
letter to employee, it is forwarded to FBI OPR management for review. 28

       If FBI OPR determines that the allegation has not been
substantiated, then no disciplinary action is taken against the employee.
In such cases, FBI OPR sends a “no action” letter to the division head at
the field or headquarters division where the employee works stating that
no action will be taken against the employee.

      If FBI OPR determines that the allegation is substantiated, it
makes a disciplinary determination. As described previously, discipline
can be a non-adverse action (a suspension of 14 days or less, a letter of
censure, or an oral reprimand) or an adverse action (a suspension of
more than 14 days, a demotion, or a dismissal). The processes for
handling non-adverse and adverse actions differ.

       If FBI OPR decides that non-adverse action is appropriate, an FBI
OPR Unit Chief sends a letter to the employee outlining the findings and
the final disciplinary action. In these cases, the Unit Chief is the
deciding official and there is no proposal stage. The employee does not
have the opportunity to review the documents that FBI OPR used to form
the basis for its decision and cannot submit a written presentation or
make an oral presentation to FBI OPR. Oral reprimands and letters of
censure are imposed immediately. However, non-adverse suspensions
(14 days and less) are not served until after the employee has had the
opportunity to appeal the disciplinary decision.

       If, in contrast, FBI OPR concludes that adverse action (a
suspension of more than 14 days, a demotion, or a dismissal) is the
appropriate discipline, the proposing official (the Unit Chief of the
Adjudication Unit assigned the case) first recommends disciplinary
action in a letter to the employee. The employee can then request to
review the documents that FBI OPR used to form the basis for its
decision. If the employee makes such a request, the FBI’s Civil Discovery
Review Unit redacts any information that is classified or that raises
Privacy Act concerns before the employee reviews the redacted file. The
employee may submit a written statement and make an oral presentation
to the Assistant Director of FBI OPR. At the conclusion of the proposal

       28   FBI OPR does not prepare addenda for DIAs.



U.S. Department of Justice                                              14
Office of the Inspector General
Evaluation and Inspections Division
stage the Assistant Director, who acts as the deciding official, determines
the disciplinary action and informs the employee in a decision letter. 29
The employee can appeal any adverse action, and a suspension is not
imposed until after the conclusion of the appellate process. However, if
the disciplinary recommendation is dismissal, the dismissal becomes
effective immediately. If an appeal of a dismissal is successful, the
employee is reinstated with back pay.

      Each quarter, FBI OPR distributes to FBI employees an e-mail
containing information on recent disciplinary decisions involving
substantiated misconduct. The summary of each decision includes a
description of the substantiated misconduct, the disciplinary action
imposed, and the mitigating or aggravating factors used in FBI OPR
decisions made during the preceding quarter. 30

       Figure 3 provides an overview of the FBI’s adjudicative process.




       29 After the oral presentation and review of the information provided in the
written presentation, the Assistant Director also may determine that the allegation has
not been substantiated and issue a “no action” letter.

       30FBI OPR does not include the names of any employees, field divisions, or
headquarters divisions in this quarterly summary.



U.S. Department of Justice                                                           15
Office of the Inspector General
Evaluation and Inspections Division
  Figure 3: FBI Process for Adjudicating Misconduct Investigations

                                           Once investigation is
                                          complete, the Internal
                                          Investigations Section
                                       forwards file to FBI OPR for
                                              adjudication.




                                              FBI OPR Unit Chief
                                               assigns case to
                                                 adjudicator.




                                                                                                   When adjudicator believes
                                                                                                     that more information is
                                        The adjudicator determines
                                                                                                       needed, additional
                                          whether investigation
                                                                                                   investigation is requested
                                        substantiates allegation(s)
                                                                                                         from the Internal
                                        and may propose an initial
                                                                                                    Investigations Section or
                                            disciplinary action.
                                                                                                  the OIG, depending on who
                                                                                                    conducted investigation.




                                                                                  Not
              Substantiated
                                                                              Substantiated
                                        FBI OPR managers review                                   When FBI OPR determines
                                        and approve adjudicator's                                   allegation has not been
                                       determination and conclude                                substantiated, FBI OPR takes
                                        type of action appropriate                                 no action and sends a no
                                             for misconduct.                                       action letter to employee.




                   Non-adverse                                                    Adverse


                                                                   For adverse actions, FBI OPR proposing
    For non-adverse actions, there is no
                                                                   official sends letter informing employee of
  proposal letter. FBI OPR sends letter to
                                                                    proposed disciplinary action. Employee
  employee outlining the findings and final
                                                                    has opportunity to review file, prepare a
             disciplinary action.
                                                                   written response, and have oral hearing.




      Oral reprimands and Letters of                        After oral hearing, FBI OPR deciding official makes
  Censure are automatically imposed, but                      decision and sends final letter to employee that
   suspensions of 14 days and less can                    specifies disciplinary action. The employee can appeal
   be appealed. Appealed suspensions                        any adverse action. Appealed suspensions are not
    are not imposed until final appellate                imposed until final appellate decision, but dismissals are
                 decision.                                                   imposed immediately.




Source: FBI documents and interviews with FBI officials.




U.S. Department of Justice                                                                                                      16
Office of the Inspector General
Evaluation and Inspections Division
Appeals of Disciplinary Decisions

      The Appellate Unit within the FBI Human Resources Division
oversees the FBI’s appellate process for disciplinary matters. At the time
of our review, the Appellate Unit consisted of a Unit Chief, two attorneys,
and three paralegals. In FY 2007, the Appellate Unit received 68 new
appeals, while the appeals for 104 employees were decided during the
time period.

      Most FBI employees can appeal all disciplinary actions except oral
reprimands and letters of censure. 31 However, employees who have not
completed their probationary period cannot appeal any disciplinary
decision. 32 The Assistant Director of the Human Resources Division is
the appellate deciding official for appeals of non-adverse actions. For
appeals of adverse actions, the Human Resources Division convenes a
Disciplinary Review Board, and the group serves as the appellate
deciding official. 33

      Until August 2007, the Disciplinary Review Board consisted of
three voting members: the Assistant Director of the Human Resources
Division, who served as the chair; one Senior Executive Service (SES)
supervisor who served a 6-month term on all Disciplinary Review Boards
convened during that period; and one mid-level supervisor or SES
supervisor personally selected by the employee filing the appeal.

       The FBI revised its appellate process in August 2007 to create a
five-member Disciplinary Review Board to decide all adverse action
appeals filed on or after August 31, 2007. Under the revised procedure,
the Assistant Director of the Human Resources Division remains the
chair, but the other four seats are held by two Special Agent supervisors
and two non-agent supervisors, each of whom serves a 6-month term on


       31  If the employee is a preference-eligible veteran, the employee can also appeal
to the Merit Systems Protection Board. An employee must start the board’s process
within 30 days of the FBI OPR deciding official’s final decision. At the same time, the
employee can also appeal FBI OPR’s decision internally. If an employee appeals
through both the Merit Systems Protection Board and internally, typically the board will
stay its decision until the FBI’s internal appellate process is complete.

       32 The probationary period is 1 year for most FBI employees, except for Special
Agents, Forensic Examiners, and Language Specialists whose probationary period is
2 years.

       33 We use the term “appellate officials” in this report to refer to both the
Assistant Director of the Human Resources Division and the Disciplinary Review Board.



U.S. Department of Justice                                                            17
Office of the Inspector General
Evaluation and Inspections Division
all Disciplinary Review Boards convened during that period. Four
additional SES-level supervisors and two additional mid-level supervisors
serve as alternates for the same 6-month term.

       When SES employees file appeals, the four Disciplinary Review
Board members are all SES supervisors. When non-SES employees file
appeals, the four members include two SES supervisors and two mid-
level supervisors. At least one member of the board must be from a field
division. Non-voting observers also attend all SES and non-SES board
meetings, including representatives from the FBI’s Office of the General
Counsel, the Office of Equal Employment Opportunity Affairs, and an
additional mid-level, non-SES, manager. The revised procedures also
require the board to tape record its deliberation.

       In selecting the Disciplinary Review Board members, the Appellate
Unit forwards four computer-generated lists of all employees in each of
the following categories to the FBI Associate Deputy Director:

       1.   Special Agents in the SES ranks,
       2.   Non-agent employees in the SES ranks,
       3.   Special Agents who are mid-level managers (GS-14/15), and
       4.   Non-agent mid-level managers (GS-14/15).

       The lists exclude employees whose participation on the
Disciplinary Review Board might raise allegations of bias or create an
appearance of impropriety, including those in the Director’s Office,
FBI OPR, the Inspection Division, Office of Equal Employment
Opportunity Affairs, the Human Resources Branch, the Office of General
Counsel, and employees at the Assistant Director level or above. The
lists are then forwarded to the Associate Deputy Director with a request
that he “randomly select four individuals from each of the four respective
lists of employees.” The individuals identified by the Associate Deputy
Director are those employees who will serve a 6-month term on the
upcoming Disciplinary Review Board. However, we found that the
Associate Deputy Director was not randomly selecting employees from
these lists to serve on the Disciplinary Review Board, but was instead
selecting members of the Board who he considered to be “mature and
fair.”

      According to an August 2007 memorandum describing the
changes to the Disciplinary Review Board, the process was changed in
part because:

       Allowing appellants to personally select a [Disciplinary Review Board]
       member potentially exposes the appellate process to allegations of bias or


U.S. Department of Justice                                                          18
Office of the Inspector General
Evaluation and Inspections Division
       conflicts of interest. Moreover, said selection can cause confusion by
       creating the misconception that the role of the [Disciplinary Review
       Board] member selected by the appellant is one of advocate, rather than
       an objective and impartial judge. In order to maintain the confidence of
       all Bureau employees, the FBI must ensure the internal disciplinary
       process is beyond reproach. With respect to the [Disciplinary Review
       Board] process in particular, FBI policy should foster the creation of an
       impartial, deliberative body before which relevant factual and/or legal
       issues can be appropriately analyzed and discussed.

       According to a senior FBI official, the FBI also made these changes
to the Disciplinary Review Board in response to two cases in which the
FBI Director’s Office believed that the Disciplinary Review Board had
made unreasonable decisions. In one of those cases, FBI OPR dismissed
a Special Agent but the Disciplinary Review Board unsubstantiated the
offenses on appeal and instead issued a “no action” letter. 34 In the
second case, FBI OPR suspended an SES official for 30 days and
demoted him to a GS-13 Special Agent, but on appeal the Disciplinary
Review Board revised the demotion to a GS-15 Assistant Special Agent in
Charge. 35 The FBI Director exercised his authority to intervene in
disciplinary cases, in the first case by imposing a 21-day suspension on
the Special Agent and in the second case by demoting the SES official to
a GS-13 Special Agent as the original decision imposed.

       In addition, to address concerns of partiality or bias, the
August 2007 revisions eliminated an employee’s right to select one of the
Disciplinary Review Board members. Instead, the employee is now given
the opportunity to object to one of the randomly selected members. If the
employee exercises this option, that member is removed and one of the
alternates serves on the board. Finally, so that it would remain informed
of the Disciplinary Review Board’s decisions, the FBI Director’s Office
required the board to provide it with formal notification of all of its
decisions.

      When an employee initiates an appeal, the employee can ask to
review a copy of the investigative file that FBI OPR relied on to make its
decision. If the employee makes that request, the FBI’s Civil Discovery
Review Unit redacts any information that is classified or that raises

       34  The Special Agent was alleged to have disclosed to the FBI sensitive
documents from a government commission to which the FBI Special Agent was detailed,
in violation of the commission’s non-disclosure rules.

       35 The SES employee was alleged to have used an FBI vehicle for personal
reasons to visit relatives in another state on the weekends. This case is discussed in
more detail in the Double Standard of Discipline section of this report.



U.S. Department of Justice                                                               19
Office of the Inspector General
Evaluation and Inspections Division
Privacy Act concerns. As stated previously, during the adjudicative
phase, if an employee is proposed for an adverse action, the employee
has an opportunity to review the file and prepare a written and oral
response to FBI OPR. For non-adverse cases, the employee does not
have an opportunity to review the file during the adjudicative phase, and
the appeal is the employee’s first opportunity to review a redacted copy of
the file. After reviewing the file, the employee can submit a written
supplemental appeal, but the employee cannot make an oral
presentation to the appellate deciding officials.

       An Appellate Unit employee reviews the investigative and
adjudicative file, as well as the supplemental appeal, and drafts an
analysis of the issues presented in the appeal. The analysis is intended
to address the issues included in the employee’s supplemental appeal
document and any other issues that the Appellate Unit employee believes
are in need of analysis. The analysis also includes the Appellate Unit’s
recommendation to either uphold or mitigate FBI OPR’s disciplinary
decision. The Appellate Unit’s analysis, the employee’s supplemental
appeal, and a copy of the investigative file that FBI OPR relied on to make
its decision are then provided to the appellate deciding official, which, as
explained above, could be either the Assistant Director of the Human
Resources Division in non-adverse action appeals or the Disciplinary
Review Board in adverse action appeals. If Appellate Unit personnel, the
Assistant Director, or Disciplinary Review Board members believe that
more information is needed before making a decision, they can request
that the Internal Investigations Section or the OIG conduct additional
investigation.

       FBI policy states that, in the appellate process, FBI OPR’s findings
of fact are subject to the “substantial evidence” standard of review.
Substantial evidence is defined as “the degree of relevant evidence that a
reasonable person, considering the record as a whole, might accept as
adequate to support a conclusion, even though other reasonable persons
might disagree.” 36 This is a lower standard of proof than the
preponderance of evidence standard that is used in the adjudicative
phase.

      FBI policy prior to August 19, 2005, stated that when deciding
whether a penalty is appropriate, appellate officials “may independently
redetermine . . . the penalty imposed . . . .” In effect, this was a de novo
review of FBI OPR’s penalty determinations, in that the appellate officials


       36   5 C.F.R. § 1201.56(c)(1).



U.S. Department of Justice                                               20
Office of the Inspector General
Evaluation and Inspections Division
could mitigate the penalty without deference to FBI OPR’s previous
determination.

       An August 19, 2005 Electronic Communication stated that
appellate officials would begin applying a “substantial evidence” standard
of review to FBI OPR’s findings of fact, but the Electronic Communication
did not address what standard of review appellate officials should use
when reviewing penalty determinations by FBI OPR.

       Similarly, an August 31, 2007, Electronic Communication stated
that FBI OPR’s findings are subject to a “substantial evidence” standard
of review, without describing whether the term “findings” referred to both
factual findings and penalty determinations. The Appellate Unit Chief
told us that the Electronic Communication directed appellate officials to
use the substantial evidence standard with respect to both the factual
finding and the penalty determination. However, as we describe in more
detail in the Appellate section of this report, our review found confusion
among appellate officials and FBI OPR as to what standard of review the
appellate officials should apply to FBI OPR’s imposition of penalties.

       The appellate deciding official issues a two-part decision. First, the
official decides whether FBI OPR’s substantiation of the offense is
supported by substantial evidence. Second, the official reviews the FBI
OPR penalty and decides whether to uphold it or mitigate it. FBI policy
states that the appellate deciding official may not aggravate penalties on
appeal.

       The employee is notified of the appellate decision and the Appellate
Unit enters the case file information into a spreadsheet, referred to as the
Data Log Matrix, which tracks the status of appeals. The Appellate Unit
uses a separate document, referred to as the Modifications Log, to
identify all appeals in which the final appellate decision modified FBI
OPR’s original decision in some manner. Figure 4 provides an overview
of the FBI’s appellate process.




U.S. Department of Justice                                                21
Office of the Inspector General
Evaluation and Inspections Division
      Figure 4: FBI Process for Appealing Disciplinary Decisions

  Employee receives decision letter from FBI OPR.



     Employee sends letter to Assistant Director,           If employee is a preference
     Human Resources Division, stating intent to           eligible veteran, the employee
     appeal and requesting opportunity to review            can also appeal to the Merit
                     case file.                              Systems Protection Board.


      Employee files supplemental appeal that
           contains reason for appeal.



         Appellate Unit reviews case file and
        employee's supplemental appeal, and
                 prepares analysis.



      The Assistant Director, Human Resources
         Division (for non-adverse cases) or
        Disciplinary Review Board (for adverse
         cases) reviews case file, employee's
       supplemental appeal, and Appellate Unit
      analysis. The respective deciding official
               renders two-part decision.


                                                       When more information is needed
      Part I - Appellate deciding official decides
                                                       before making decision, a request
        whether FBI OPR's substantiation of
                                                             is made to the Internal
         offense is supported by substantial
                                                       Investigations Section or the OIG
                       evidence.
                                                          for additional investigation.


      Part II - Appellate deciding official reviews
      penalty chosen by FBI OPR and decides
       whether to uphold or mitigate penalty.




    Appellate deciding official makes final decision
      and employee is notified of final appellate
    decision. The case file information is entered
                into Data Log Matrix.


Source: FBI documents and interviews with FBI officials.




U.S. Department of Justice                                                              22
Office of the Inspector General
Evaluation and Inspections Division
Implementation of Discipline

      Any discipline resulting in suspension, demotion, or removal must
be documented on an SF-50 in the employee’s Official Personnel
Folder. 37 Information regarding an employee’s suspension, demotion, or
removal is also entered into the FBI’s Case Management System and the
Bureau Personnel Management System, which contains, among other
things, data regarding employee personnel actions.

       The FBI typically imposes suspensions for set amounts of time,
generally 3, 5, 7, 10, 14, 15, 30, 45, or 60 days if one offense is
substantiated. When there are multiple offenses, it is more likely that
the suspension period will not fall within this range. While no FBI policy
sets a maximum suspension length, FBI OPR’s practice has been to
impose suspensions no longer than 60 days for a single substantiated
offense. If FBI OPR believes that a substantiated offense requires
discipline more severe than 60 days, then it recommends dismissal.

       The FBI’s Penalty Guidelines state that when multiple offenses are
substantiated against an employee, the penalties for all of the offenses
will be added together and served consecutively unless the substantiated
charges are essentially restatements of the same act of misconduct. In
cases that involve more than one substantiated offense, the FBI OPR
addendum identifies either the individual penalty imposed for each
offense or the aggregate penalty for all offenses. In either case, FBI OPR
identifies the final disciplinary action, whether it is the total number of
days to be served on suspension or dismissal. In such cases, the Case
Management System and the Appellate Unit’s Data Log Matrix track only
the aggregate penalty imposed.

      Once a penalty of suspension has been decided, FBI policy states
that the “period of suspension will always commence at the close of
business, Friday of any given week” and that all suspensions are
calculated using calendar days. Therefore, a 5-day suspension results in
a suspension period extending from Saturday through the following
Wednesday. During suspensions, employees lose pay only for those days
they were normally scheduled to work. For example, in a 5-day
suspension an employee on a normal Monday-through-Friday schedule
loses pay for 3 days because Saturday and Sunday are counted as 2 of
the 5 suspension days. The shortest suspension that an FBI employee
can receive is a 3-day suspension, which generally results in a

       37 Two SF-50s are used to document a suspension – one documenting the
beginning date of the suspension and one documenting the return date of the employee.



U.S. Department of Justice                                                        23
Office of the Inspector General
Evaluation and Inspections Division
suspension period of Saturday, Sunday, and Monday, with the loss of
pay for a single day (Monday).

Time Frames for Disciplinary System Action

       FBI policy states that misconduct investigations and adjudications
should be completed within 180 days. The 180-day time frame includes
the time to complete both the investigation and the adjudication. If it is
not possible to complete the investigation and adjudication within
180 days, extensions can be granted in 30-day increments. The
Assistant Director of the Inspection Division approves extensions for
investigations and the Assistant Director of FBI OPR approves extensions
for adjudications. The extension request must specify the investigative
or adjudicative activities conducted during the previous 30-day period
and the activities that will be completed during the next 30 days.

      The 180-day time frame does not include the appellate phase, and
FBI policy currently does not establish any official time frames for
completing the appellate process. However, Appellate Unit officials told
the OIG that they have set an informal goal of completing non-adverse
appeals within 90 days and adverse appeals within 120 days.

Previous Reports on the FBI’s Disciplinary System

      In 2002 and 2003, the OIG issued two reports examining
complaints from FBI employees that a double standard of discipline
existed in the FBI under which senior managers were treated more
leniently than other employees. 38 In the 2002 review of allegations of a
double standard of discipline, the OIG examined: (1) a 1999 FBI internal
report that had concluded that senior FBI managers received different
and more favorable treatment than other employees, (2) misconduct
cases involving SES employees that occurred after the release of the
FBI’s 1999 internal report, and (3) the investigation and discipline in two
misconduct cases that generated significant controversy inside and
outside the FBI about the discipline imposed on FBI employees. 39 The
OIG concluded that in these two misconduct cases senior managers
received different and more favorable treatment than less senior

       38  U.S. Department of Justice Office of the Inspector General, A Review of
Allegations of a Double Standard of Discipline at the FBI (November 2002) and U.S.
Department of Justice Office of the Inspector General, A Review of Allegations of a
Continuing Double Standard of Discipline at the FBI (November 2003).

       39  The two cases were misconduct allegations involving the Ruby Ridge matter
and a retirement party for former FBI Deputy Director Larry Potts.



U.S. Department of Justice                                                            24
Office of the Inspector General
Evaluation and Inspections Division
employees. Yet, due to several factors, including the low number of
disciplinary cases involving SES employees, the OIG did not find
sufficient evidence to conclusively establish that this disparate treatment
represented a systemic problem.

      However, in the 2002 report we also found that FBI employees
believed that a double standard of discipline existed within the FBI. To
address this perception, the OIG made five recommendations to the FBI:

       •   Although appellate officials were required to document their
           findings in writing and provide the employee with a written
           decision, the OIG recommended that if any changes were made
           to an FBI OPR decision on appeal those changes should be
           accompanied by a written justification explicitly describing the
           reasons for the changes.

       •   The OIG expressed a concern that if the Disciplinary Review
           Board consisted of only SES members there was the danger of a
           perception that SES employees who came before the board
           might be treated less harshly. The OIG recommended that the
           FBI consider including a non-SES member or a non-FBI
           employee on the board.

       •   The expectation within the FBI’s rank and file appeared to be
           that an SES employee should be disciplined in the same
           manner as a lower-level employee who engaged in similar
           misconduct. The OIG recommended that the FBI consider
           precedent from non-SES cases when disciplining SES
           employees and also stated that the FBI should not allow
           consideration of a manager’s record to routinely outweigh the
           equally important consideration that managers should be held
           to higher standards than other employees.

       •   Some SES officials told the OIG that they believed letters of
           censure had a more significant impact on the careers of higher-
           level employees than on the careers of lower-level employees.
           The OIG recommended that the FBI not allow the potential
           impact on the employee’s career to be considered as a
           mitigating factor when making disciplinary decisions.

       •   To address the strong perception among FBI employees of the
           existence of a double standard and the fact that the review
           found evidence supporting that belief, the OIG recommended
           that the FBI develop a mechanism to regularly review the
           results of SES and non-SES misconduct cases.

U.S. Department of Justice                                               25
Office of the Inspector General
Evaluation and Inspections Division
      A second OIG report issued in February 2003 examined an FBI
supervisor’s claim that he was threatened by the official then serving as
FBI OPR Assistant Director. The report also examined whether a double
standard of discipline continued to exist in the FBI. The OIG did not find
that the FBI OPR Assistant Director had threatened the supervisor,
although the report concluded that the FBI OPR Assistant Director
exhibited poor judgment in some of his actions. The OIG also reviewed
several cases cited by the supervisor as indicative of a double standard.
The OIG concluded that the small number of cases available for review
provided an insufficient basis to conclude that the FBI systematically
favored SES employees over lower-ranking employees.

      In May 2003, the FBI Director requested that former Attorney
General Griffin Bell and former FBI Associate Director Lee Colwell lead a
commission to study the FBI’s disciplinary process. In February 2004,
the resulting report (the Bell-Colwell report) identified individual and
anecdotal instances of disparate treatment, but the report did not
conclude that a systemic disparity existed between discipline imposed on
managers and non-management employees. 40 However, the report
stated that the perception of a double standard of discipline had an
adverse impact on morale and confidence in the FBI’s disciplinary
system.

      The Bell-Colwell report made 15 recommendations to the FBI to
improve the operation and perception of the disciplinary process,
including:

       •    The FBI should develop a new table of offenses and punishment
            guidelines for use in future misconduct cases that included
            standard penalties, aggravating and mitigating factors, and
            aggravated and mitigated penalty ranges.

       •    The FBI should develop a computerized database to track
            misconduct investigations opened under the new table of
            offenses, as well as precedent established under these new
            guidelines.

       •    The FBI should assign the investigative, adjudicative, and
            appellate phases of the disciplinary process to three separate
            FBI divisions to maintain checks and balances in the system
            and to reduce the perception among FBI employees that FBI

       40Griffin B. Bell and Lee Colwell, Study of the FBI’s Office of Professional
Responsibility (February 2004).



U.S. Department of Justice                                                            26
Office of the Inspector General
Evaluation and Inspections Division
           OPR adjudicators were prosecutors “making their case,” with
           the FBI OPR investigators acting as the adjudicators’ agents.

       •   The FBI should develop a working group to better differentiate
           between performance issues and misconduct.

       •   The FBI should clarify the appellate standard of review. The
           report described the “substantial evidence” standard as the
           most appropriate standard of review for FBI OPR’s findings of
           fact, and stated that the existing de novo standard in FBI policy
           was impractical and unnecessary.

       •   The FBI should alter the composition of the Disciplinary Review
           Board to include a non-SES voting member for all appeals by
           non-SES appellants because the commission believed that the
           inclusion of non-SES employees on the board would reduce a
           perception that the board was tilted in favor of SES appellants.

       •   The FBI should ensure that the final decision letter given to an
           employee following an appeal identifies the factors that
           supported the appellate decision. The commission found that
           while this was already required by FBI policy, it was not always
           done.

       The FBI made significant changes to its disciplinary process as a
result of the OIG and Bell-Colwell reports. Those changes are reflected in
the current disciplinary system described above. Among the changes
were:

       •   Mid-level managers now serve as voting members on the
           Disciplinary Review Board when non-SES employees file
           appeals. From August 2005 to August 2007, a non-SES
           employee was allowed to select either an SES manager or a mid-
           level manager to serve as one of three voting members on the
           board. When the board was expanded to five members in
           August 2007, the FBI required that two mid-level managers
           serve on the board for all non-SES appellants. This change was
           made to address the perception that the system was skewed in
           favor of SES employees.

       •   The FBI issued a revised Offense Table and Penalty Guidelines
           in November 2004. The Guidelines describe aggravating and
           mitigating factors that should be taken into consideration, and
           define both a standard penalty and aggravated and mitigated
           penalty ranges. The Bell-Colwell report had stated that the

U.S. Department of Justice                                                 27
Office of the Inspector General
Evaluation and Inspections Division
           previous Offense Table and Penalty Guidelines were not useful
           because they were too broad, they conflicted, or they suggested
           rather than required a particular range of punishments.

       •   The FBI implemented the Case Management System to track
           allegations, investigations, adjudications, and appeals in a
           database in November 2004. One section of the Case
           Management System tracks precedent decisions for each
           offense. The previous database was described as vague,
           incomplete, and flawed.

       •   The FBI reassigned the Internal Investigations Units and the
           Initial Processing Unit from FBI OPR to the Inspection Division
           in April 2004. The FBI also moved the Appellate Unit from the
           Inspection Division to the Human Resources Division so that
           the investigative, adjudicative, and appellate phases were
           handled by different FBI divisions. Previously, there were
           concerns that co-location of investigations and adjudications
           within one division had detracted from the credibility of the
           disciplinary process.

       •   The FBI changed the appellate standard of review for findings of
           fact from de novo to “substantial evidence” in August 2005.
           Although the reports had found that the substantial evidence
           standard was already being used in appealed cases, the reports
           had stated that the standard of review should be clarified and
           that a substantial evidence standard was more appropriate.




U.S. Department of Justice                                                28
Office of the Inspector General
Evaluation and Inspections Division
    PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG REVIEW


Purpose of OIG Review

      The OIG conducted this review to assess the FBI’s system for
reporting and investigating allegations of employee misconduct and for
disciplining employees who are found to have committed misconduct.
We examined the five phases of the FBI’s disciplinary system – the
reporting and investigation of alleged misconduct, adjudication and
appeals of misconduct cases, and implementation of the discipline
imposed by the FBI. The criteria that we used to evaluate the five phases
were:

       •    Reasonableness: Whether the factual determinations and
            penalties imposed were supported by substantial evidence and
            whether the process for investigations and adjudications were
            complete and thorough. 41
       •    Timeliness: Whether policies and procedures ensured timely
            reporting and investigation of alleged misconduct as well as
            timely adjudication and implementation of discipline.
       •    Consistency: Whether the disciplinary system processed
            similar misconduct cases using uniform standards.

Scope of OIG Review

      We examined data for disciplinary cases that were closed by
FBI OPR in FY 2005 through FY 2007, as well as allegations of potential
misconduct that the FBI received in the same 3 fiscal years. We also
examined data regarding appealed disciplinary cases that were closed by
the Appellate Unit from FY 2005 through the third quarter of FY 2008 in
order to include information related to actions by the reconstituted
Disciplinary Review Board.




       41  We used the same definition of substantial evidence that the FBI directs its
appellate officials to apply to FBI OPR’s factual determinations – that is, substantial
evidence is “the degree of relevant evidence that a reasonable person, considering the
record as a whole, might accept as adequate to support a conclusion, even though other
reasonable persons might disagree.”



U.S. Department of Justice                                                          29
Office of the Inspector General
Evaluation and Inspections Division
Methodology of OIG Review

Headquarters Interviews

       At FBI headquarters, we interviewed the current and former
Associate Deputy Director, and the Executive Assistant Director of the
Human Resources Branch. 42 We also interviewed the Assistant Directors
of the Inspection Division, FBI OPR, and Human Resources Division. In
addition, we interviewed employees in the Security Division and the
Corporate Policy Office.

       To understand the reporting and investigative process, we
interviewed the Section Chief of the Internal Investigations Section within
the Inspection Division. In the Internal Investigations Section, we
interviewed two Unit Chiefs and nine employees who reviewed incoming
allegations of potential misconduct or investigated the misconduct. We
also interviewed one employee who was responsible for the creation and
maintenance of the FBI’s disciplinary database, the Case Management
System.

      In FBI OPR, we interviewed two Unit Chiefs, six employees who
adjudicated disciplinary cases, and one Human Resources Assistant to
learn more about the adjudicative process. We also interviewed several
individuals in the Compensation, Leave, Recognition, and Performance
Unit to examine the differences in how performance issues and
misconduct matters are handled and from the Records Management
Division to learn how discipline is documented in Official Personnel
Folders.

      To understand the appellate process, we interviewed the Unit Chief
and three other employees who analyze appealed decisions in the Human
Resources Division’s Appellate Unit, as well as five employees who served
on the Disciplinary Review Board between FY 2005 and FY 2007 when
the board consisted of three members. Three of these Disciplinary
Review Board members served 6-month terms, and the remaining two
each served on a single board. We also interviewed four employees who
served on the board after it expanded to five members in January 2008.

      In addition, we interviewed an attorney at Swick & Shapiro, P.C.,
the law firm that serves as legal counsel for the FBI’s Agents Association.


       42 The Human Resources Branch oversees both the Human Resources Division
and the Training and Development Division.



U.S. Department of Justice                                                   30
Office of the Inspector General
Evaluation and Inspections Division
Swick & Shapiro attorneys often represent FBI Special Agents and non-
agent employees in the disciplinary process.

Site Visits

      We conducted site visits at four FBI field divisions and two
headquarters divisions. The field divisions were Baltimore, Maryland;
Houston, Texas; Los Angeles, California; and Washington, D.C. The
headquarters divisions were the Counterterrorism Division and the
Criminal Justice Information Services Division (CJIS). CJIS is located in
Clarksburg, West Virginia, but is considered a headquarters division. We
chose the sites based on several factors, including the number of
misconduct allegations reported from FY 2005 to FY 2007, the number of
investigations conducted in the field division or headquarters division
during that period, the number of Supervisory Special Agents who had
investigated misconduct, the location of OPR Coordinators, and input
from senior FBI personnel. 43

        During these site visits, we interviewed either the Special Agent in
Charge or Assistant Director in Charge, the Administrative Assistant
Special Agent in Charge or Section Chief, the Chief Division Counsel, the
OPR Coordinator, and Supervisory Special Agents, or other individuals
who investigated and adjudicated misconduct. In addition, we reviewed
any documentation that the six sites maintained regarding misconduct
allegations that did not become investigations. In total, we interviewed
57 employees at the 6 divisions. When we report the percentage of site
visit interviewees who held a particular opinion in our findings sections,
we based the percentage on the number of people who answered a
specific question on that topic instead of on the total number of
interviewees.

Case Management System

      The FBI provided us with data from its Case Management System
database, maintained by the Internal Investigations Section, which
contains information on the reporting and investigation of alleged
employee misconduct, the results of these investigations, and discipline
imposed. We reviewed data regarding 5,377 allegations that the Internal

       43  Within field divisions, a single employee is usually designated as the primary
point of contact for the division’s role in the disciplinary system. In five field divisions
(New York, New York; Los Angeles, California; Washington, D.C.; Atlanta, Georgia; and
Miami, Florida), one Supervisory Special Agent manages the division’s disciplinary
process as his or her primary duty. This person is known as an OPR Coordinator.



U.S. Department of Justice                                                                31
Office of the Inspector General
Evaluation and Inspections Division
Investigations Section received from FY 2005 to FY 2007. 44 We also
reviewed the data regarding 1,551 misconduct investigations that were
closed during that period. 45 We used the data to analyze various aspects
of the misconduct investigations, including the timeliness of reporting
allegations to the proper authorities, confirmation that the OIG had
reviewed all allegations, and disposition of the investigations. We also
used the Case Management System data as the basis for analyzing what
happened to misconduct investigations as they proceeded through the
adjudicative and appellate phases, including the timeliness of
disciplinary determinations; any changes that were made in the proposed
discipline from the proposal to the decision letter; the consistency of
disciplinary actions based on various factors, such as job series or grade
level; and confirmation that discipline was imposed.

      The Case Management System includes two fields addressing the
OIG’s involvement in misconduct allegations: “OIG Classification,” which
indicates whether the OIG will conduct an investigation into the
allegation, whether the OIG will review the completed FBI investigation,
or whether the OIG will have no involvement in the investigation; and
“OIG Number,” in which Internal Investigations Section personnel enter a
reference number that the OIG assigned to the allegation. To determine
whether the OIG reviewed all allegations, we randomly selected a sample
of 103 allegations in the Case Management System that had blank “OIG
Classification” and “OIG Number” fields. We first asked personnel in the
OIG’s Investigations Division to verify that they had reviewed the
allegations. We then asked personnel in the FBI’s Internal Investigations

       44  Our analysis regarding the timeliness of reporting of potential misconduct
allegations does not include allegations of potential Intelligence Oversight Board (IOB)
violations. IOB violations are defined in Executive Order 12863, President’s Foreign
Intelligence Advisory Board, as matters believed to be unlawful or contrary to Executive
Order or Presidential Directive. We excluded these during the period of our review
because the FBI Internal Investigations Section received a large number of potential IOB
violations resulting from a March 2007 OIG report, A Review of the Federal Bureau of
Investigation’s Use of National Security Letters, which found that a significant number of
potential IOB violations had not been reported to the Internal Investigations Section as
required by the FBI. In response to the report, the FBI Director instructed FBI
employees to report all potential IOB violations to the Internal Investigations Section,
even if the violations had occurred months or years before and even if they did not
include allegations of misconduct. As a result, 37 percent of all allegations that the
Internal Investigations Section received during the period of our review were IOB
violations. Because this was an unusual event, we did not consider IOB violations in
our data analysis.

       45   The date in the Case Management System that we used to determine that an
investigation was closed is the date that FBI OPR closed the investigation after issuing
its final disciplinary decision.



U.S. Department of Justice                                                            32
Office of the Inspector General
Evaluation and Inspections Division
Section to provide documentation verifying that those allegations the OIG
Investigations Division had no record of having reviewed had indeed been
forwarded to the OIG for review.

       The Case Management System also includes a way for the FBI to
record that discipline was imposed. For every employee who is
suspended, demoted, or dismissed, adjudicators in FBI OPR are
responsible for entering the action taken and the date the action took
place into the Case Management System. In total, we examined
personnel and time and attendance records for 83 FBI employees who
were suspended during our time period. As discussed below, our review
showed that the Case Management System contained no information
recording that suspensions had been imposed for 63 employees who
should have been suspended. As a result, we examined the employees’
Official Personnel Folders, printouts from the Bureau Personnel
Management System, and payroll records for these 63 employees to
determine whether their suspensions had actually been imposed. We
also examined similar documents for a select sample of 20 employees
whose suspensions were recorded in the Case Management System to
see if those employees had actually served their suspensions.

Appellate Unit Data Log Matrix

       The FBI provided us with data from the Appellate Unit’s Data Log
Matrix, a spreadsheet that contains information on the status of
appealed misconduct cases. As explained in the Background section of
this report, the FBI changed the composition of its Disciplinary Review
Board in August 2007 from three to five members. Although the time
period reviewed for the rest of our data was FY 2005 to FY 2007, we
requested data regarding all appeals in which the final appellate decision
was made from FY 2005 through July 2008 in order to include more
information related to actions by the reconstituted Disciplinary Review
Board. The data from FY 2008 includes 6 months of final appellate
decisions made by the new five-member Disciplinary Review Boards. 46

      For our specified time period, we reviewed data for 253 appeals,
including 164 appeals of non-adverse actions and 89 appeals of adverse
actions. We used the Data Log Matrix data to analyze the timeliness of
the appellate process, including the timeliness of non-adverse and
adverse appeals, as well as timeliness within each fiscal year in our

       46 One of the SES appeals and 18 of the non-SES appeals that we reviewed were
adjudicated by the Disciplinary Review Board after its composition had been
reconstituted in accordance with the August 2007 memorandum.



U.S. Department of Justice                                                       33
Office of the Inspector General
Evaluation and Inspections Division
scope. We also used the Data Log Matrix data to analyze what happened
to misconduct cases as they proceeded through the appellate phase,
including how many times FBI OPR’s disciplinary decisions were
mitigated during the appellate stage, as well as the frequency with which
disciplinary decisions were mitigated for different categories of
employees.

Document Review

      We examined FBI policies and manuals regarding the disciplinary
system; OIG Investigations Division data relating to the FBI’s disciplinary
system; previous OIG and FBI reports about FBI discipline; and federal
and Department-wide laws and regulations applicable to disciplinary
systems.

File Review

        As noted above, the FBI’s Offense Table describes five general
categories of misconduct: (1) investigative misconduct,
(2) integrity/ethical misconduct, (3) property-related misconduct,
(4) illegal/criminal misconduct, and (5) general misconduct. 47 For our
file review, we judgmentally selected 10 misconduct files containing the
offense code that was investigated with the highest frequency from each
of these 5 categories (based on our analysis of Case Management System
data) and where the standard penalty (according to the Offense Table)
was at least a suspension. We chose offense codes for which the
standard penalty was at least a suspension because we wanted our
sample to include files that could be appealed, and FBI policy does not
allow employees to appeal penalties that are less severe than a
suspension. In addition, we also decided to review investigations
involving the offense code “Lack of Candor – Lying Under Oath” based on
comments during our site visits and at FBI headquarters in which some
FBI employees expressed concern with the reasonableness of FBI OPR’s
decisions in those cases.

      The six offense codes and their descriptions from the FBI’s Offense
Table on which we based our sample were:

            •   Investigative Deficiency – Violation of Operational Guidelines
                and Policies, Other: Knowingly or recklessly failing to enforce or
                comply with an FBI or DOJ operational guideline or policy not


       47 Each category of misconduct includes a specific list of offense codes, the
standard penalty for each offense code, and the mitigated and aggravated penalties.



U.S. Department of Justice                                                             34
Office of the Inspector General
Evaluation and Inspections Division
                specifically delineated in any of the other “Investigative
                Deficiency” offense codes which falls outside the parameters of
                performance.

            •   False or Misleading Information – Fiscal Matters: Knowingly
                providing false or misleading information in a fiscal-related
                document; or, signing or attesting to the truthfulness of the
                information provided in a fiscal-related document in reckless
                disregard of the accuracy or completeness of the pertinent
                information contained therein.

            •   Lack of Candor – Lying Under Oath: Knowingly providing false
                information in a verbal or written statement made under oath.

            •   Misuse of Government Computer: Using a government
                computer for personal, unofficial, or unauthorized use.

            •   Fraud or Theft: Taking, obtaining, or withholding, by any
                means, from the possession of the government, or another owner,
                any money, property, or article of value of any kind, with the
                intent to deprive or defraud the government, or another owner, of
                the use and benefit of the property or with the intent to
                appropriate it for personal use or for the use of another entity or
                person other than the owner.

            •   Unprofessional Conduct – On Duty: Engaging in conduct, while
                on duty, which dishonors, disgraces, or discredits the FBI;
                seriously calls into question the judgment or character of the
                employee; or, compromises the standing of the employee among
                his peers or the community.

       From the Case Management System, we selected investigations
involving employees of all grade levels and job classifications that
represented all case types (DIO, DIA, NDI, OIG), and that involved only
one or two employees. We did not select any investigation in which the
only final action was resignation or retirement of the employee, or any
investigation with an unknown subject. 48 In addition to reviewing the
60 investigations described above, we also reviewed 4 additional
investigations in which an appellate official requested that more
investigation be conducted. Using this methodology, we selected
64 investigative and adjudicative case files, involving 69 employees, for
our review.


       48  We also did not select any investigations that were marked in the Case
Management System as being classified. However, once we were able to review the case
files, we determined that several were classified. We replaced these investigations with
unclassified ones involving the same offense code so that we could conduct an
unclassified analysis of the files.



U.S. Department of Justice                                                            35
Office of the Inspector General
Evaluation and Inspections Division
       The 69 employees included in our judgmental sample included
3 SES-level employees. To determine whether there was a double
standard of discipline between higher-ranking and lower-ranking
employees, we sampled an additional 17 misconduct files involving SES-
level employees. These 17 case files included 12 cases in which the SES-
level employee was found not to have committed misconduct at the
adjudicative stage, and 5 cases during the period of our review in which
the SES-level employee was found to have committed misconduct and
appealed FBI OPR’s decision to the FBI’s Human Resources Division. 49
Overall, we reviewed investigative and adjudicative case files involving
86 employees – 20 SES-level employees and 66 non-SES employees.

       We reviewed these employee misconduct files to determine if the
FBI maintained specific documents in the files, such as investigative
summary reports. We also reviewed the actual documents to determine
if the FBI provided explanations for its decisions during the investigative,
adjudicative, and appellate phases. For example, for the adjudicative
phase we reviewed the FBI’s explanation of its decision to substantiate or
not substantiate allegations and, if it substantiated the allegations, the
FBI’s explanation for imposing penalties. We also reviewed documents
that employees submitted during the process, including the employees’
response to proposed disciplinary actions and the employees’
supplemental appeals. In addition, two Special Agents with the OIG’s
Investigations Division and Oversight and Review Division and an OIG
Inspector reviewed the investigative case files to assess whether the
investigations appeared thorough and whether all relevant witnesses
were interviewed and all necessary documents were collected.

Employee Survey

      We also conducted a web-based survey of a stratified random
sample of FBI employees to determine their experience with and
perception of the FBI’s disciplinary system. Using data supplied by the
FBI about its employees, we assigned employees to different subsets and
selected a random sample of employees within each subset. 50 The




       49 One SES-level employee was investigated on two separate occasions and
found not to have committed misconduct by FBI OPR in either instance.

       50  Our sample was based on demographic data as of April 1, 2008. As of that
date, the FBI had 30,341 total employees, including 12,590 Special Agents and
17,751 non-agent personnel.



U.S. Department of Justice                                                        36
Office of the Inspector General
Evaluation and Inspections Division
subsets were defined by three demographic factors: grade level, job
series, and race. 51

      We sent an invitation to participate in the web-based survey to the
1,449 members of the sample for whom the FBI could provide current
FBI e-mail addresses. (Eleven other employees originally included in our
survey did not have current valid FBI e-mail addresses.) We received
818 responses to the survey for a 56-percent response rate. 52

      Some survey questions required respondents to choose among
several potential responses, while other questions allowed respondents to
respond in their own words. In choosing the respondents’ comments
included in the body of this report, we selected those that were most
representative of the opinions expressed by the respondents.

      Appendix I contains a copy of the survey and the results.
Appendix III contains the confidence intervals regarding the specific
results that were discussed in the body of this report.




        51   Our report found no statistically significant differences in responses based on
race.

        52 When we compared the survey responses from different types of employees,
such as SES employees and non-SES employees, we reported only those results that
were statistically significant at the 0.05 level. In other words, the differences in
responses that we report were unlikely to have occurred by chance, but rather were the
results of true differences in the population from which our sample was drawn.



U.S. Department of Justice                                                               37
Office of the Inspector General
Evaluation and Inspections Division
                            RESULTS OF THE REVIEW


REPORTING OF POTENTIAL MISCONDUCT

       We found that potential misconduct was not consistently
       reported to FBI headquarters or to the OIG as required
       by FBI policy. We could not determine whether FBI field
       and    headquarters  divisions   reported    misconduct
       allegations in a timely fashion because the FBI’s
       disciplinary database does not track the information
       needed to determine the timeliness of reporting.

FBI employees did not consistently report allegations of
misconduct.

      The FBI’s Manual of Administrative Operations and Procedures
states:

       Each employee has the responsibility to report promptly, any indication
       of possible exploitation or misuse of Bureau resources; information as to
       violations of law, rules or regulations; personal misconduct; or improper
       performance of duty . . . . Reporting may be to supervisors, the Director,
       the Office of Professional Responsibility, Inspection Division, FBI
       [headquarters], or directly to the Department of Justice Office of
       Professional Responsibility. 53

FBI employees may also meet that requirement by reporting allegations
of misconduct to the OIG.

      However, according to our survey, FBI employees did not
consistently report incidents of potential misconduct. Of 818 survey
respondents, 226 stated that they had observed or been made aware of
incidents of possible misconduct, and 18 percent of them (40 of 226)
stated that they did not report the misconduct. An additional 12 percent
(27 respondents) stated that they reported less than half of the
misconduct that they observed. Table 1 below shows survey
respondents’ answers to questions about reporting misconduct.




       53   FBI’s Manual of Administrative Operations and Procedures, Part I, Section 1-23.



U.S. Department of Justice                                                             38
Office of the Inspector General
Evaluation and Inspections Division
  Table 1: Responses to Survey Question: “Of the times that you
observed or were made aware of possible FBI employee misconduct,
    how often did you report it to the appropriate authority?”
                                               Number of responses   Percentage
 Every time                                               130           58%
 Most of the time
                                                           29           13%
 (at least half of the misconduct observed)
 Some of the time
                                                           27           12%
 (less than half of the misconduct observed)
 Never                                                     40           18%
 Total                                                  226             101%*

 * Percentages do not add to 100 because of rounding.
 Note: Only respondents who said that they had observed or been made aware of
 possible FBI employee misconduct between 2005 and 2007 answered this question.
 Source: Analysis of the OIG’s survey of FBI employees.

       The frequency of reporting varied significantly by the respondents’
grade level. We found that 28 percent of respondents at the GS-13 or
below level (26 of 93) and 22 percent of GS-14 or GS-15 respondents
(14 of 63) said that they “never” reported incidents of possible
misconduct that they had been made aware of. By contrast, none of the
70 SES respondents stated that they had “never” reported incidents of
potential misconduct.

      We asked all survey respondents what reasons might cause them
to choose not to report possible employee misconduct. The most
common reason offered by survey respondents was being unsure
whether what they observed was misconduct or a performance-related
matter. However, other reasons included that they feared retaliation for
reporting the misconduct, they believed that the employee would not be
disciplined even if they reported the misconduct, or they believed their
managers would not be supportive of their decision to report the
misconduct. Table 2 shows the various reasons given by survey
respondents for why they might not report misconduct.




U.S. Department of Justice                                                        39
Office of the Inspector General
Evaluation and Inspections Division
   Table 2: Responses to Survey Question: “Which of the reasons
  below would make you choose not to report possible misconduct
                       by an FBI employee?”
                                                                        Percentage of
                                                         Number of       respondents
                                                         responses      citing reason
I was not certain if it was misconduct or a
                                                              226             29%
performance issue.
I feared retaliation for reporting misconduct.                120             16%
I believed that the employee would not be disciplined
                                                              111             14%
even if I reported the misconduct.
I believed that management would not be supportive
                                                              103             13%
of my decision to report misconduct.
Another employee also witnessed, or was aware of, the
                                                               93             12%
incident and told me that he/she had reported it.
I was not familiar with the process for reporting
                                                               58              8%
misconduct.
I believed it was the supervisor’s responsibility to
                                                               43              6%
report misconduct.
I did not want to get a co-worker in trouble.                  38              5%
I did not want to get involved.                                32              4%
The employee was a good performer.                             22              3%
I thought the process would be too time-consuming.             14              2%

Note: Forty-seven of 818 respondents did not answer the question. Respondents could
select more than one response.
Source: Analysis of the OIG’s survey of FBI employees.

Field divisions did not forward some allegations of misconduct for
investigation, as required.

      The FBI’s Manual of Administrative Operations and Procedures
requires that “any information pertaining to allegations of misconduct or
improper performance of duty coming to the attention of any Bureau
employee be promptly and fully reported to [the FBI Inspection
Division].” 54

      Although FBI employees may report allegations of misconduct
through various channels, they typically report allegations to their
supervisor or other managers within their division who then forward the
allegation to the Internal Investigations Section. Of the 5,377 allegations

       54   FBI’s Manual of Administrative Operations and Procedures, Part I, Section 13-2.



U.S. Department of Justice                                                             40
Office of the Inspector General
Evaluation and Inspections Division
received by the Internal Investigations Section during the time period
covered by our review, 3,976 (74 percent) were referred from within the
FBI by field and headquarters divisions. 55 Because most employees
report misconduct through their division, it is important that the
divisions forward these allegations to the Internal Investigations Section.
However, we found that some potential misconduct reported by FBI
employees to managers in their divisions was not forwarded to the
Internal Investigations Section.

       During our site visits, we learned that some field and headquarters
divisions maintained “zero files” that contain documentation regarding
incidents of possible misconduct in their divisions that had been
forwarded to the Internal Investigations Section but did not lead to
investigations. In addition, the “zero files” also contain documentation of
incidents that did not necessarily involve misconduct but that were
nonetheless reported by employees (for example, an employee reported
that his personal credit card had been stolen and another employee
reported being the victim of a hit-and-run accident).

       We examined the six divisions’ “zero files” to determine whether all
reported possible misconduct allegations had been forwarded to the
Internal Investigations Section, as required by FBI policy. We found that
all incidents of reported potential misconduct in the “zero files” of three
of the six divisions that we visited had been forwarded to the Internal
Investigations Section for review. However, in the “zero files” of the
remaining 3 divisions, we identified 25 incidents from FY 2005 to
FY 2007 out of the 48 “zero files” that we reviewed that were not
forwarded to the Internal Investigations Section but that we considered
to be reportable allegations based on our review of the FBI’s Offense
Table.




       55  Of the remaining 26 percent of allegations, 10 percent were reported by the
OIG, 9 percent were reported by members of the public, 4 percent were reported directly
to the Internal Investigations Section by FBI employees, 2 percent were reported
anonymously, and less than 1 percent were reported by another federal agency or a
state or local agency.



U.S. Department of Justice                                                          41
Office of the Inspector General
Evaluation and Inspections Division
      We showed to personnel from the Internal Investigations Section
the 25 potential misconduct allegations that we considered to be
reportable allegations
and asked whether they      Example 1: The ex-wife of an employee called an FBI
believed the allegations    division to complain that she had begun to receive
                            harassing phone calls one day after her ex-husband was
should have been
                            ordered to pay her alimony. The FBI employee denied
reported to them. They      making any phone calls when first interviewed by
told us that they believed  supervisors in his office, but subsequently admitted “he had
that 8 of the 25            previously lied” about making the phone calls and wanted
allegations should have     to “set the record straight.” Instead of reporting the matter
                            to the FBI Inspection Division, the employee’s supervisors
been forwarded (see
                            counseled the employee that “in the future he should be
examples of these           completely truthful when being interviewed.”
allegations in the text
box), while they believed   Example 2: The former boyfriend of an FBI employee
that the other 17 did not   stated that the employee was abusing prescription drugs
                            without a prescription, including taking medications
need to be reported.
                                   prescribed for her daughter and for him.

       Among the              Example 3: An individual alleged that an FBI employee
incidents that the            was having an affair with the complainant’s wife and
Internal Investigations       misusing his FBI car to transport the woman to a hotel.
Section said did not need
                              Source: OIG and FBI analysis of documents provided by
to be reported were           FBI field divisions.
allegations of time and
attendance abuse, instances of employees self-reporting they had
accidentally accessed inappropriate websites or e-mails, an allegation
that two Special Agents tried to intimidate a private investigator, an
allegation that an FBI employee acted hostile and unprofessional in an
encounter with an FBI police officer, and an incident in which an FBI
agent received a speeding ticket. 56 Our review found that these types of
allegations were routinely reported by some FBI field and headquarters
divisions, indicating that the FBI is not uniformly interpreting the
requirement that all allegations of misconduct be reported. In addition,
the Internal Investigations Section Chief told us that the divisions should
forward all allegations of potential misconduct so the Section could make

        56 In addition there was an allegation of potential misconduct by an FBI agent

at a strip club that Internal Investigations personnel said did not need to be reported
because the field office could not find an FBI agent by that name in either the FBI field
office or in the FBI online phone directory. However, our review of the FBI’s Automated
Case Support system indicated that there was both an FBI employee and an FBI
contractor with the same name of the person alleged to have been at the strip club. We
concluded that this incident should have been reported so that Internal Investigations
Section personnel could determine whether the field office had done a sufficient
investigation to support its conclusion that the person alleged to have engaged in
misconduct was not an FBI employee.



U.S. Department of Justice                                                            42
Office of the Inspector General
Evaluation and Inspections Division
the determination whether the behavior constituted misconduct or
performance issues. We also concluded that the better practice would be
to forward all allegations of potential misconduct.

       We asked the personnel responsible for reporting misconduct on
behalf of these three divisions why they did not forward the alleged
misconduct to the Internal Investigations Section. They stated they did
not do so if the allegation appeared to have no basis or if the allegation
seemed more related to performance issues. 57 We also found in
interviews at our site visits that many individuals (21 of 55 individuals
we interviewed) told us that it was difficult to clearly distinguish between
performance and misconduct issues.

      Because we found that allegations of potential misconduct were
not being consistently forwarded to the appropriate authorities, we
believe the FBI needs to stress to field and headquarters divisions to
report all allegations of potential misconduct to the Internal
Investigations Section.

Most allegations of misconduct that the Internal Investigations
Section received were provided to the OIG, as required.

      Attorney General Order 2492-2001 states that “all evidence and
non-frivolous allegations of criminal wrongdoing and serious
administrative misconduct . . . shall be reported to the OIG.” We
examined the FBI’s process for providing allegations to the OIG and also
examined a random sample of allegations received by the FBI’s Internal
Investigations Section to determine if the FBI had provided them to the
OIG.

      We found that the Internal Investigations Section has established
appropriate procedures to ensure that misconduct allegations it receives
are provided to the OIG for review as required. When an allegation is
received in the Internal Investigations Section, a Conduct Review
Specialist in the Initial Processing Unit enters preliminary information
about it into the Case Management System and then shows the
complaint to the OIG Assistant Special Agent in Charge assigned to
monitor allegations of FBI misconduct. The OIG then determines
whether the allegation will be investigated by the OIG, investigated by the

       57 Field division personnel told us that if the matter involved poor performance,
they would address it by counseling the employee; discussing it with the Compensation,
Leave, Recognition, and Performance Unit; or having the employee’s supervisor deal
with it.



U.S. Department of Justice                                                           43
Office of the Inspector General
Evaluation and Inspections Division
FBI and monitored by the OIG, or referred back to the FBI for
appropriate handling.

      If the OIG refers the allegation back to the Internal Investigations
Section, the Section Chief decides whether the allegation will be
investigated by the FBI or placed in the “zero file.” By providing incoming
allegations to the OIG before providing them to the Section Chief, the
Internal Investigations Section tries to ensure that the OIG Assistant
Special Agent in Charge sees all allegations, not just those allegations
that the Section Chief considers worthy of investigation.

       When we attempted to verify from the FBI’s Case Management
System that the FBI had showed all allegations to the OIG, we found data
was missing from the system. Of the 5,377 allegations that we reviewed
in the Case Management System, we found that 2,151 (40 percent) were
missing information showing that the OIG had reviewed the allegation. 58

       We therefore examined a random sample of 103 allegations that
were missing information regarding the OIG’s review to determine if the
FBI had actually shown them to the OIG. We first asked personnel in the
OIG’s Investigations Division to verify that they had reviewed the
allegations. OIG personnel were able to confirm that they had reviewed
76 of the 103 allegations. We then asked personnel in the Internal
Investigations Section to provide documentation verifying that the
remaining 27 allegations had been provided to the OIG for review.
Internal Investigations Section personnel provided documentation
demonstrating that they had shown 19 of the 27 allegations to the OIG
for review, but were unable to document that they had done so with the
remaining 8, including 2 allegations they could not locate at all. 59


       58  The Case Management System includes two fields addressing the OIG’s
involvement in misconduct allegations: “OIG Classification,” which indicates whether
the OIG will conduct an investigation into the allegation, whether the OIG will review
the completed FBI investigation, or whether the OIG will have no involvement in the
investigation; and “OIG Number,” in which Internal Investigations Section personnel
enter a reference number that the OIG assigned to the allegation. To determine
whether the OIG reviewed all allegations, we randomly selected a sample of allegations
in the Case Management System that had blank “OIG Classification” and “OIG Number”
fields.

       59   The OIG Assistant Special Agent in Charge assigned to monitor FBI
misconduct allegations subsequently reviewed the eight allegations at our request. He
told us that had he reviewed the allegations when the Internal Investigations Section
first received them, he would not have recommended that the OIG investigate them, but
instead would have referred them to the FBI for it to handle.



U.S. Department of Justice                                                         44
Office of the Inspector General
Evaluation and Inspections Division
       We concluded that some allegations may not have been shown to
the OIG because the FBI’s reporting process is not fully automated. The
FBI’s process requires Internal Investigations Section personnel to
provide a hard copy of each allegation to the OIG Assistant Special Agent
in Charge, who verifies his review by initialing the individual documents
before returning them to the Internal Investigations Section. When the
OIG Assistant Special Agent in Charge returns the hard copies of the
allegations to the Internal Investigations Section, he also provides a letter
with the corresponding OIG reference number of the allegation. The
possibility of documents being misplaced during the transfer between the
Internal Investigations Section and the OIG is increased by the
dependence on paper instead of electronic records.

       The OIG Assistant Special Agent in Charge told us that he believes
the Internal Investigations Section intends to show him every allegation
that it receives and that the dependence on paper records may explain
why the Internal Investigations Section could not document that the
eight allegations in our sample had been shown to the OIG. To ensure
that the OIG receives all allegations of potential FBI misconduct, we
believe the FBI should consider automating its reporting process,
including requiring Internal Investigations Section personnel to enter
information regarding the OIG’s review into the FBI’s Case Management
System.

We could not determine whether field and headquarters divisions
reported allegations in a timely fashion because the FBI’s
disciplinary database does not collect the information needed to
track timeliness of reporting from divisions.

       The FBI’s Manual of Administrative Operations and Procedures
requires that potential misconduct allegations be reported “promptly.” In
our review, we were unable to determine the amount of time taken by
field and headquarters divisions to report misconduct because the FBI’s
Case Management System does not track when the divisions became
aware of potential misconduct.

       The FBI’s Case Management System allows users to track the date
the alleged misconduct occurred, the date on the document detailing the
potential misconduct, and the date the Internal Investigations Section
received that document. 60 However, division managers often do not


       The document detailing the potential misconduct could be an Electronic
       60

Communication, a facsimile, an e-mail, or hard copy letter. These documents may be
                                                                             (Cont’d.)

U.S. Department of Justice                                                         45
Office of the Inspector General
Evaluation and Inspections Division
become aware of misconduct until well after it occurs. Without knowing
when the divisions originally learned of the potential misconduct, we
could not determine whether they subsequently reported the misconduct
to the Internal Investigations Section in a timely manner.

      Nonetheless, we reviewed information contained in the FBI’s Case
Management System to determine possible reasons why allegations may
not be reported promptly. The following are examples of late reporting:

       •   An Electronic Communication documenting the arrest of an
           Intelligence Analyst for public intoxication, criminal
           trespassing, and resisting arrest was never submitted to the
           Internal Investigations Section by the appropriate official in the
           field division. Instead, the Security Officer in the field division
           discovered an Electronic Communication describing the
           incident on someone’s desk and forwarded it to the Internal
           Investigations Section. There was a delay of 5 months between
           the date of the arrest and the date the arrest was reported to
           the Internal Investigations Section.

       •   One field division delayed reporting a potential misconduct
           allegation for 37 days regarding an employee who wrote an
           inappropriate e-mail because the division decided to conduct its
           own internal inquiry before forwarding the allegation to the
           Internal Investigations Section. Internal Investigations
           personnel told us that the Section was going to remind the field
           division that it should not conduct its own inquiry until it had
           forwarded the allegation.

       •   Although an employee reported to his field division that he had
           lost his FBI credentials, the division never forwarded the
           allegation to the Internal Investigations Section and instead
           filed the allegation in its “zero file.” The misconduct was only
           reported to the Internal Investigations Section after the
           division’s “zero files” were audited during an inspection 2 years
           later, at which point the lost credentials were reported.

       •   A field division forwarded an allegation to the FBI’s Security
           Division that an employee had outside employment without
           prior approval, but failed to also forward the allegation to the
           Internal Investigations Section.

sent from field or headquarters divisions, members of the public, other federal agencies,
or state and local agencies.



U.S. Department of Justice                                                            46
Office of the Inspector General
Evaluation and Inspections Division
      Because the FBI’s Case Management System does not allow
Internal Investigations Section personnel to track when field and
headquarters divisions originally learn of potential misconduct, the FBI
is unable to determine whether the divisions are reporting in a timely
manner. To ensure the timely reporting of allegations of potential
misconduct, we therefore recommend that the Internal Investigations
Section consider requiring that field and headquarters divisions specify
when they became aware of the potential misconduct and that this date
be tracked in the Case Management System.

Recommendations

       We recommend that the FBI:

       1.   Remind all employees on an annual basis that all allegations
            of misconduct must be promptly reported to the FBI Internal
            Investigations Section or to the OIG.

       2.   Stress to field and headquarters divisions that they must
            forward all allegations of potential misconduct they receive to
            the Internal Investigations Section.

       3.   Consider automating the allegation-reporting process so that
            allegations can be reviewed by the OIG electronically instead
            of in hard copy.

       4.   Ensure that Internal Investigations Section personnel enter
            information regarding the OIG’s review into the FBI’s Case
            Management System.

       5.   Require field and headquarters divisions to specify, when
            forwarding allegations to the Internal Investigations Section,
            the date they became aware of the potential misconduct.

       6.   Modify the FBI’s Case Management System so that users can
            track the date that divisions become aware of potential
            misconduct.




U.S. Department of Justice                                                47
Office of the Inspector General
Evaluation and Inspections Division
INVESTIGATION OF MISCONDUCT ALLEGATIONS

       We found that FBI investigations of staff misconduct
       generally were thorough and conducted in a consistent
       manner.      We also found that the timeliness of
       misconduct investigations improved during the 3-year
       period of our review.

FBI investigations of misconduct generally were thorough.

      According to the FBI’s Internal Investigations Supervisor’s Guide,
the Internal Investigations Section’s mission is to “provide fair, thorough
and timely review and investigation into allegations of serious
misconduct.” To assess whether the Internal Investigations Section was
conducting thorough investigations, 2 OIG Special Agents and 1 OIG
Inspector examined a sample of 64 investigations conducted by the FBI’s
Internal Investigations personnel or field investigators of misconduct
allegations involving 69 employees. 61 The OIG staff reviewed various
aspects of the investigations, including whether all relevant individuals
were interviewed, whether necessary documents were included in the
investigative reports, and whether the investigations sufficiently
addressed the allegations.

      Overall, our review of the investigations involving the 69 employees
found that the investigations were generally thorough, the necessary
investigative steps were taken, and the investigations were well
documented in the investigative reports. More specifically, we found:

       •    allegations were properly classified according to the FBI’s Table
            of Offenses in the investigations for all 69 employees,

       •    the investigative reports for 68 of 69 employees (99 percent)
            contained the information necessary to thoroughly understand
            the actions taken during the investigation,

       •    the necessary documents were included in the investigative
            reports for 66 of 69 employees (96 percent),

       •    all relevant witnesses were interviewed for investigations
            involving 61 of 69 employees (88 percent), and


       61The investigations involved Special Agents and non-agent personnel, and
employees ranging from the GS-5 level to the SES level.



U.S. Department of Justice                                                         48
Office of the Inspector General
Evaluation and Inspections Division
       •    the investigation sufficiently addressed the allegations for 60 of
            69 employees (87 percent).

      Our review did not find major deficiencies in these investigations.
Overall we concluded that the FBI generally conducted thorough
investigations and took the necessary investigative steps in the cases we
reviewed.

      In addition to our investigative file review, we asked Internal
Investigations Section personnel about the quality of investigations
delegated to field and headquarters personnel. The Internal
Investigations Section delegates the investigation of minor and mid-level
misconduct matters to Supervisory Special Agents in the field or
headquarters divisions where the employees under investigation work. 62
Internal Investigations Section personnel monitor the progress of these
delegated investigations. The Internal Investigations Section must also
approve the delegated investigations before they can be adjudicated.

       Internal Investigations Section personnel reported to us that their
overall opinion was that the delegated investigations were “thorough” and
that the investigators in the field “did a good job” at producing quality
investigations. Seven Internal Investigations Section personnel we
interviewed stated that they rarely sent investigations back to the field
for more work before approving them.

       In addition, because FBI OPR personnel rely on the thoroughness
of the investigations when adjudicating the misconduct allegations, we
also interviewed them about the quality of FBI misconduct investigations
they received. Overall, their general opinion regarding the quality of the
investigations was positive. They said they noted little difference between
investigations completed by field personnel and investigations completed
by personnel from the Internal Investigations Section. Our own analysis
of Case Management System data found that FBI OPR returned few
investigations – 112 of 1,551 investigations (7 percent) from FY 2005
through FY 2007 – to the Internal Investigations Section for further
investigation. In addition, our own review of the investigations of
69 employees (which included 34 conducted by the Internal




       62  Of the investigations conducted by the FBI during the time period of our
review, the Internal Investigations Section conducted 24 percent and delegated the
remaining 76 percent to the divisions.



U.S. Department of Justice                                                            49
Office of the Inspector General
Evaluation and Inspections Division
Investigations Section and 32 conducted by the field) showed no
difference in the thoroughness of the investigations. 63

       In our survey, we asked FBI employees about their perception of
the thoroughness of misconduct investigations. As reflected in Table 3,
23 percent of survey respondents (165 of 718) agreed, and 13 percent
(95 of 718) disagreed. The remaining 64 percent (458 of 718) were either
neutral or said they did not know.

Table 3: Responses to Survey Question: “Please indicate how much
  you agree or disagree with the following statement: Misconduct
      investigations adequately address the relevant issues.”
                              Number of responses          Percentage
              Agree                   165                       23%
              Neutral                 138                       19%
              Disagree                 95                       13%
              Don’t Know              320                       45%
              Total                   718                      100%

              Note: 100 of 818 respondents did not answer the question.
              Source: Analysis of the OIG’s survey of FBI employees.

The timeliness of investigations improved during the 3-year period
that we reviewed.

     The FBI’s Internal Investigations Supervisor’s Guide states that
misconduct investigations and adjudications should be completed within
180 days, although this time frame can be extended if necessary. The
180-day time frame includes the time to complete both the investigation
and adjudication.

      To determine whether timeliness of the investigative phase
improved during the period we reviewed, we analyzed Case Management
System data for all 1,551 misconduct investigations closed from FY 2005
through FY 2007. 64 We found that the timeliness of FBI misconduct
investigations improved from a median of 92 days in FY 2005 to a
median of 81 days in FY 2007. Additionally, we found that

       63 The investigations for the remaining three employees were completed by the
OIG or by the Department’s Office of Professional Responsibility.

       64For our analysis of the timeliness of the investigative and adjudicative phases
combined, please see the Adjudication of Misconduct Investigations section.



U.S. Department of Justice                                                           50
Office of the Inspector General
Evaluation and Inspections Division
the percentage of investigations completed in 90 days or less increased
from 49 percent in FY 2005 to 60 percent in FY 2007 (see Table 4).

      Table 4: Number of Days to Complete Investigative Phase,
                        FY 2005 – FY 2007
                                                Percentage completed
         Number of days               FY 2005         FY 2006          FY 2007
    90 days or less                    49%             58%              60%
    91 to 180 days                     26%             28%              26%
    181 to 270 days                    14%              6%               7%
    271 to 365 days                     6%              3%               3%
    More than 365 days                  6%              5%               4%
    Total number of
                                       353              618             507
    investigations

    Note: Seventy-three of 1,551 investigations were missing dates either for
    when the investigation began or when the investigation ended and so are not
    included here.
    Source: OIG analysis of data from the FBI’s Case Management System.

       We also reviewed the timeliness of the investigative phase by type
of investigation and found differences by type. Non-Delegated
Investigations (NDI) were completed most quickly, with a median
completion time of 57 days. According to an Internal Investigations Unit
Chief, NDIs are completed quickly because they are more important
investigations, either because of the nature of the misconduct or the
rank of the subject. In addition, NDIs are conducted by investigators in
the Internal Investigations Section or by Assistant Inspectors-in-Place,
personnel who are able to make conducting these investigations a
priority.

      Investigations delegated to the field took longer to complete.
Delegated Investigation and Adjudication cases had a median completion
time of 77 days, while Delegated Investigation Only cases had a median
completion time of 90 days. Two factors can cause delegated
investigations to take longer to complete. First, delegated investigations
conducted by Special Agents in the field still must be reviewed and
approved by Internal Investigations Section personnel. Second, unlike
with NDIs, the Special Agents in the field who conduct delegated
investigations have other investigative responsibilities and conduct
misconduct investigations as a collateral duty.




U.S. Department of Justice                                                        51
Office of the Inspector General
Evaluation and Inspections Division
      Through our discussions with Internal Investigations Section
managers, we identified two changes that we believe contributed to the
improvement in timeliness from FY 2005 to FY 2007. First, the
investigative function was transferred from FBI OPR to the Inspection
Division in mid-2004, resulting in longer times to complete investigations
as the unit dealt with administrative matters related to the transfer.
Once the transition was completed, however, more Internal
Investigations Section resources could be devoted to investigations and,
consequently, in FY 2006 and FY 2007 the timeliness of the
investigations improved.

       Second, since 2007, the Unit Chiefs of the two Internal
Investigations Units have been taking a more active role in managing
ongoing investigations when the Supervisory Special Agents in their
units have been out of the office conducting NDIs. Internal
Investigations Section managers told us that issues related to ongoing
investigations often come up when Supervisory Special Agents are out of
the office. The Unit Chiefs said they are also monitoring the incoming
mail of Supervisory Special Agents who are traveling so that issues in
their other ongoing investigations can be addressed even before they
return to the office.




U.S. Department of Justice                                             52
Office of the Inspector General
Evaluation and Inspections Division
ADJUDICATION OF MISCONDUCT INVESTIGATIONS

       Our review concluded that most of FBI OPR’s decisions
       were reasonable, both in factual determinations and
       imposition of penalties. However, we found that in a
       significant number of cases where FBI OPR imposed non-
       standard penalties, it did not explain how those
       decisions were justified by precedent cases or did not
       include an assessment of the Douglas Factors, which
       could make it more difficult for the appellate officials to
       review these decisions on appeal. Moreover, we found
       inconsistencies in the discipline imposed in some of
       these cases. We also found that the FBI OPR Assistant
       Director has at times considered unwritten information
       she received outside the normal disciplinary process
       before making disciplinary decisions. Finally, the
       number of cases that met FBI timeliness standards
       improved during our 3-year review period.

Survey responses regarding FBI OPR’s disciplinary decisions.

      We asked survey respondents if they believed that the discipline
imposed by FBI OPR was generally appropriate, too harsh, or too lenient.
We found that 36 percent of survey respondents believed that the
penalties imposed were appropriate. Of the remaining respondents,
11 percent believed FBI OPR’s penalties were too harsh, 7 percent
thought the penalties were too lenient, and 45 percent said they did not
know. Table 5 contains the results of this survey question.




U.S. Department of Justice                                            53
Office of the Inspector General
Evaluation and Inspections Division
      Table 5: Responses to Survey Question: “Do you believe
    that the discipline the FBI imposes is generally appropriate,
         is generally too harsh, or is generally too lenient?”
                                                       All respondents
                                                               53
        Penalties are too lenient
                                                          (7 percent)
                                                              262
        Penalties are appropriate
                                                         (36 percent)
                                                               82
        Penalties are too harsh
                                                         (11 percent)
                                                              323
        Don’t Know
                                                         (45 percent)
                                                              720
        Total
                                                       (100 percent)*
        Note: 98 of 818 respondents did not answer the question.
        Source: Analysis of the OIG’s survey of FBI employees.
        * Percentages do not add to 100 because of rounding.

FBI OPR’s decisions to substantiate or not substantiate misconduct
allegations were reasonable in most cases.

      In reviewing FBI OPR substantiation decisions to determine
reasonableness, we first examined the case files for 69 employees from
our selected sample, which included 66 non-SES and 3 SES employees.
FBI OPR substantiated misconduct allegations against 52 of these
employees and did not substantiate allegations against 16 employees. 65
In assessing whether the decisions reached by FBI OPR were reasonable,
we analyzed whether the files contained “the degree of relevant evidence
that a reasonable person, considering the record as a whole, might
accept as adequate to support a conclusion, even though other
reasonable persons might disagree.” 5 C.F.R. § 1201.56(c)(1). We
concluded that two of the investigations were not thorough enough for us
to reach a determination as to whether the substantiation or non-
substantiation decisions were reasonable. However, we concluded that
the substantiation or non-substantiation decisions in the remaining files
were reasonable under the broad 5 C.F.R. standard identified above.

      We next reviewed additional case files of 17 SES employees. In five
of these cases, FBI OPR had found misconduct and imposed discipline
that the SES employees appealed. In the remaining 12 cases, FBI OPR
had not found misconduct. We concluded that one of the case files did
not contain enough information for us to reach a determination as to

       65   One FBI employee retired during the adjudicative process.



U.S. Department of Justice                                               54
Office of the Inspector General
Evaluation and Inspections Division
whether the non-substantiation decision in that case was reasonable.
For the remaining 16 SES employee cases we reviewed, we concluded
that the substantiation or non-substantiation findings were reasonable. 66

     We then examined whether the penalties imposed in the
substantiated cases were reasonable, which we discuss next.

FBI OPR’s disciplinary decisions generally were reasonable, although
we found some inconsistencies that could not be explained by the
record in its files.

       In imposing discipline, FBI OPR uses the Penalty Guidelines,
which outline standard penalties for various offenses as well as factors
that can be used to either mitigate or aggravate the penalty. The FBI’s
Manual of Administrative Operations and Procedures states that
“consideration is given to [FBI] policy and similar incidents previously
resolved, as well as any aggravating or mitigating circumstances of the
case in point.” 67 The FBI policy mirrors a Merit Systems Protection
Board ruling, which states that it “will consider whether a penalty is
clearly excessive in proportion to the sustained charges, violates the
principle of like penalties for like offenses, or is otherwise unreasonable
under all the relevant circumstances.” 68




       66   We note that our review in this selected sample was limited to whether the
files contained “the degree of relevant evidence that a reasonable person, considering
the record as a whole, might accept as adequate to support a conclusion, even though
other reasonable persons might disagree.” This standard of review would allow for
different fact finders to reach differing conclusions based on the same set of facts. We
did not attempt to review the substantiation decisions to determine if cases with similar
fact patterns were decided consistently because there were not enough cases in our file
review with similar fact patterns, including aggravating and mitigating factors, to allow
this comparison. However, as discussed in the Double Standard section, when we
examined the outcomes in the universe of adjudicated cases from FY 2005 to FY 2007,
we did find that allegations of misconduct against higher-level employees are
substantiated at a lower rate than allegations against lower-level employees.

       67 FBI’s Manual of Administrative Operations and Procedures, Part I,

Section 13-13.

       68  See Douglas v. Veterans Administration. 5 M.S.P.B. 313, 329 (1981). The
Merit Systems Protection Board is an independent, quasi-judicial agency in the
executive branch that was established by Reorganization Plan No. 2 of 1978, which was
codified by the Civil Service Reform Act of 1978, Pub. L. No. 95-454, 92 Stat. 1111. The
Act authorized the board to hear appeals of various agency actions, most of which are
appeals of agencies’ adverse personnel actions.



U.S. Department of Justice                                                            55
Office of the Inspector General
Evaluation and Inspections Division
      In February 2004, the Bell-Colwell report described the database of
precedent cases the FBI used at the time when determining penalties as
“vague, incomplete, and deeply flawed” and stated that it was “largely
unhelpful because of enormous variance in decisions over the years and
infirmities in automation.” The report recommended that the FBI
“develop and maintain a [new] comprehensive, computerized database of
decisions.”

        An April 2004 memorandum from the FBI Director stated that the
new precedent database would “guide adjudicators and field executive
management in determining appropriate and consistent levels of
discipline, regardless of the employee’s geographic location or grade
level.” 69 As a result, in November 2004 the FBI began tracking precedent
cases through the Case Management System, which allows adjudicators
to search for and compare previous cases that are similar to the current
case being adjudicated.

       In addition to considering precedent from the database when
determining penalties, FBI OPR also relies on the Douglas Factors
assessment from the field or headquarters division where the employee
works. 70 These analyses can provide information about issues known to
the employee’s manager that may be important to the penalty
determination. For example, the managers would know about Douglas
Factors such as the employee’s ability to get along with fellow workers,
dependability, and performance on the job, as well as the supervisor’s
confidence in the employee’s ability to perform assigned duties.
However, under FBI policy, if the division does not submit its assessment
of the Douglas Factors in a timely manner, FBI OPR will proceed to
adjudication without this information.

      To assess whether the FBI imposed reasonable and consistent
penalties for substantiated misconduct, we reviewed the penalties
imposed in the 52 instances in our file sample of 69 employees where
FBI OPR sustained the allegations. For these 52 employees with
substantiated allegations, we concluded that discipline imposed generally
was reasonable under a substantial evidence standard, based on our
review of the FBI OPR addendum and the proposal and decision letters in


       69FBI, The Director’s Office, Reorganization of The Office of Professional
Responsibility, April 8, 2004, p. 3.

       70FBI OPR personnel told us that they expect to see the Douglas Factors
assessment from the field or headquarters division for every case, except
unsubstantiated Delegated Investigation and Adjudication cases.



U.S. Department of Justice                                                          56
Office of the Inspector General
Evaluation and Inspections Division
the case files. 71 However, we found some inconsistencies among cases in
the discipline imposed that could not be explained by the record in the
files because the files lacked a discussion of case precedent or an
assessment of the Douglas Factors.

        In 28 of the 44 (64 percent) cases we analyzed, we found no
documentation in the file showing that FBI OPR reviewed precedent
when determining the appropriate penalty. 72 Of the 28 employees whose
files lacked a discussion of precedent, 17 received a standard penalty
according to the Penalty Guidelines, but the other 11 received either a
mitigated or aggravated penalty. 73 In addition, for six employees, field
and headquarters divisions did not submit their assessment of the
Douglas Factors to FBI OPR, even though they are required by the FBI’s
Internal Investigations Supervisor’s Guide to do so.

       This lack of documentation in the case files made it difficult in
some cases to compare the penalties with discipline imposed in similar
cases decided by FBI OPR. However, in the cases we reviewed, we found
variations in discipline imposed among cases that appeared to be similar,
without explanation for the differences.

      For example, FBI OPR imposed a 30-day suspension in one case in
which a GS-07 Intelligence Analyst was found to have used his FBI car
on several occasions to run personal errands during the workday.
However, in another case where a GS-13 Special Agent used her car to
drive home on two occasions to engage in a romantic affair during the
workday with a local law enforcement officer she worked with on a joint
task force, the FBI OPR Assistant Director imposed a 3-day suspension.
While there were factors unique to each of these cases, it appeared to us



       71 The adjudicator prepares a memorandum called an “addendum” that

documents the reasons FBI OPR did or did not substantiate the offense and how it
determined the disciplinary recommendation.

       72 Eight of the 52 employees with substantiated misconduct were subjects of

Delegated Investigation and Adjudication cases. Because the FBI divisions that
proposed discipline for these 8 employees did not have access to precedent data in the
FBI’s Case Management System, we excluded them from this analysis and analyzed the
remaining 44 employees for consideration of precedent.

       73  Even though the investigative files for most of these 11 employees contained
a printout of precedent cases, neither the decision letter nor addendum explained
whether or how FBI OPR considered these cases, and whether the cases contributed to
the decision to impose a mitigated or aggravated penalty.



U.S. Department of Justice                                                           57
Office of the Inspector General
Evaluation and Inspections Division
from the limited record in the case files we reviewed that the disparity in
penalties between these two cases was not justified. 74

        In another example, a GS-11 employee was given a letter of
censure for claiming 3 hours of overtime she did not work. In a similar
case, a GS-07 employee was suspended for 3 days for claiming 5.5 hours
of overtime he did not work. In both cases, FBI OPR found that the
employees had previously unblemished work records and that they
submitted the inaccurate overtime claims due to sloppiness. The case
files in these two instances lacked a discussion of FBI OPR’s assessment
of case precedent. One of the case files also lacked an assessment of the
Douglas Factors from the field division where the employee worked. This
made it difficult to assess whether there was sufficient justification for
the disparity in penalties between these two cases.

       FBI OPR managers told us they did not always document their use
of precedent because the precedent database was “unwieldy” and could
result in delays in adjudication. They also said that they wanted to avoid
bad precedent from prior decisions that were poorly decided and that
precedent cases were not useful with offenses such as unprofessional
conduct where the factors of each case were unique.

        However, when we spoke to FBI employees during our site visits,
as well as to staff in the Internal Investigations Section, the Appellate
Unit, and even non-supervisors within FBI OPR, many disagreed with
FBI OPR managers regarding the use of precedent cases in determining
the appropriate discipline. These employees said that the precedent
database was not unwieldy, was useful in ensuring consistency in
decisions, and helped to ensure a perception that discipline was being
fairly imposed among employees.

      The purpose of the precedent database, and the reason the Bell-
Colwell report recommended the database be revised, is to help guide
adjudicators in ensuring that the appropriate penalty is consistent with
past decisions that contained similar factors. We believe that FBI OPR
should consider precedent in its decisions, particularly when it intends
to deviate from the standard penalty and impose harsher or more lenient
punishment. FBI OPR should also document its consideration of


       74  In the case of the GS-13 Special Agent, the FBI OPR Assistant Director
reasoned that because the agent had approval from her supervisor to drive her car
home for lunch, it was not a misuse of the agent’s FBI vehicle to use it to drive home
mid-day during her duty hours. We believe it was a misuse because the agent then
stayed there for three to four hours in order to engage in an affair.



U.S. Department of Justice                                                               58
Office of the Inspector General
Evaluation and Inspections Division
precedent in either the addendum or proposal and decision letters to the
employee. In addition, because the assessment of Douglas Factors
provides FBI OPR with information important to the disciplinary
decision, we believe the FBI should enforce its requirement that field and
headquarters divisions submit this assessment.

The FBI OPR Assistant Director considered information beyond the
facts determined by the investigation.

      We found that the FBI OPR Assistant Director sometimes
informally solicited or received information, outside the normal
disciplinary process, from the supervisors or co-workers of the subject of
the misconduct investigation before making her disciplinary decision.

       We asked the FBI OPR Assistant Director what type of information
she considered when determining appropriate disciplinary action and
whether she could contact an employee’s supervisor or co-workers
during the adjudicative process. She stated that no FBI policy prohibited
her from accepting letters or telephone calls from an FBI employee who
wished to contact her. In addition, she provided one example in a
pending case in which she solicited unwritten information regarding
what discipline should be imposed.

      The FBI OPR Assistant Director also said that to the extent she
spoke with FBI managers regarding disciplinary cases about their
employees, it was to return telephone calls from FBI managers, request
that Douglas Factors be submitted or to clarify comments in the Douglas
Factors that they submitted. She said that while she would request the
managers put their information in writing, she also acknowledged that at
times she would have an oral discussion with the managers on
substantive issues relating to the disciplinary case.

       In previous OIG reviews of the disciplinary systems in the Bureau
of Alcohol, Tobacco, Firearms and Explosives (ATF), Federal Bureau of
Prisons (BOP), and United States Marshals Service (USMS), we did not
find that the deciding officials in those agencies considered information
beyond that in the investigative file when adjudicating cases, in accord
with federal regulations. 75 However, our review of the Drug Enforcement
Administration (DEA) disciplinary system found that the DEA did not
limit itself to examining only the information developed during the
investigation and sometimes used personal experiences or opinions to

       75 5 C.F.R. § 752.404(f). These regulations do not apply for most FBI employees
because they are in the excepted service.



U.S. Department of Justice                                                         59
Office of the Inspector General
Evaluation and Inspections Division
influence disciplinary decisions. We recommended that the DEA instruct
its deciding officials to limit their disciplinary considerations to the
information contained in official investigative files and the information
provided by the employee. The DEA concurred with the recommendation
and, in a December 2003 memorandum, reinforced instructions
regarding the information that deciding officials could consider.

       We believe that the FBI OPR Assistant Director should similarly
limit disciplinary considerations to the information contained in official
misconduct files and provided by the employee. Obtaining or considering
information beyond these sources may improperly influence the deciding
official to make a decision that is not based on the record of the
misconduct investigation, management’s assessment of the Douglas
Factors, and the employee’s reply. Moreover, if FBI OPR considers in its
penalty decisions information that is not contained in the investigative
file and the case is appealed, neither the employee who filed the appeal
nor the appellate officials have an opportunity to review all of the
information FBI OPR relied on to reach its decision. Finally, a practice of
seeking or receiving additional unwritten information from FBI managers
could lead to inconsistent decisions for similar cases.

The FBI OPR Assistant Director controls both the proposal and the
decision stages in disciplinary cases.

       In the four other Department law enforcement components we
previously reviewed, the proposal and decision stages in a disciplinary
proceeding are separated during the adjudicative phase. In the DEA,
BOP, and USMS the proposing official is separate from the deciding
official. 76 Our review of ATF found that it sometimes allowed the same
employee to serve as both the proposing and deciding official for non-
adverse cases. We recommended that ATF prohibit the same individual
from serving as both the proposing and deciding official in a misconduct
case. ATF concurred with the recommendation and in February 2007
issued an order prohibiting the practice. 77

      According to interviews with FBI OPR personnel, the two FBI OPR
Unit Chiefs serve as the proposing officials in adverse actions, while the


       76   DEA procedures require that when a dismissal is proposed, an official
different from the official who proposed the dismissal must serve as the deciding official.
Adams v. Department of Justice, 251 F.3d 170 (Fed. Cir. 2000).

       77 However, there is no statute or regulation requiring that the proposing and
deciding officials make their disciplinary decisions independent of one another.



U.S. Department of Justice                                                              60
Office of the Inspector General
Evaluation and Inspections Division
FBI OPR Assistant Director – the supervisor of the two Unit Chiefs –
serves as the deciding official. Even though the proposing and deciding
officials are different individuals, we determined that the two stages of
the adjudicative process are not independent of each other. We found
that the deciding official, the FBI OPR Assistant Director, had reviewed
and approved the proposed discipline for each of the 28 employees in our
file review sample who had been proposed for an adverse action, and
later in the process had also made the final disciplinary decision in these
28 cases. Through her review and approval of the Unit Chiefs’
disciplinary proposals, the Assistant Director can influence the content
of the proposed discipline before making the final decision and imposing
discipline.

      We asked the FBI OPR Assistant Director why she reviewed and
approved the proposed discipline in adverse cases in which she would
also make the final disciplinary decision. She stated that, according to
the FBI Office of General Counsel and research conducted by FBI OPR
personnel, once a disciplinary action was proposed she could not
increase the penalty above that recommended in the proposal.
Therefore, she said she reviewed all proposals to ensure none were more
lenient than what she was likely to ultimately decide. 78

       In addition, the FBI OPR Assistant Director stated that the FBI has
a policy of immediately suspending an employee’s clearance and
suspending the employee when an employee is proposed for dismissal,
and it therefore serves an important function for the Assistant Director to
be consulted on all dismissals. She also stated that her involvement in
all levels of adjudications ensures that cases are appropriately decided.

       While we acknowledge that these arguments have some merit, we
also believe that independent proposal and decision authorities can
provide essential checks and balances in the disciplinary process. We
also believe that the FBI is not so different from other Department law
enforcement components, all of which have separate proposing and
deciding officials. Moreover, if the concern is that, unlike other
Department law enforcement components, the FBI immediately suspends
an employee who is proposed for dismissal, additional review can be built
into the system specifically for those cases.


       78 As the deciding official, however, the FBI OPR Assistant Director can increase
a proposed disciplinary action as long as the employee is re-proposed for the increased
penalty and the employee has an opportunity to respond orally and in writing to the
new proposal.



U.S. Department of Justice                                                           61
Office of the Inspector General
Evaluation and Inspections Division
      In sum, we recommend that the FBI carefully consider whether it
should change its disciplinary process to ensure that the proposing and
deciding officials within FBI OPR are separate, like all other Department
law enforcement components.

The timeliness of adjudications and the entire disciplinary process
improved from FY 2005 to FY 2007.

      One area of significant improvement for FBI OPR was the
timeliness of adjudications. The median completion time for
adjudications improved from FY 2005 to FY 2007, from 94 days to
44 days. The timeliness of the adjudicative phase by type of investigation
also improved (see Table 6 below).

Table 6: Timeliness of Adjudicative Phase by Type of Investigation,
                        FY 2005 – FY 2007
    Type of                     Median Number of Days to Complete
 investigation          FY 2005                 FY 2006               FY 2007
      DIA                  73                     56                     31
      NDI                  85                     105                    72
     DIO                  121                     104                    49
 Source: OIG analysis of data from the FBI’s Case Management System.

      For the 1,551 completed cases in our file review, the percentage of
adjudications completed in 90 days or less increased from 48 percent in
FY 2005 to 77 percent in FY 2007 (see Table 7 below).

    Table 7: Timeliness of Adjudicative Phase, FY 2005 – FY 2007
                                             Percentage completed
            Number of days         FY 2005         FY 2006          FY 2007
      90 days or less                 48%            56%             77%
      91 to 180 days                  31%            25%             14%
      181 to 270 days                 12%            12%               6%
      271 to 365 days                 5%                5%             2%
      More than 365 days              2%                3%             2%

      Note: 73 of 1,551 investigations were missing dates either for the
      beginning of the adjudicative phase or the end of adjudicative phase, and
      so are not included here.
      Percentages do not add to 100 because of rounding.
      Source: OIG analysis of data from the FBI’s Case Management System.



U.S. Department of Justice                                                        62
Office of the Inspector General
Evaluation and Inspections Division
       According to FBI OPR managers, the timeliness of adjudications
improved because of a change in the way cases were assigned to
adjudicators. Previously, when FBI OPR received investigations for
adjudication they would be assigned immediately to adjudicators. As a
result, each adjudicator would have a caseload of between 10 to 12 cases
awaiting adjudication. In mid-2006, the FBI OPR Unit Chiefs changed
the process so that adjudicators work on only one case at a time.
Supervisors assign a new case only when an adjudicator has completed a
previous case. One FBI OPR manager explained that it was easier to
hold an adjudicator accountable for delays in completing a single case
than multiple cases and that adjudicators could better manage their
work when they are assigned only one case at a time. FBI OPR Unit
Chiefs also told us that they began to adjudicate cases themselves to
help improve overall timeliness. Finally, FBI OPR Unit Chiefs said that
assigning cases one at a time made it easier to identify cases that could
be closed administratively. 79

      Overall, we found that the amount of time needed to complete the
investigation and adjudication of disciplinary cases has improved. The
Internal Investigations Supervisor’s Guide states that misconduct
investigations and adjudications should be completed within 180 days.
When the timeliness of investigations and adjudications are combined,
we found that the median amount of time it took to complete both
phases for the 1,551 completed cases in our review decreased from
199 days to 133 days, an improvement of 33 percent. In addition,
the percentage of cases completed within the 180-day time frame
increased from 44 percent in FY 2005 to 67 percent in FY 2007 (see
Figure 5).




       79  One reason a case may need to be closed administratively is if an employee
resigns or retires before a misconduct investigation is adjudicated since the FBI can
impose discipline only on current employees. Previously, cases for employees who
resigned or retired might remain in an individual adjudicator’s backlog.



U.S. Department of Justice                                                          63
Office of the Inspector General
Evaluation and Inspections Division
            Figure 5: Timeliness of FBI’s Disciplinary Process,
                           FY 2005 – FY 2007

                                     100%
                                                                   15%               10%
                                     90%           19%
                                                                                     6%

              Percentage Completed
                                     80%                           12%
                                                   15%                               17%
                                     70%
                                     60%                           26%
                                                   22%
                                     50%
                                     40%
                                                                                     67%
                                     30%
                                                   44%             47%
                                     20%
                                     10%
                                      0%
                                                 FY 2005         FY 2006         FY 2007
                                                               Fiscal Year

                                            180 days or less       181 to 270 days
                                            271 to 365 days        More than 365 days



       Source: OIG analysis of data from the FBI’s Case Management System.

Recommendations

We recommend that the FBI:

       7.    Require FBI OPR to document its consideration of precedent
             when a mitigated or aggravated penalty is imposed.

       8.    Require field and headquarters divisions to submit a Douglas
             Factors assessment in misconduct cases, except in
             unsubstantiated Delegated Investigation and Adjudication
             cases.

       9.    Clarify in policy that FBI OPR and appellate officials should
             not seek or consider unwritten information when making
             disciplinary decisions.

       10. Consider changing the adjudicative process to ensure that the
           proposing and deciding officials within FBI OPR are separate.



U.S. Department of Justice                                                                 64
Office of the Inspector General
Evaluation and Inspections Division
APPEALS OF DISCIPLINARY DECISIONS

       We found a lack of clear guidance about the appropriate
       standard of review that appellate officials should apply
       when reviewing penalties imposed by FBI OPR. We also
       identified concerns related to how the FBI selects
       employees to serve on the Disciplinary Review Board.
       While adverse appeals by non-SES employees are decided
       by a Disciplinary Review Board consisting of SES and
       non-SES members, adverse appeals by SES employees
       are decided by a Disciplinary Review Board consisting
       entirely of SES members. From FY 2005 through the
       third quarter of FY 2008, 247 non-SES and 6 SES
       appeals were decided. Of the non-SES appeals, 44 of the
       penalty decisions were mitigated on appeal (18 percent).
       We reviewed a sample of the non-SES cases that were
       mitigated on appeal and found that the mitigation
       generally appeared reasonable. By contrast, five of the
       six SES disciplinary decisions (83 percent) appealed
       during our review period were mitigated. We reviewed
       all of the SES cases that were mitigated and concluded
       that most of these decisions were unreasonable. Finally,
       we found that the timeliness of the appeals process
       improved from FY 2005 through the third quarter of
       FY 2008.

We found a lack of clear guidance, and confusion among some
appellate officials, regarding the appropriate standard of review to
apply when reviewing penalties imposed by FBI OPR.

       As noted previously, FBI policy prior to August 19, 2005, was that
appellate officials could “independently redetermine the factual findings
and/or the penalty imposed when exercising appellate authority.” 80 In
effect, this was a de novo review of FBI OPR’s factual findings and
penalty determinations, and appellate officials could make new factual
findings or mitigate the penalty without deference to FBI OPR’s previous
determinations.

     In response to recommendations in the Bell-Colwell report, the FBI
announced a change in policy through an August 19, 2005, Electronic
Communication which required appellate officials to review findings of

       80 FBI Electronic Communication, Policy Changes Related to the Disciplinary
Appeals Process, August 19, 2005, p. 4.



U.S. Department of Justice                                                           65
Office of the Inspector General
Evaluation and Inspections Division
fact under the “substantial evidence” standard of review. Although the
August 2005 Electronic Communication recognized that the standard of
review for penalty determinations had been a de novo standard, it did not
address what standard of review appellate officials should use when
reviewing penalty determinations by FBI OPR.

       Disagreements subsequently arose between FBI OPR and the
Appellate Unit as to which standard of review – the substantial evidence
standard or the de novo standard – appellate officials should apply to
FBI OPR’s penalty determinations. The FBI General Counsel
acknowledged in 2006 that the policies addressing the appellate officials’
authority to modify penalties were vague and open to interpretation. In
an August 31, 2007, Electronic Communication, the FBI stated that
appellate officials would apply the substantial evidence standard to
“findings” by FBI OPR, but the Electronic Communication did not specify
whether “findings” included both factual findings and penalty
determinations. 81

      The Appellate Unit Chief told us in response to our questions
during this review that he believed that his unit has interpreted the
August 2007 Electronic Communication as directing the unit to apply
the substantial evidence standard to both factual findings and penalty
determinations by FBI OPR.82 However, two officials who served on the
Disciplinary Review Board in 2007 and 2008 told us that they were
applying the de novo standard of review to FBI OPR’s penalty
determinations, as we will discuss in the next section.

      We concluded that the FBI standard of review for penalty
determinations needs clarification. We believe, and the FBI has
concurred, that the standard of review should be a substantial evidence
standard, for both factual findings and penalty determinations, and that
appellate officials should not be substituting their judgment, de novo, for
FBI OPR’s factual findings or penalty determinations. We believe that

       81 FBI Electronic Communication, Policy Change Related to the Disciplinary

Appeals Process, Disciplinary Review Boards, August 31, 2007, p. 5.

        82 The August 2007 Electronic Communication also required that all newly-

selected members of the Disciplinary Review Board receive training regarding the
appellate standard of review and the role of the Disciplinary Review Board. We
observed the July 2008 training session at the invitation of the FBI. We found that the
slide show presentation provided during this 4-hour training stated in one slide that the
standard of review for both factual findings and penalty determinations was the
substantial evidence standard. However, none of the written materials, or the written
guidance regarding the work of the Disciplinary Review Board, clarified this point.



U.S. Department of Justice                                                            66
Office of the Inspector General
Evaluation and Inspections Division
the substantial evidence standard should be made clear to all FBI
appellate officials, and should be included in written descriptions
describing the work of the Disciplinary Review Board.

Appellate officials do not uniformly understand and apply FBI policy
regarding their authority to modify findings of fact on appeal.

      While FBI policy does not clearly state what standard of review
applies to FBI OPR’s penalty determinations, it does clearly state that
appellate officials are required to review FBI OPR’s findings of fact using
a substantial evidence standard of review. 83 The FBI’s former Associate
Deputy Director told us that, under this standard, appellate officials
should assess whether the adjudicative process was followed correctly,
but should not redecide the facts of the case. However, we found that
appellate officials do not uniformly understand and apply the substantial
evidence standard of review when reviewing FBI OPR’s findings of fact.

      We asked 10 FBI employees who had served as voting members on
one or more Disciplinary Review Boards since 2006 about their
understanding of the substantial evidence standard of review and their
authority to overturn the factual findings supporting disciplinary
decisions. Two of these Disciplinary Review Board members, each of
whom participated in more than 10 appellate decisions, told us that they
did not give any deference to FBI OPR decisions. This practice is
contrary to the requirements of the substantial evidence standard, in
which appellate officials are expected to confine their review to whether
the record as a whole contains sufficient evidence that a reasonable
person might accept as adequate to support a conclusion, even though
the appellate reviewer might disagree.

       Moreover, as explained below on pages 71 and 72 we found several
examples in our own review of appellate decisions where the appellate
officials did not apply the substantial evidence standard of review to FBI
OPR’s factual determinations.




       83 See FBI Electronic Communication, Policy Changes Related to the
Disciplinary Appeals Process, August 19, 2005, p. 4.



U.S. Department of Justice                                                  67
Office of the Inspector General
Evaluation and Inspections Division
The Disciplinary Review Board selects members differently for SES
and non-SES appeals, which can contribute to either bias or an
appearance of bias.

      In the 2002 OIG report, entitled A Review of Allegations of a
Double Standard of Discipline at the FBI, we noted that a Disciplinary
Review Board consisting of only SES members may foster the perception
that SES employees might be treated less harshly than non-SES
employees. At that time, we recommended that the FBI consider
including a non-SES member or a non-FBI employee on the board in all
appeals. The Bell-Colwell commission addressed a similar issue in 2004,
recommending that the FBI include a non-SES voting member on the
board for all appeals by non-SES employees to reduce the perception
that the board was skewed in favor of SES employees. However, the
commission did not recommend changing the composition of the board
for appeals by SES employees.

      In August 2005, the FBI changed its policy to allow non-SES
employees to select either an SES or mid-level manager (at the GS-14 or
GS-15 level) to serve as the third voting member on the Disciplinary
Review Board. In August 2007, the FBI expanded the Disciplinary
Review Board to five members. 84 These procedures also require the
board to include two mid-level non-SES managers as voting members
when hearing appeals from non-SES employees. However, only SES
employees may serve as voting members on a Disciplinary Review Board
hearing an appeal of an SES employee.

       We believe that a board composed exclusively of SES employees
hearing an SES employee’s appeal can result in either bias or the
appearance of bias. Less than 1 percent of FBI employees are at the SES
level (260 of 31,244 employees). Because the population of eligible SES
Board members is small, many SES members throughout the FBI know
and work with each other on a regular basis. We recommend the FBI
change the composition of the Disciplinary Review Board for SES appeals
to include non-SES employees.


        84 As discussed previously in the Background section to this report, under the

revised procedures the Assistant Director of the Human Resources Division remains the
chair of the Board. The FBI Associate Deputy Director selects the additional four
members of the Board from computer-generated lists of categories of FBI employees to
serve a 6-month term. The revised procedures require the Board to tape record its
deliberation. Non-voting observers attend Board meetings, including representatives
from the FBI’s Office of the General Counsel, the Office of Equal Employment
Opportunity Affairs, and an additional mid-level, non-SES, manager.



U.S. Department of Justice                                                         68
Office of the Inspector General
Evaluation and Inspections Division
       In addition, we recommend the FBI consider changing the
membership of its Disciplinary Review Board so that it is composed of
permanently assigned SES and non-SES officials who are well-trained on
the disciplinary process and the board’s role in reviewing appeals. When
the FBI last made changes to the membership of its Disciplinary Review
Board in August 2007, all positions on the board, with the exception of
the chair, were given a 6-month term. We believe that a permanent
appeals decision maker or board, rather than a board composed of SES
employees who rotate in and out of their board service after 6 months,
could improve the quality and consistency of disciplinary decisions, and
could also help address concerns about bias in individual cases or the
appearance of SES board members issuing more lenient decisions for
their SES colleagues. In addition, appointing permanent decision
makers could help improve the quality of decisions by a Disciplinary
Review Board where members currently rotate on and off the board in
temporary assignments that do not allow them to develop an expertise in
the disciplinary process.

      We also note that the FBI process for reviewing disciplinary
decisions – with appeals heard by a group of FBI colleagues who rotate in
and out of this assignment frequently – is unique in the Department of
Justice. We recognize that the appellate process at the FBI was created
in part because most FBI employees cannot appeal the agency’s
disciplinary decisions to the Merit Systems Protection Board (MSPB), like
most other federal employees. 85 However, the current Disciplinary
Review Board process is not similar to an independent MSPB or judicial
review, with more permanent, trained decision makers. Moreover,
unlike the MSPB process, the FBI appeals process relies on FBI
employees judging their colleagues. In addition, the pool of potential
SES board members is limited to the 260 FBI employees who have SES
status, thereby increasing the chance that the board members will know
the appellant whose case they are deciding or will work with the
appellant in the future. 86



        85 See the Background section of this report for a discussion of the laws and

regulations governing the discipline of FBI employees.

       86  In addition, SES employees at the Assistant Director level or above (with the
exception of the Assistant Director of Human Resources Division), and all SES
employees assigned to a Division that plays a direct role in the disciplinary process, are
excluded from participating on a Disciplinary Review Board. The FBI calculated that
this eliminates approximately 60 SES employees from consideration, leaving only about
200 SES employees eligible for participation on a Disciplinary Review Board.



U.S. Department of Justice                                                              69
Office of the Inspector General
Evaluation and Inspections Division
       In sum, we believe that expanding the Disciplinary Review Board
for SES appeals beyond SES employees and creating permanent
positions for the members of the Disciplinary Review Board will help
reduce any bias in the system, as well as the perception that SES
employees are treated more leniently than non-SES employees. 87 We
recommend that the FBI carefully consider such a change.

Most non-SES appellate decisions we reviewed were reasonable and
the case files contained sufficient documentation to explain the
board’s decisions.

      Overall, 247 non-SES employees appealed FBI OPR’s findings
between FY 2005 and the third quarter of FY 2008, and 44 of these cases
(18 percent) were mitigated by appellate officials.

       We sampled a portion of the non-SES cases that were appealed. Of
the 69 employees whose misconduct investigations we reviewed in our
judgmental sample, 22 non-SES employees appealed FBI OPR’s findings,
and 6 were mitigated. We reviewed the case files for all 22 to determine
whether the appellate officials used the correct standard of review for the
factual determinations, whether the appellate officials clearly explained
their reasons for their decisions, whether the discipline imposed
following an appeal was reasonable, and whether the decision letters
explained how precedent and aggravating or mitigating factors influenced
the appeal’s decisions when applicable.

       Both the 2002 OIG report and the 2004 Bell-Colwell report noted
that FBI policy requires appellate officials to document the reasons for
their decisions. The 2002 OIG report recommended that the FBI require
the appellate officials to provide a written justification if their final
decision changed the discipline that had been imposed by FBI OPR. The
Bell-Colwell report stated that employees generally received “a boilerplate
letter describing the ultimate decision on appeal without any articulation
of the specific reasons (e.g., findings) justifying that outcome” and
recommended that all subjects receive “a brief written explanation of the
appellate officials’ findings and decision.” 88




       87  We discuss in more detail the issue of a double standard of discipline in the
next section of this report.

       88Griffin B. Bell and Lee Colwell, Study of the FBI’s Office of Professional
Responsibility (February 2004), p. 63.



U.S. Department of Justice                                                             70
Office of the Inspector General
Evaluation and Inspections Division
      We concluded that the outcomes for 20 of 22 appeals were
reasonable. It appeared that the correct standard of review was used,
and we believe that the discipline imposed was reasonable for the
severity of the misconduct. Also, in these 20 cases the Appellate Unit’s
analysis explained the reasons supporting the final appellate decision,
including an explanation of how precedent, as well as aggravating and
mitigating factors, influenced the decision.

       While we found that the final discipline imposed in 20 of the
22 appeals was reasonable, we identified 2 cases in which appellate
officials appear to us to have acted unreasonably when they reduced
FBI OPR’s penalties. In these two cases the Appellate Unit’s analysis,
which included an explanation of precedent as well as aggravating and
mitigating factors, recommended that the appellate officials uphold
FBI OPR’s original decision. The final decisions of the Disciplinary
Review Board, which did not follow the Appellate Unit’s
recommendations, did not include sufficient explanation of why
FBI OPR’s penalties were changed.

      Case Example 1: In 2007, FBI OPR dismissed an FBI
headquarters employee for using an FBI vehicle and gas bought with an
FBI credit card to commute back and forth to work on a daily basis when
he was not authorized to do so. 89 FBI OPR found that the employee
drove over 8,000 miles over the 7-month period that he misused the FBI
car. FBI OPR also found that the employee lied under oath when
questioned about the allegations. The Appellate Unit confirmed
FBI OPR’s findings of fact and recommended dismissal.

       The Disciplinary Review Board partially vacated the findings by
FBI OPR and the Appellate Unit when it overturned three of the five
charges against the employee without explanation: that the employee
had misused his government credit card and lied, both under oath and
not under oath. Rather, the board found only that the employee had
misused a government vehicle and behaved unprofessionally while on
duty. Instead of termination, the board imposed a 37-day suspension on
the employee for the remaining two charges. The Disciplinary Review
Board did not explain in its written decision why it changed the findings
of fact or did not find lack of candor.

      We concluded after our review of this case that FBI OPR’s factual
findings were supported by substantial evidence, the standard that the

       89  Employees who work at FBI headquarters are not permitted to use FBI
vehicles for their daily commutes.



U.S. Department of Justice                                                       71
Office of the Inspector General
Evaluation and Inspections Division
Disciplinary Review Board should have applied, and we found no reason
for the Disciplinary Review Board to overturn these findings. We also
found that the agent’s misuse of the vehicle was egregious and thus were
troubled by the Disciplinary Review Board’s decision to overturn
FBI OPR’s imposition of an aggravated penalty for misuse of a
government vehicle and instead impose a standard penalty.

      Case Example 2: In 2007, FBI OPR dismissed a Special Agent for
knowingly providing false affidavits to a local law enforcement agency to
avoid paying six parking tickets. FBI OPR found that the agent had
submitted sworn affidavits to a traffic court falsely claiming that he
received the parking tickets while performing law enforcement duties,
when he had received some of the tickets while off-duty. FBI OPR
concluded that dismissal was warranted because the agent had
intentionally fabricated the sworn affidavits. The Appellate Unit
recommended the Disciplinary Review Board sustain the dismissal.

       The Disciplinary Review Board confirmed FBI OPR’s findings that
the agent’s false statements were intentional, but nevertheless mitigated
the penalty from dismissal to a 120-day suspension without explanation
in its written decision for the penalty. The Assistant Director of the
Human Resources Division told us that the penalty imposed by the
Disciplinary Review Board in this case was also inconsistent with past
precedent.

       We concluded after our review of this case that FBI OPR’s factual
findings were supported by substantial evidence, the standard that the
Disciplinary Review Board should have applied, and we found no reason
for the Disciplinary Review Board to overturn these findings.

      As discussed in more detail in the next section of this report, our
review also examined whether there is a double standard of discipline for
higher-ranking FBI employees compared to lower-ranking FBI employees.
We therefore conducted a second file review examining all six appeals by
SES employees that were decided from FY 2005 through the third
quarter of FY 2008. We found that five of them were mitigated
(83 percent). As discussed in the next section, we concluded that the
mitigation of most of these SES cases was unreasonable, and it appears
that the appellate officials failed to follow the substantial evidence
standard of review and instead substituted their own judgment for that
of FBI OPR. We discuss all six of the SES appeals in greater detail in the
Double Standard of Discipline section of this report on pages 97 through
103.



U.S. Department of Justice                                             72
Office of the Inspector General
Evaluation and Inspections Division
The timeliness of appeals improved from FY 2005 through the third
quarter of FY 2008.

       We found that the timeliness of the appeals process improved
between FY 2005 and the third quarter of FY 2008. The FBI’s 180-day
time frame for completing misconduct investigations applies only to the
investigative and adjudicative phases. However, the Appellate Unit has
set its own informal case completion standards that call for non-adverse
appeals to be completed within 90 days and adverse appeals to be
completed within 120 days.

        We found improvement from FY 2005 to FY 2008 in the time the
FBI took to complete appeals. For all appeals that were decided between
FY 2005 and the third quarter of FY 2008, the median time dropped from
296 days in FY 2005 to 114 days in the first three quarters of FY 2008.
This was an improvement of 182 days, or 61 percent. The median time
to decide non-adverse appeals dropped from 277 days in FY 2005 to
93 days in the first three quarters of FY 2008. The median time to decide
adverse appeals dropped from 343 days in FY 2005 to 137 days in the
first three quarters of FY 2008. The FBI also increased the percentage of
cases that met its informal time frames from zero in FY 2005 to
42 percent (30 of 71) in the first three quarters of FY 2008. Finally, the
FBI made these improvements at a time when the number of appeals
decided increased 235 percent, from 31 in FY 2005 to 104 in FY 2007. 90

      Figure 6 below shows the median amount of time to complete non-
adverse and adverse appeals from FY 2005 through the third quarter of
FY 2008.




       90   FY 2007 was the last year for which we had a full year’s worth of data to review.



U.S. Department of Justice                                                              73
Office of the Inspector General
Evaluation and Inspections Division
     Figure 6: Median Number of Days to Decide Appealed Cases,
           FY 2005 Through the Third Quarter of FY 2008




       Source: Appellate Unit Data Log Matrix.

       However, while timeliness has improved, the majority of appeals
(58 percent in the first three quarters of FY 2008) are not completed
within the time frames established by FBI officials. Appellate Unit
officials pointed to the amount of time it takes for the FBI’s Civil
Discovery Review Unit to redact an appeal’s investigative file to provide it
to the employee as a major reason for delays in the process. Civil
Discovery Review Unit officials cited investigative files that contain
classified information and projects with court-imposed deadlines as
reasons for delays in meeting request from the Appellate Unit. Appellate
Unit officials also pointed out that appellants are given a minimum of
20 days to review the redacted investigative files and write their
supplemental appeal arguments, which also can affect the timeliness of
the completed appeal.


U.S. Department of Justice                                                74
Office of the Inspector General
Evaluation and Inspections Division
Recommendations

       We recommend that the FBI:

       11. Clarify FBI policies on the appellate officials’ authority to
           modify findings of fact and penalties to resolve different
           interpretations of the policies by FBI OPR and appellate
           officials.

       12. Consider appointing a permanent appeals decision maker or
           board, rather than an appeals board composed of employees
           who rotate in and out of their board service after 6 months. In
           addition, if the permanent appellate decision-maker is a board
           rather than an individual, expand the board membership for
           SES appeals beyond only SES employees.

       13. Require appellate officials to fully document in writing the
           reasons for their decisions, including their consideration of
           precedent and mitigating or aggravating factors.




U.S. Department of Justice                                                 75
Office of the Inspector General
Evaluation and Inspections Division
DOUBLE STANDARD OF DISCIPLINE

       We found that a significant percentage of FBI employees
       we surveyed believed that there was a double standard of
       discipline in the FBI for higher- and lower-ranking
       employees. Our analysis of disciplinary results found
       significant differences in the rate of substantiation of
       allegations    between     higher-    and    lower-ranking
       employees. We also found a significant difference in
       mitigation of discipline on appeal. Specifically, we found
       that 5 of 6 appeals by SES employees (83 percent)
       resulted in mitigation of the discipline originally
       imposed by FBI OPR, while only 44 of 247 appeals by
       non-SES employees (18 percent) resulted in mitigation.
       In addition, when we examined the appeals process, we
       found that four of the five decisions mitigating discipline
       of SES employees were unreasonable. In sum, although
       the number of appealed SES cases is small, we believe
       the evidence indicates that SES employees were treated
       more leniently on appeal than non-SES employees, and
       that this more lenient treatment was not justified.

       In 2002 and 2003, two OIG reports examined complaints from FBI
employees who alleged that the FBI’s system of discipline was unfair
because senior managers were treated more leniently than other
employees. 91 Because of the low number of disciplinary cases involving
SES employees at the time, the OIG did not find sufficient evidence to
either conclusively establish or refute the allegation that the FBI
systematically favored senior managers and, in particular, SES
employees. However, the OIG report stated that many FBI employees
believed that a double standard of discipline existed.

       The 2004 Bell-Colwell report also found that FBI employees
believed that a double standard existed in the FBI. The report stated
that although the Bell-Colwell interviews and document reviews did not
confirm actual, systemic disparate treatment, the perception of a double
standard adversely affected morale of FBI employees and their confidence
in the FBI’s disciplinary system.


       91  See U.S. Department of Justice Office of the Inspector General, A Review of
Allegations of a Double Standard of Discipline at the FBI (November 2002) and U.S.
Department of Justice Office of the Inspector General, A Review of Allegations of a
Continuing Double Standard of Discipline at the FBI (November 2003).



U.S. Department of Justice                                                           76
Office of the Inspector General
Evaluation and Inspections Division
      As discussed below, our current review found a significant
percentage of FBI employees believe that there is a double standard of
discipline favoring higher-ranking over lower-ranking employees.
Moreover, as discussed in the following sections, our review found that
the discipline of SES employees was mitigated more often on appeal than
non-SES employees, and that this mitigation in most of the SES cases
was not reasonable.

Many survey respondents believed there is a double standard of
discipline in the FBI.

      In our survey, we questioned a random, nationwide sample of FBI
employees about their perceptions of the FBI’s disciplinary system,
including whether they agreed or disagreed with the following statement:
“There is a double standard of discipline for higher-ranking versus lower-
ranking FBI employees.” Of 818 survey respondents, 717 answered this
question.

       As shown in Figure 7, 33 percent of FBI employees agreed or
strongly agreed that there was a double standard of discipline in the FBI.
Only 11 percent disagreed or strongly disagreed. Sixteen percent had a
neutral opinion, and 39 percent stated they did not know. 92 In our
survey, a large number of respondents answered “did not know” to many
of the questions. When we looked at just the 436 respondents who
expressed an opinion (either agree, disagree, or neutral) when answering
the question about a double standard of discipline, we found that a
majority of them (239 of 436, or 55 percent) agreed that a double
standard existed.




       92  Based on these survey results, we can project that between 29 and
37 percent of the FBI population as a whole believes there is a double standard of
discipline for higher-ranking and lower-ranking employees. This range is known as the
confidence interval. Appendix III lists the confidence intervals for our survey results.



U.S. Department of Justice                                                           77
Office of the Inspector General
Evaluation and Inspections Division
  Figure 7: Responses to Survey Question: “Please indicate how
 much you agree or disagree with the following statement: There is
    a double standard of discipline for higher-ranking versus
                 lower-ranking FBI employees.”
                                     100%
  Percemtage of Survey Respondents




                                     80%



                                     60%



                                     40%


                                                15%
                                     20%                                                            39%

                                                18%              16%               4%
                                                                                   7%
                                      0%
                                                Agree           Neutral         Disagree         Don’t know
                                                                    Survey Response

                                        Agree Neutral Disagree Don’t know   Strongly Agree or Strongly Disagree

Source: Analysis of the OIG’s survey of FBI employees.

       We also compared the survey responses of non-SES employees
with those of SES employees, and found that non-SES employees were
more likely to believe that there is a double standard than SES
employees. As shown in Figure 8, 37 percent of non-SES respondents
(230 of 625) believed there is a double standard of discipline for higher-
and lower-ranking FBI employees, 5 percent (30 of 625) believed there is
not a double standard, and 16 percent (102 of 625) held a neutral
opinion. Conversely, only 10 percent of SES respondents (9 of 92)
believed there is a double standard, while 53 percent (49 of 92) believed
there is not a double standard, and 17 percent (16 of 92) held a neutral
opinion. Figure 8 presents FBI employees’ perceptions of a double
standard by SES versus non-SES status. When we looked at just the
436 respondents who expressed an opinion, we found that about two-
thirds of non-SES employees believed there was a double standard of
discipline, while about two-thirds of SES employees believed there was
not.


U.S. Department of Justice                                                                                    78
Office of the Inspector General
Evaluation and Inspections Division
                Figure 8: FBI Employees’ Perception of a
         Double Standard of Discipline for Higher-Ranking versus
                Lower-Ranking Employees by SES Status
  100%


   80%


   60%


   40%

                                                            53%
   20%        37%                                                     42%

                                 16% 17%              5%                    20%
                    10%
    0%
          There is a double        Neutral        There is not a      Don't Know
            standard of                          double standard
             discipline.                           of discipline.

                        Non-SES Employees         SES Employees

Source: Analysis of the OIG’s survey of FBI employees.

      In our survey, we also asked FBI employees whether they believed
they would be treated fairly and objectively in the disciplinary process.
The responses were as follows:

   Table 8: Responses to Survey Question: “Based on your time
   working in the FBI, do you believe you would be treated fairly
           and objectively in the following situations?”

          If I became the subject of a misconduct investigation
                                                          Number of responses Percentage
I believe I would be treated fairly and objectively                      291        41%
I do not have an opinion one way or the other                            313        44%
I believe I would not be treated fairly and objectively                  108        15%

Note: 106 of 818 respondents did not answer the question.




U.S. Department of Justice                                                           79
Office of the Inspector General
Evaluation and Inspections Division
               If OPR was deciding whether to discipline me
                   following a misconduct investigation
                                                          Number of responses Percentage
I believe I would be treated fairly and objectively                      287        41%
I do not have an opinion one way or the other                            318        45%
I believe I would not be treated fairly and objectively                  102        14%

Note: 111 of 818 respondents did not answer the question.

              If I used the FBI’s internal appeals process to
              appeal a disciplinary decision made by OPR 93
                                                          Number of responses Percentage
I believe I would be treated fairly and objectively                      271        38%
I do not have an opinion one way or the other                            358        51%
I believe I would not be treated fairly and objectively                   80        11%

Note: 109 of 818 respondents did not answer the question.

      In addition, we asked all survey respondents to explain why they
believed there is or is not a double standard of discipline between higher-
and lower-ranking employees. Among the responses we received from
the 116 individuals who believed a double standard of discipline exists
were these comments:

       [Special Agent] In reviewing the OPR quarterly report it appears that
       some incidents of minor misconduct receive harsh penalties, while major
       misconduct receives minor penalties. On outward appearances, it seems
       other factors such as seniority of the employee, whether they are an
       Agent or not, and other factors besides the underlying misconduct are
       the determining factors in the harshness of the penalty.

       [Supervisory Special Agent] Past history demonstrates that GS-15 and
       SES Level personnel receive lesser penalties than rank and file
       personnel. This may only be a perception, but it seems like the FBI and
       DOJ do little to defeat this perception/reality.

       [Special Agent] Higher level management who have gone through a
       disciplinary investigation seem to never be disciplined at the same level


       93  As described on pp. 14-15, FBI employees who have been proposed for a
suspension of at least 15 days, demotion, or dismissal have the right to make a written
and oral presentation to the Assistant Director of FBI OPR before a final disciplinary
decision is made. Based on some survey responses we received, as well as information
we collected during our site visit interviews, we believe that some FBI employees
confuse this portion of the adjudicative phase with the appellate phase managed by the
Human Resources Division.



U.S. Department of Justice                                                           80
Office of the Inspector General
Evaluation and Inspections Division
       as non-managerial employees. Even if their acts are egregious, they are
       ignored, or at the conclusion of the investigation, are “allowed” to retire
       without any consequences.

       [SES-level non-agent] SES employees seem to get more lenient discipline
       because OPR does not want to impose the standard 15 day suspension
       against that SES person. The discipline gets reduced to a “letter of
       censure” for the SES person, who, in fact, should be held to a higher
       standard of conduct being an Executive of the organization.

       Responses from the 36 individuals who stated they did not believe
there is a double standard of discipline between higher- and lower-
ranking employees included the following comments:

       [Supervisory Special Agent] I think this has more to do with the rules set
       by OPM and not the FBI. Those in the SES ranks are in another category
       and are under different rules so it gives the impression of being unfair.
       This is not a problem the FBI can fix.

       [SES-level Special Agent] I feel that for the most part, the discipline
       which is imposed on individuals, whether they are higher-ranking or
       lower-ranking employees, is fair, equal and impartial to the rank.
       However, I believe that fewer instances of misconduct are reported, on
       the front end, on higher-ranking individuals due to fear of retaliation,
       reprisal, or the thought that “nothing will be done about it anyway.” In
       other words, it is “easier” for higher-ranking individuals to report the
       possible misconduct of lower-ranking individuals, than it is the other
       way around, and the perception is that higher-ranking individuals will
       not “dime” out their peers.

      In addition, 27 individuals told us that they believed there is a
double standard because Special Agents receive more lenient discipline
than non-agent personnel for similar misconduct. Among these
comments were:

       [Non-agent] I am a support employee. This is a Special Agent driven
       organization. Agents take care of Agents, many times a support person
       would be bounced off the sidewalk (dismissed) for an act that goes
       unreported if an SA does it. That’s just my perception. I see it changing
       and it has come a long way in the past few years . . . but deep down
       inside the perception still exists.

       [Supervisory non-agent] There seems to be a disparity between the
       penalties given to support personnel versus agents. The penalties for
       support employees seem much more harsh. There seems to be a
       different standard based on whether or not you’re in the 1811 job series
       [i.e., Special Agents]. Additionally, I believe people think there are
       differences based on grade level. The higher you are the more lenient the
       penalty or the more likely to consider mitigating circumstances. It is
       something firmly believed by support employees and has a negative
       impact on morale. If this is truly not the case, then actions need to be


U.S. Department of Justice                                                           81
Office of the Inspector General
Evaluation and Inspections Division
       taken to dispel that belief because it is very prevalent. If it is not the
       case, the lack of information dissemination is likely the cause.

      We also asked survey respondents if they believed the FBI
considered appropriate factors when imposing discipline (see Table 9
below). Although a majority of survey respondents told us that they did
not know enough about the factors FBI considers before imposing
discipline, respondents who had an opinion were most likely to say the
FBI gave too much consideration to an employee’s job level (such as the
grade level of the employee).

     Table 9: FBI Employees’ Perceptions of Whether the FBI
Appropriately Considered Various Factors When Choosing Discipline
                                       Percentage Who Believed the FBI…
                           Gives too little     Gives proper     Gives too much     Don’t
                           consideration       consideration      consideration     know
An employee’s past
                                  11                 27                   1          61
disciplinary history
Past discipline imposed
against other
                                   9                 25                   2          64
individuals for similar
misconduct
An employee’s job
level and type of
employment,                       4                  20                  21          55
including prominence
of position
An employee’s tenure
and overall job                   15                 23                   3          60
performance
Notoriety of the offense
or its impact upon the             5                 27                  10          59
reputation of the agency
Nature and seriousness
of the offense and its
relationship to an
employee’s duties,
including whether the
offense was intentional           12                 30                   1          57
or technical or
inadvertent, or was
committed maliciously
or for gain, or was
frequently repeated




U.S. Department of Justice                                                             82
Office of the Inspector General
Evaluation and Inspections Division
                                       Percentage Who Believed the FBI…
                            Gives too little    Gives proper   Gives too much   Don’t
                            consideration      consideration    consideration   know
Mitigating
circumstances
surrounding the
offense, such as
unusual job tensions,
personality problems,
                                  15                23               2           61
mental impairment,
harassment, or bad
faith, malice, or
provocation on the part
of others involved in the
matter

Source: Analysis of the OIG’s survey of FBI employees.

       The information we developed during our interviews of FBI
employees during our site visits to FBI divisions generally was consistent
with the survey responses. In these interviews, several Supervisory
Special Agents expressed the opinion that a double standard of discipline
exists in the FBI based on an employee’s grade level.

      We then examined FBI disciplinary decisions to determine whether
there were differences in the substantiation and mitigation rates in the
disciplinary process for higher- and lower-ranking employees.

We found that allegations of misconduct were substantiated at
different rates for higher- and lower-ranking employees.

      We reviewed FBI OPR’s disciplinary decisions for higher- and
lower-ranking employees and found different rates of substantiation of
misconduct. In conducting this review, we analyzed the FBI’s Case
Management System data for the 1,551 closed misconduct investigations
of 1,657 employees from FY 2005 to FY 2007. We analyzed whether
FBI OPR substantiated the allegations and whether substantiated
allegations resulted in non-adverse or adverse action for the employee.

      Overall, we determined that at least one allegation was
substantiated for 61 percent of employees resulting in either non-adverse
or adverse action; allegations for 22 percent of employees were not
substantiated; and the cases against 17 percent of employees were




U.S. Department of Justice                                                         83
Office of the Inspector General
Evaluation and Inspections Division
administratively closed. 94 Figure 9 shows the percentage of disciplinary
decisions in each category.

                       Figure 9: Disciplinary Outcomes for Employees in All Closed
                              Misconduct Investigations, FY 2005 – FY 2007

                      100%


                            80%
  Percentage of Employees




                            60%


                            40%


                                                                            48%
                            20%

                                        17%               22%
                                                                                            13%
                            0%
                                   Administratively Not Substantiated   Substantiated   Substantiated
                                       Closed                            Non-Adverse    Adverse Action
                                                                           Action
                                                           Disciplinary Outcome



Source: OIG analysis of data from the FBI’s Case Management System.

      We then examined FBI OPR’s disciplinary decisions to determine if
there were different rates of substantiation among various demographic
groups, including:

                            •     The employee’s SES or non-SES status,
                            •     The employee’s supervisory status, 95
                            •     The employee’s job category (Special Agents versus non-agent
                                  positions), and




           Administratively closed cases are closed before FBI OPR makes a substantiation
                            94

decision, such as cases where the employee resigns while under investigation.

         We included employees at the GS-14 level and above in the supervisory category
                            95

and employees at the GS-13 level and below in the non-supervisory category.



U.S. Department of Justice                                                                               84
Office of the Inspector General
Evaluation and Inspections Division
       •    The employee’s gender. 96

      As illustrated in Figure 10, our review found that disciplinary
outcomes at the adjudicative stage differed significantly based on an
employee’s SES/non-SES status. 97 For example, we found that
disciplinary cases on SES employees were much more likely to be
unsubstantiated (49 percent) than for non-SES employees (22 percent),
and disciplinary cases were more likely to be administratively closed for
SES employees (19 percent) than for non-SES employees (13 percent).

       However, as illustrated in Figure 10, SES employees are less likely
to receive non-adverse actions for misconduct than non-SES employees.
Under federal regulations, SES employees cannot be suspended for a
period of fewer than 15 days (an adverse action), so non-adverse actions
against SES employees consist of letters of censure or oral reprimands.




       96 FBI OPR does not track the race of the employee investigated for misconduct,
so we could not conduct this comparison.

       97 Our analysis examined investigations that were closed by the FBI from
FY 2005 through FY 2007. It did not include allegations of potential misconduct that
the FBI determined should not be pursued as misconduct investigations.



U.S. Department of Justice                                                         85
Office of the Inspector General
Evaluation and Inspections Division
                            Figure 10: FBI OPR’s Disciplinary Decisions by SES Status

                        100%



                            80%
  Percentage of Employees




                            60%



                            40%


                                                            49%        53%
                            20%

                                           19%        22%                    22%
                                     13%                                                 12% 11%
                             0%
                                  Administratively Not substantiated Substantiated     Substantiated
                                      closed                          non-adverse      adverse action
                                                                        action
                                                         Disciplinary Outcome

                                                   Non-SES employees   SES employees



Source: OIG analysis of data from the FBI’s Case Management System.
Percentages do not add to 100 because of rounding.

       In addition to analyzing FBI OPR’s disciplinary decisions based on
the employees’ SES status, we also assessed whether there were
differences in FBI OPR’s substantiation rates based on an employee’s
supervisory status. In comparing employees at the GS-14 level and
above (including SES employees) to those at the GS-13 level and below,
we again found differences, although not as significant as when we
compared SES and non-SES employees. As shown in Figure 11, while
the offenses for 33 percent (86 of 263) of employees at the GS-14 level
and above were not substantiated, 20 percent (201 of 996) of employees
at the GS-13 level and below were not substantiated. 98




           There were 398 of 1,657 subjects for whom the final penalty determination or
                            98

grade level was missing from the FBI’s records.



U.S. Department of Justice                                                                              86
Office of the Inspector General
Evaluation and Inspections Division
                            Figure 11: FBI OPR’s Disciplinary Decisions by Grade Level

                            100%



                            80%
  Percentage of Employees




                            60%



                            40%

                                                                         55%
                            20%                                                41%
                                                             33%
                                                       20%
                                      12% 16%                                               12% 10%
                             0%
                                   Administratively Not substantiated   Substantiated     Substantiated
                                       closed                            non-adverse      adverse action
                                                                           action
                                                          Disciplinary Outcome

                                                     GS-13 and Below    GS-14 and Above



Source: OIG analysis of data from the FBI’s Case Management System.

       We asked FBI officials why they believed these substantiation rates
varied. They stated it would be difficult to explain the differences
without looking at specific examples of individual cases. However, some
FBI OPR managers speculated that it was possible that investigations
were more likely to be opened against higher-level employees to be on the
“safe side,” even if the allegations might be frivolous, because of the
higher visibility and responsibility of these positions.

       We therefore asked Internal Investigations Section personnel
whether they were more likely to open an investigation if the allegation
was against higher-ranking employees (thus leading to the higher non-
substantiation rate). They replied that neither the grade level nor the
position of the employee affected their decision to open an investigation.
Instead, Internal Investigations Section personnel said they considered
only the behavior described in the allegation when deciding whether to
open an investigation. In addition, the Internal Investigations Section


U.S. Department of Justice                                                                                 87
Office of the Inspector General
Evaluation and Inspections Division
Chief stated that while many frivolous allegations may be made against
higher-level employees, these allegations were screened out and did not
result in investigations.

      We also analyzed demographic data provided by the FBI to
determine if higher-level employees were investigated more often than
employees at lower grade levels. Our analysis showed that employees at
higher grade levels were, in fact, investigated at a higher rate than lower-
grade employees. For example, SES employees made up less than
1 percent of FBI employees, but represented 3 percent of employees
investigated during our review period. Further, Special Agents and
employees at the GS-14 level and above are investigated at a higher rate
than they appear in the employee population.

     Figure 12 shows the percentage of employees investigated
compared with their representation in the FBI population by various
demographic factors.




U.S. Department of Justice                                               88
Office of the Inspector General
Evaluation and Inspections Division
 Figure 12: Employees Investigated for Misconduct Compared with
                       All FBI Employees




* As of April 1, 2008.
Percentages do not add to 100 because of rounding.
Source: OIG analysis of FBI data and employee population data.

      In addition to examining differences in the likelihood of being
investigated, we also examined differences in the outcomes of
investigations for the different demographic groups. In contrast to the
large difference in substantiation rates we found between SES and non-
SES employees, we found little variation in substantiation rates between
employees in different job categories and of different genders.

      Figure 13 shows the differences in outcomes of discipline
investigations for Special Agents and non-agents.




U.S. Department of Justice                                            89
Office of the Inspector General
Evaluation and Inspections Division
                           Figure 13: FBI OPR’s Disciplinary Decisions by Job Category

                           100%
 Percentage of Employees




                           80%


                           60%


                           40%

                                                                         53% 48%
                           20%
                                                      24% 21%
                                    12% 15%                                               11% 16%
                            0%
                                  Administratively Not substantiated    Substantiated   Substantiated
                                      closed                             non-adverse    adverse action
                                                                           action
                                                        Disciplinary Outcome
                                                       Special Agents   Non-Agents


Source: OIG analysis of data from the FBI’s Case Management System.

      Although twice as many investigations were against males than
females, their disciplinary outcomes were similar, as shown in Figure 14.




U.S. Department of Justice                                                                               90
Office of the Inspector General
Evaluation and Inspections Division
                                Figure 14: FBI OPR’s Disciplinary Decisions by Gender

                     100%



                           80%
 Percentage of Employees




                           60%



                           40%

                                                                          52%
                                                                                46%
                           20%
                                                      22% 24%
                                     14% 14%                                            12% 16%
                           0%
                                  Administratively Not substantiated  Substantiated   Substantiated
                                      closed                           non-adverse    adverse action
                                                                          action
                                                         Disciplinary Outcome

                                                             Men       Women


Source: OIG analysis of data from the FBI’s Case Management System.

Disciplinary decisions were mitigated in the appellate phase at a
much higher rate for SES employees than for non-SES employees.

      In addition to analyzing the outcomes of misconduct
investigations, we also analyzed the outcomes for those employees who
appealed the discipline imposed by FBI OPR. 99

      Similar to our analysis of investigation outcomes, we analyzed the
appellate outcomes by two demographic factors:

                            •    The employee’s SES or non-SES status, and




          We examined appellate outcomes in the Appellate Unit’s Data Log Matrix for
                            99

the 253 employees who appealed FBI OPR’s disciplinary decisions from FY 2005
through the third quarter of FY 2008.



U.S. Department of Justice                                                                             91
Office of the Inspector General
Evaluation and Inspections Division
                       •     The employee’s job category (Special Agents versus non-agent
                             positions). 100

SES employees had their appeals mitigated at a substantially higher rate
than non-SES employees.

       The overall mitigation rate by the FBI’s appellate officials for
FBI OPR’s disciplinary decisions was 19 percent. However, we found
that SES employees had their appeals mitigated at a dramatically higher
rate than non-SES employees. As shown in Figure 15, 5 of 6 (83 percent)
appeals by SES employees decided from FY 2005 through the third
quarter of FY 2008 resulted in mitigation of the discipline originally
imposed by FBI OPR. In contrast, during the same time period only
44 of 247 (18 percent) appeals by non-SES employees resulted in
mitigation.

                             Figure 15: Mitigation Rate of Appeals for SES and
                                            Non-SES employees

                      100%


                      80%
  Percent Mitigated




                      60%


                      40%                                          83%



                      20%

                                         18%
                       0%
                                  Non-SES Employees           SES Employees

                                                Type of Employee


Source: OIG analysis of the Appellate Unit Data Log Matrix.

     To assess the reasons for the appellate officials’ mitigation of the
SES cases, we therefore examined all six SES appeals closely. We

           The Appellate Unit does not track the race or gender of the employee who is
                       100

appealing, so we could not conduct these comparisons.



U.S. Department of Justice                                                                  92
Office of the Inspector General
Evaluation and Inspections Division
determined that two cases were mitigated because the appellate officials
overturned FBI OPR’s factual findings substantiating at least one offense.
The remaining three cases were mitigated because the appellate officials
upheld the substantiation decisions but reduced the penalties (see
Table 10 below for a summary of the results of all six cases appealed by
SES employees).

          Table 10: Results of SES Appeals, FY 2005 – FY 2008
Misconduct Substantiated Imposed Misconduct Substantiated Discipline Imposed
      by FBI OPR         Discipline by Appellate Officials Following Appeal
Appeal unchanged
• Providing false or                   • Providing false or
  misleading information                 misleading information
                              15-day
  on fiscal documents by                 on fiscal documents by      15-day suspension
                            suspension
  submitting inaccurate                  submitting inaccurate
  travel vouchers                        travel vouchers
Appeals where all substantiation decisions were upheld, but penalties were mitigated
• Violation of federal laws          • Violation of federal laws
  and FBI policy related to            and FBI policy related to
  conflicts of interest and Demotion   conflicts of interest and
                                                                 15-day suspension
  nepotism for              to GS-13   nepotism for
  involvement in the                   involvement in the
  promotion of a relative              promotion of a relative
• Unprofessional conduct             • Unprofessional conduct
  on duty for engaging in   5-day      on duty for engaging in
                                                                      Letter of censure
  an argument with a      suspension   an argument with a
  police officer                       police officer
• Misuse of a government                • Misuse of a government
                               30-day
  vehicle for personal trips              vehicle for personal trips
                             suspension                              30-day suspension
• Misuse of a government                • Misuse of a government
                              Demotion                               Demotion to GS-15
  credit card to purchase                 credit card to purchase
                              to GS-13
  gasoline for personal use               gasoline for personal use
Appeals where at least one substantiation decision was overturned
• Dereliction of
  supervisory
  responsibility for        7-day
                                     • None                               No action
  mishandling a personnel suspension
  situation involving two
  subordinate employees




U.S. Department of Justice                                                             93
Office of the Inspector General
Evaluation and Inspections Division
Misconduct Substantiated Imposed Misconduct Substantiated Discipline Imposed
      by FBI OPR         Discipline by Appellate Officials Following Appeal
• Lying under oath during
  an administrative
                                    • Improper sexual
  inquiry
                                      relationship with an
• Improper sexual
                                      informant              105-day suspension
  relationship with an    Dismissal
                                    • Misuse of a government Demotion to GS-13
  informant
                                      vehicle to further the
• Misuse of a government
                                      improper relationship
  vehicle to further the
  improper relationship
Source: OIG review of SES appeals.

Appeals by Special Agents were mitigated at a higher rate than appeals
by non-agent personnel.

      We also examined the mitigation rates of appeals of Special Agents
versus non-agent personnel. We found that disciplinary decisions for
Special Agents were more likely to be mitigated on appeal than decisions
for non-agent personnel. We found that 25 percent (40 of 158) of appeals
by Special Agents resulted in mitigation of FBI OPR’s disciplinary
decisions, while only 9 percent (9 of 95) of appeals by non-agent
personnel resulted in mitigation.

     Figure 16 summarizes the different mitigation rates for Special
Agents and non-agents for non-adverse and adverse appeals.




U.S. Department of Justice                                                 94
Office of the Inspector General
Evaluation and Inspections Division
  Figure 16: Mitigation Rates of Special Agents and Non-Agents for
                 Non-Adverse and Adverse Appeals

                             100%



                             80%
      Percentage Mitigated




                             60%



                             40%



                             20%                                                        38%
                                            25%
                                                                 19%
                                       9%                  9%                     11%
                              0%
                                      All Appeals    Non-Adverse Appeals     Adverse Appeals
                                                        Type of Appeal

                                                    Non-Agents   Special Agents


         Source: Appellate Unit Data Log Matrix.

      We asked the Appellate Unit Chief about the differing rates of
mitigation between higher-level and lower-level employees, as well as
Special Agents and non-agent personnel. He said that it would be
impossible to identify concrete reasons for the differences without
reviewing the files associated with all of the appeals because the
particular offenses substantiated in each case were likely to have a major
influence on the final outcome. However, the Unit Chief offered several
theories that he believed might explain the differences, including:

         •                   Higher-level employees may be better able to afford an attorney
                             than lower-level employees, and attorneys may be better
                             equipped to frame an argument in a way that persuades the
                             appellate deciding officials.




U.S. Department of Justice                                                                     95
Office of the Inspector General
Evaluation and Inspections Division
       •     Special Agents who are members of the FBI Agents Association
             have access to free legal representation as a membership
             benefit. Non-agents may not have similar access to free legal
             representation.

Our review of the decisions in the six appealed SES cases showed
that the decisions in four of the five cases that were mitigated were
unreasonable.

      As discussed earlier in this report, FBI policies require that in the
appellate process FBI OPR’s findings of fact are subject to the
“substantial evidence” standard of review. Substantial evidence is
defined as “the degree of relevant evidence that a reasonable person,
considering the record as a whole, might accept as adequate to support a
conclusion, even though other reasonable persons might disagree.” 101 As
explained in the previous section of this report, Appeals of Disciplinary
Decisions, the FBI does not provide clear guidance about the appropriate
standard of review that appellate officials should apply when review the
penalty imposed by FBI OPR.

       As also discussed in the Appeals of Disciplinary Decisions section
of this report, we found evidence that the Disciplinary Review Board was
not appropriately applying this appellate standard, particularly with
regard to its analysis of FBI OPR’s findings of fact. Two former
Disciplinary Review Board members acknowledged to us that they did
not give any deference to FBI OPR decisions.

       Moreover, as discussed above the appellate officials mitigated five
of the six SES cases on appeal (83 percent), but mitigated only
18 percent of non-SES cases. 102

       Our review of the six SES cases confirmed that the appellate
officials often substituted their judgment for FBI OPR’s decisions, even
on findings of fact. As discussed in the next section, we concluded that
many of the reasons proffered for overturning FBI OPR’s findings in these
cases, and for mitigating punishment, were unpersuasive, contrary to the
appropriate standard of review, and unreasonable on their face.

       101   5 CFR § 1201.56(c)(1).

       102  Only one of the five mitigated cases was based on new evidence. Moreover,
as discussed below, the only appeal that the board did not mitigate was a case where
the discipline imposed was the minimum suspension allowed for SES employees – 15
days. The board specifically noted in its decision letter that federal law prevented the
board from imposing a suspension of less than 15 days.



U.S. Department of Justice                                                             96
Office of the Inspector General
Evaluation and Inspections Division
       Case 1: A female FBI informant alleged that an FBI SES employee
sexually assaulted her many years earlier. During the investigation of
the allegations, which were conducted by OIG investigators, the
informant passed a polygraph examination regarding the allegations.

      In its disciplinary decision, FBI OPR concluded that the evidence
was not sufficient to show that the SES employee sexually assaulted the
informant, but it concluded that the evidence did show that the SES
employee pressured the informant to have sex with him. FBI OPR also
found that the SES employee had reason to know that the informant was
vulnerable because he was aware that previously she had been sexually
assaulted by drug dealers and that she was cooperating with the FBI to
stay out of prison.

       According to FBI OPR’s findings, when the SES employee was first
interviewed under oath regarding these allegations, he said that he and
the informant had consensual oral sex on two occasions in his FBI
vehicle. When asked who initiated the idea of having oral sex, he said
the idea came from the informant. He denied the informant’s allegation
that they had intercourse on another occasion in her office. 103

      The next day the SES employee took a polygraph examination
administered by the OIG. Before the examination, he again discussed
the complainant’s allegation that they had sexual intercourse. This time
he stated that he had tried to have intercourse with the informant and
“maybe the genitals touched” and he could not perform physically
because of her odor. He also said before the polygraph that although the
informant was “not too keen” on the idea of having oral sex the second
time, she did not tell him “no” or resist in any way.

      During the polygraph examination, the SES employee was asked
whether he had intercourse with the informant and whether the
informant in any way asked him to stop. The polygraph examiner
concluded that the SES employee was deceptive when he answered “no”
to both questions.




       103  As recounted in FBI OPR’s findings, the SES employee said there was the
opportunity to have sexual intercourse in her office, and that “it was going to happen.”
However, according to the SES employee’s initial statement to the investigators, the
informant took off her clothes and said we can have sex, but he “couldn’t do that and
didn’t do that” because of her odor.



U.S. Department of Justice                                                            97
Office of the Inspector General
Evaluation and Inspections Division
      During the post-polygraph interview, the SES employee admitted
that the informant did say words to him such as “Oh no, not again” prior
to engaging in oral sex with him the second time.

      In its decision, FBI OPR concluded that the SES employee had an
improper relationship with the informant, misused an FBI vehicle by
engaging in oral sex in the vehicle, and lacked candor when questioned
about the allegations. FBI OPR dismissed the employee, stating that the
FBI employee’s conduct “was and is wholly inconsistent with his
continued employment.”

      On appeal, the Disciplinary Review Board vacated the SES
employee’s dismissal, reinstated him, and imposed a suspension of 105
days. The board agreed with FBI OPR’s finding that the employee twice
used his FBI vehicle to engage in sexual activity, but the board asserted
that the record did not support a lack of candor finding. According to
the Appellate Unit’s write-up of the case for the board, the SES
employee’s statements in his first interview with investigators about
sexual intercourse with the informant were not deceptive, and the fact
that “he did not disclose that he did not engage in sex with the informant
because he was physically unable to perform does not rise to a finding of
lack of candor.” The Appellate Unit also contended that the investigation
was deficient and that FBI OPR and the OIG accepted the SES
employee’s admissions but “did not seek additional immaterial details
regarding these incidents.”

       However, our review of this case concluded that FBI OPR’s finding
of a lack of candor was fully supported by substantial evidence, which is
the standard of review the Board is required to use when an employee
appeals FBI OPR’s misconduct and penalty determination. 104 After
reviewing this case we also determined that the evidence showed that FBI
OPR reasonably concluded that the SES employee was not candid or
forthright, that he had provided misleading information to OIG
investigators, and that FBI OPR’s finding that the employee should be
dismissed was reasonable. We further concluded that the Disciplinary
Review Board’s reasons for overturning FBI OPR’s lack of candor finding,




       104  As discussed previously, the substantial evidence standard is defined as “the
degree of relevant evidence that a reasonable person, considering the record as a whole,
might accept as adequate to support a conclusion, even though other reasonable
persons might disagree.”



U.S. Department of Justice                                                            98
Office of the Inspector General
Evaluation and Inspections Division
and for deciding not to dismiss the SES employee for his conduct, were
unpersuasive and extremely troubling. 105

      Case 2: The Assistant Director of the Human Resources Division,
acting in his capacity as the deciding official for non-adverse appeals,
mitigated an SES employee’s suspension for unprofessional conduct
during a traffic accident from a 5-day suspension to a letter of
censure. 106 Again, we found FBI OPR’s decision to be fully supported,
and we questioned the reasonableness and the logic of the Assistant
Director’s decision to mitigate discipline.

       In this case, an FBI Special Agent was involved in a traffic accident
with a woman in another vehicle. The FBI agent called her supervisor,
the SES employee, who came to the scene. At the scene, a local police
officer was talking to the agent and the woman whose car the agent had
hit. The police officer concluded that the FBI agent was at fault for the
accident.

       According to FBI OPR’s findings, the FBI agent who caused the
accident was unprofessional when arguing with the police officer, and the
FBI SES employee also became unprofessional at the scene. According
to the police officer, the SES employee stated that, “They [the police
officer and the woman whose car was hit] must be meeting for dinner
tonight. She [the police officer] looks like a dyke anyway.” The police
officer was upset by the FBI SES employee’s actions and comments, and
contemporaneously reported the specific comment to another FBI
supervisor who also came to the scene.

      According to FBI OPR, the SES employee acknowledged saying to
the police officer something to the effect of “go over and stand with your
new friend” and “it’s obvious you’re getting along very well with her,” but
the SES employee denied calling the woman a “dyke.” In addition, the
FBI agent involved in the traffic accident stated that the SES employee
commented to the police officer something to the effect of “you guys must
be going out tonight.”


       105 Of the six SES cases we review in this section, this is the only case that was

decided after the composition of the Disciplinary Review Board was changed in
accordance with the Human Resources Division’s August 2007 memorandum.

       106 As noted previously, SES employees may not receive a suspension of less
than 15 days. However, as noted in the FBI OPR addendum, although the employee
was an SES at the time of the appeal, he “was not a member of the SES on the date of
the offense. He [was] adjudicated based on his GS-15 status on the date of the offense.”



U.S. Department of Justice                                                             99
Office of the Inspector General
Evaluation and Inspections Division
     With regard to the SES employee, FBI OPR imposed a 5-day
suspension after concluding that the preponderance of the evidence
substantiated the allegation of unprofessional conduct.

      On appeal, the Appellate Unit concluded that substantial evidence
existed to show that the SES employee acted unprofessionally, but it also
concluded that the evidence did not support the finding that the
employee had called the police officer a “dyke.” The Assistant Director of
the Human Resources Division mitigated the punishment from a 5-day
suspension to a letter of censure. As part of the rationale for mitigation,
the Appellate Unit wrote, “[FBI] OPR has apparently chosen to take the
word of this [police officer] over that of [the SES employee] and the other
SA [Special Agent] at the scene. The [Appellate Unit] finds this
deplorable. . . . [FBI] OPR should have taken the word of the FBI
employees at the scene rather than choosing to believe the [police officer]
whose veracity and motivations are not known.”

       In fact, the appropriate standard of review for FBI OPR’s factual
findings should have been whether there was substantial evidence in the
record to support the finding. In FBI OPR’s view, and in our view, there
clearly was substantial evidence to support the finding. That evidence
included the police officer’s statement about what the FBI SES employee
had said to her, her contemporaneous report at the scene to another FBI
supervisor, the SES employee’s acknowledgement of several
unprofessional comments, and the corroboration by the FBI agent
involved in the accident that the SES employee had made a statement
implying a relationship between the police officer and the other driver.
Instead, the Appellate Unit and the Assistant Director discounted this
evidence, substituted their own judgment regarding the evidence, and
wrote that it was “deplorable” that FBI OPR accepted the statements of a
police officer rather than an FBI employee.

       Case 3: FBI OPR found that the Special Agent in Charge (SAC) of
an FBI field office had manipulated the promotion process within his
office to ensure that his wife, an FBI Special Agent in the office, would
receive a promotion to a supervisory position.

       In this case, the SAC’s wife had applied to be a Supervisory Special
Agent on a counterterrorism squad. The position was designated as a
non-stationary position, which means that the position would be filled
from the pool of qualified candidates from FBI headquarters. This non-
stationary designation was consistent with the normal practice in that
office and with the SAC’s previously stated policy that all Supervisory
Special Agent positions would be non-stationary.


U.S. Department of Justice                                             100
Office of the Inspector General
Evaluation and Inspections Division
        The field office received a pool of qualified candidates. However,
before a selection of a candidate could be made, the SAC terminated the
process for filling the position, reorganized the counterterrorism squad
into two squads, and arranged for one of the supervisory positions to be
announced as a stationary position with a preferred qualification of
inspection experience. As a stationary position the position had to be
filled by the pool of qualified candidates currently assigned to the field
office where the vacancy existed. This change from non-stationary to
stationary made only the SAC’s wife and one other candidate eligible for
the supervisory position, and the SAC’s wife was selected.

       FBI OPR concluded that by his role in the process that led to his
wife’s selection, the SAC had violated various FBI policies, ethical
guidelines, and federal statutes, including 18 U.S.C. § 208, which
prohibits government employees from participating in certain matters
affecting their financial interest. The Department’s Public Integrity
Section declined prosecution of the SAC, but stated that the matter was
serious and that its declination was based on the assumption that the
FBI would impose on the SAC the most severe administrative sanction
available under the circumstances.

      FBI OPR decided to demote the SAC from an SES position to a
GS-13 Special Agent. On appeal, the Disciplinary Review Board
concluded that the offense was substantiated, but it mitigated the
discipline from the demotion proposed by FBI OPR to a 15-day
suspension. We believe such extreme mitigation was unwarranted and
not in accord with the severity of the offense.

       Case 4: In this case an FBI SAC used his government vehicle for
personal trips and also used his government credit card to pay for gas for
these trips. FBI OPR found that the SAC used the government vehicle to
drive to his home in another state on weekends, a distance of 600 miles
roundtrip.

       FBI OPR found that this was an improper use of an FBI vehicle
and that the SAC had not received permission to use the government car
in this manner. FBI OPR also concluded that the SAC’s justifications for
these trips were shifting and unsupported. FBI OPR suspended the SAC,
who was an SES employee, for 30 days and demoted him to a GS-13
Special Agent.

      On appeal, the Disciplinary Review Board upheld FBI OPR’s
findings of fact, stating that the SAC’s explanations for his action lacked



U.S. Department of Justice                                              101
Office of the Inspector General
Evaluation and Inspections Division
credibility. However, with little explanation the board mitigated the
demotion to a GS-15 rather than a GS-13 Special Agent.

       Eventually, the FBI Director’s Office intervened and re-imposed a
penalty of a 30-day suspension, demotion to a GS-13 Special Agent, and
a “loss of effectiveness” transfer, similar to what FBI OPR had originally
decided. 107

       We found that the mitigation by the Disciplinary Review Board was
unwarranted and the FBI Director’s Office took appropriate action with
its intervention in this case.

       Case 5: In this case, FBI OPR concluded that an SES employee
failed to reassign an Intelligence Analyst from a supervisor who had been
investigated for possibly retaliating against the analyst and suspended
the SES employee for 7 days. 108 On appeal, the Deputy Assistant
Director of the Human Resources Division concluded that the finding
was not substantiated because new evidence was provided that the SES
employee’s supervisor had concurred with his decision not to reassign
the analyst.

      In this case, we found the mitigation was not a substitution of the
appellate official’s judgment for FBI OPR’s because it was based on new
evidence not available to FBI OPR when it made the initial disciplinary
decision.

      Case 6: In the only SES case on appeal that the Disciplinary
Review Board did not mitigate, an FBI Inspector had double billed
lodging expenses for over $8,000. He submitted a claim for lodging per
diem expenses while on temporary duty in Washington, D.C., and he also
submitted claims for expenses for lodging per diem while traveling to
other locations during the same period. The Inspector claimed he was
confused about the FBI rules for lodging reimbursement.




        107 This is one of two cases that in part prompted the FBI to make changes to

the composition of the Disciplinary Review Board to address complaints of partiality
and bias. Our discussion of these changes is contained in the Background section of
this report.

       108According to the FBI OPR addendum, the employee “was not a member of
the SES on the date of the offense. Accordingly, he [was] adjudicated based on his non-
SES status.”



U.S. Department of Justice                                                         102
Office of the Inspector General
Evaluation and Inspections Division
      FBI OPR found that the Inspector had committed misconduct and
imposed a 15-day suspension. 109 The Disciplinary Review Board upheld
the decision on appeal. However, the board also noted that by law it
could not mitigate the period of suspension, stating that “Federal Law
does not permit suspension of a Senior Executive for any period less
than fifteen-calendar days. Therefore, the sanction imposed by
[FBI] OPR is sustained.” 110

Conclusion

       In sum, our review found there continues to be a significant
percentage of FBI employees who believe that there is a double standard
of discipline in the FBI. Based on our analysis of FBI data, we
determined that allegations of misconduct against higher-level employees
are substantiated at a lower rate than allegations against lower-level
employees. We also found that higher-level employees have their
disciplinary penalties mitigated on appeal at a significantly higher rate
than lower-level employees (83 percent for SES employees versus
18 percent for non-SES employees). We concluded that although the
number of appealed SES cases is small, SES employees were treated
more leniently on appeal than non-SES employees, and that this more
lenient treatment was not justified.

       We believe the FBI needs to examine the findings in this report to
ensure that FBI policies are applied consistently to all levels of employees
at all stages of the disciplinary process.




        109 We note that the original penalty of 15 days suspension imposed by FBI OPR

was a de minimus penalty considering the severity of the misconduct. It was our
conclusion that the factual circumstances of this case – double billing thousands of
dollars in expenses – warranted the imposition of a more severe penalty by FBI OPR.

       110 Like other FBI employees for whom the decided discipline was not actually
imposed (see the next section of this report), this SES employee mistakenly received pay
during his suspension period. FBI OPR managers told us that, “For a variety of factors,
including his SES status, [FBI OPR officials] did not believe the mistake was
inadvertent. In consultation with [the SES employee’s] Division, the matter was referred
to the Inspection Division (for investigation) and the Finance Division (for recoupment of
monies). [The SES employee] retired during the subsequent administrative inquiry.”



U.S. Department of Justice                                                           103
Office of the Inspector General
Evaluation and Inspections Division
Recommendation

       We recommend that the FBI:

       14. In addition to Recommendation 12, which recommends a
           change in the FBI’s appellate process, ensure that FBI policies
           are applied consistently to all levels of employees at all stages
           of the disciplinary process.




U.S. Department of Justice                                              104
Office of the Inspector General
Evaluation and Inspections Division
IMPLEMENTATION OF DISCIPLINE

       The FBI does not ensure that disciplined employees
       serve their suspensions. We found cases where FBI
       employees either did not serve their suspensions at all
       or were suspended for the wrong amount of time. We
       also found cases where employees’ personnel files did
       not contain documentation showing their suspensions.
       Other employees’ records showed them as being on leave
       when, in fact, they were supposed to be serving a
       suspension. Further, we found that the FBI’s unique
       practice of beginning suspensions at the close of
       business on Fridays results in FBI employees effectively
       serving fewer days and receiving less time off without
       pay than employees in other Department components
       serve for the same discipline.

Many suspended employees do not serve their suspension or lose
pay for an incorrect number of days.

      FBI policy requires that employees serve the suspension periods
stated in decision letters. 111 To assess whether FBI employees actually
served their suspensions, we reviewed Case Management System data for
579 FBI employees who were supposedly suspended from FY 2005 to
FY 2007. 112

       The records for 63 of these employees did not contain entries in the
Case Management System for the disciplinary action taken or the date
the action took place. We then asked the FBI to provide the time and
attendance records for these 63 employees to confirm that they served
their suspensions. These records showed that two employees never
served their suspensions. In addition, the time and attendance records
for seven other employees show that they were suspended for an
incorrect number of days.



       111 A suspension is defined as “the placing of an employee, for disciplinary

reasons, in a temporary status without duties and pay.”

       112  The Case Management System contains information on the reporting and
investigation of alleged employee misconduct, the results of these investigations, and
the discipline imposed. For every FBI employee who is suspended, FBI OPR
adjudicators are responsible for entering the action taken and the date the action took
place into the Case Management System.



U.S. Department of Justice                                                            105
Office of the Inspector General
Evaluation and Inspections Division
      We also reviewed a sample of 20 FBI employees who did have
entries in the Case Management System that indicated the disciplinary
action taken and the date the action took place. However, our analysis of
the personnel and pay records for these employees found that 6 of the 20
were either not suspended at all or were suspended for an incorrect
number of days.

      Thus, in total, we reviewed the personnel and time and attendance
records for 83 suspended employees. Of the 83 employees, 15 employees
(18 percent) were either not suspended at all or were suspended for an
incorrect number of days.

       We asked personnel in the FBI’s Human Resources Division how it
could happen that employees who were suspended still received pay.
They stated that a suspension does not automatically translate to loss of
pay because the data system used to record personnel actions like
suspensions – the FBI’s Bureau Personnel Management System (BPMS) –
is not linked to the data system used to record time and attendance. The
time and attendance system determines whether an employee receives
pay. Therefore, even though employees may be suspended, they are still
able to receive pay unless their work status is entered accurately into the
FBI timekeeping system.

      Our findings regarding the specific problems regarding the
15 employees whose suspension was not imposed or imposed for the
incorrect number of days are shown in Table 11.




U.S. Department of Justice                                             106
Office of the Inspector General
Evaluation and Inspections Division
  Table 11: Description of Employees Who Were Not Suspended or
         Were Suspended for the Incorrect Number of Days
 Position and
 grade level    Penalty                             Results
         The following are the nine individuals whose suspensions were not
                  confirmed in the FBI’s Case Management System.
                           The employee was suspended for 15 days for knowingly
                           providing false information on fiscal-related documents.
                           Under the FBI’s practice of beginning suspensions at the
                           close of business on Friday, a 15-day suspension normally
                           results in a loss of pay for 10 workdays. Time and
                           attendance records show the employee lost pay for 2
                           workdays, not 10 workdays.
 Supervisory
 Special         15 days Note: This case was not confirmed in the FBI’s Case
 Agent, SES                Management System because the employee had not yet
                           exhausted his MSPB appeal rights as of the date that the
                           FBI provided us with the Case Management System data.
                           Subsequent to providing us the data, FBI OPR tried to
                           confirm the suspension and also discovered this
                           discrepancy. FBI OPR referred an allegation of potential
                           misconduct to the Internal Investigations Section, and the
                           employee subsequently retired.
                           The employee was suspended for 14 days for using his
 Supervisory               government computer to access pornography. A 14-day
 Special                   suspension normally results in a loss of pay for 10
                 14 days
 Agent,                    workdays. Time and attendance records show the
 GS-15-05                  employee was not suspended and was paid for all 10
                           workdays.
                           The employee was suspended for 3 days for using her
 Office
                           government credit card for personal use. A 3-day
 Services
                  3 days   suspension normally results in a loss of pay for 1 workday.
 Supervisor,
                           Time and attendance records show the employee was not
 GS-10-03
                           suspended and was paid.
                           The employee was suspended for 45 days for operating a
 Evidence                  vehicle while under the influence of alcohol. A 45-day
 Technician,     45 days suspension normally results in a loss of pay for 31
 GS-07-06                  workdays. Time and attendance records show the
                           employee lost pay for 29 workdays.
                           The employee was suspended for 45 days for providing
                           false information on his employment application and
 Electronics
                           subsequent security-related forms. A 45-day suspension
 Technician,     45 days
                           normally results in a loss of pay for 31 workdays. Time
 GS-12-08
                           and attendance records show the employee lost pay for 30
                           workdays.
                           The employee was suspended for 10 days for failing to
                           report his marriage to a foreign national and for providing
 Special
                           false information on security-related forms. A 10-day
 Agent,          10 days
                           suspension normally results in a loss of pay for 6
 GS-13-09
                           workdays. Time and attendance records show the
                           employee lost pay for 5 workdays.



U.S. Department of Justice                                                        107
Office of the Inspector General
Evaluation and Inspections Division
 Position and
 grade level    Penalty                              Results
                           The employee was suspended for 17 days for paying a
                           source without authorization, failing to comply with
 Special                   operational guidelines regarding the use of the source, and
 Agent,         17 days    having an improper personal relationship with the source.
 GS-13-04                  A 17-day suspension normally results in a loss of pay for
                           11 workdays. Time and attendance records show the
                           employee lost pay for 10 workdays.
                           The employee was suspended for 30 days for operating his
 Special                   personally owned vehicle while impaired by alcohol. A
 Agent,         30 days    30-day suspension normally results in a loss of pay for
 GS-13-05                  20 workdays. Time and attendance records show the
                           employee lost pay for 21 workdays.
                           The employee was suspended for 45 days for investigative
 Language
                           deficiencies. A 45-day suspension normally results in a
 Specialist,    45 days
                           loss of pay for 31 workdays. Time and attendance records
 GS-12-08
                           show the employee lost pay for 33 workdays.
            The following are the six individuals whose suspensions were
   confirmed in the FBI’s Case Management System but were not confirmed by
                            time and attendance records.
                           The employee was suspended for 5 days for failing to notify
                           the FBI that he had lost his government-issued cellular
                           telephone. As a result of his failure to notify anyone, an
 Supervisory
                           unknown individual found and used the cellular telephone,
 Special
                  5 days   making almost $9,000 in unauthorized calls over a
 Agent,
                           7-month period. A 5-day suspension normally results in a
 GS-15-02
                           loss of pay for 3 workdays. Time and attendance records
                           show the employee was paid during the entire suspension
                           period.
                           The employee was suspended for 3 days for committing
 Intelligence              time and attendance fraud. A 3-day suspension normally
 Assistant,       3 days   results in a loss of pay for 1 workday. Time and
 GS-07-09                  attendance records show the employee was paid during the
                           entire period.
                           The employee was suspended for 5 days for losing his FBI
 Supervisory
                           badge and credentials. A 5-day suspension normally
 Special
                  5 days   results in a loss of pay for 3 workdays. Time and
 Agent,
                           attendance records show the employee lost pay for
 GS-15-06
                           2 workdays.
                           The employee was suspended for 5 days for viewing
 Special                   pornography on a government-owned computer. A 5-day
 Agent,           5 days   suspension normally results in a loss of pay for
 GS-12-01                  3 workdays. Time and attendance records show the
                           employee lost pay for 2 workdays.
                           The employee was suspended for 27 days for
 Evidence                  unprofessional conduct, insubordination, and misuse of
 Technician,     27 days position. A 27-day suspension normally results in a loss of
 GS-09-04                  pay for 19 workdays. Time and attendance records show
                           the employee lost pay for 18 workdays.




U.S. Department of Justice                                                         108
Office of the Inspector General
Evaluation and Inspections Division
 Position and
 grade level     Penalty                              Results
                            The employee was suspended for 5 days for failing to
                            safeguard an FBI-authorized weapon when checking out of
 Special
                            a hotel room. A 5-day suspension normally results in a
 Agent,           5 days
                            loss of pay for 3 workdays. Time and attendance records
 GS-13-07
                            and Statement of Earnings and Leave show the employee
                            lost pay for 5 workdays.
 Source: OIG and FBI analysis of FBI documents.

      For those cases in which employees’ time and attendance records
indicate they were paid while their BPMS records indicate they were on
suspension, we cannot determine from the available records whether the
employee was actually at work.

      In summary, the extent of the discrepancies we found between
imposed and served suspensions indicates that the FBI’s process for
ensuring that employees properly serve their suspensions is not effective.
Further, our findings show that entries in BPMS are not a reliable
indicator that a suspension has actually been carried out. As a result,
we recommend that the FBI check the BPMS, time and attendance
records, and Statements of Earnings and Leave for FBI employees
suspended since October 1, 2004, to ensure that they served their
suspension as imposed and that they did not receive pay if they were not
at work.

Suspended employees’ personnel and pay records are often
incomplete or reflect incorrect information regarding employee
suspensions.

       Incomplete Employee Personnel Records. For each suspension,
there should be two Standard Forms 50 (SF-50), Notices of Personnel
Action, in the FBI employee’s Official Personnel Folder to document the
suspension period. One form documents the beginning date of the
suspension and another documents the employee’s return to duty
date. 113 During our review, we examined the Official Personnel Folders


         113 According to the FBI’s Records Management Division, employees’ Official

Personnel Folders should include all Notices of Personnel Action, including those
related to suspensions as a result of disciplinary action. This practice follows the Office
of Personnel Management’s Guide to Processing Personnel Actions, which states that
these Notices of Personnel Action should “be documented for long-term retention in the
Official Personnel Folder,” typically with an SF-50. 5 U.S.C. § 7503 and § 7513 also
state that “any order effecting the suspension, together with any supporting material,
shall be maintained by the agency.”



U.S. Department of Justice                                                            109
Office of the Inspector General
Evaluation and Inspections Division
for the 83 employees we sampled to see if they contained the required
SF-50s implementing suspensions.

      In addition to the employees described above who either were not
suspended or were suspended for the incorrect number of days, we
found that the personnel records for another 29 of the 83 employees we
sampled (35 percent) did not contain the required SF-50s to document
the beginning and end of the suspension. 114 Of the 29 employees’ files,
11 were missing 1 of the SF-50s, while another 18 employees’ files were
missing both.

       We asked FBI personnel why the SF-50s were missing. They
stated that one reason may be a backlog of SF-50s that have yet to be
filed. They estimated that roughly 100,000 SF-50s covering the last
2 years had not been filed. Therefore, even if discipline had been
implemented, it would not be evident from a review of the Official
Personnel Folders.

      However, we reviewed the files of the 29 employees who were
missing at least 1 of the SF-50s recording their suspension and found
that 15 of these employees were suspended before January 2007.
Therefore, the backlog of SF-50s does not explain why their SF-50s were
missing from their files.

      For a variety of management reasons, the FBI needs to ensure that
its employees’ Official Personnel Folders contain all appropriate
documentation showing imposition of any discipline. Among other
things, the folders are relied on by agency personnel and managers to
make decisions about whether an employee is qualified for promotion.
They also contain relevant information for responding to Giglio inquiries
from prosecutors. 115


       114 We also reviewed the time and attendance records for these employees with

incomplete documentation to support their suspensions. Three of the employees retired
or were removed for other reasons before serving their suspensions, and the time and
attendance records for the remainder showed that they lost pay for the correct number
of days corresponding to their suspensions.

       115  Pursuant to Giglio v. United States, 405 U.S. 150 (1972), the government has
an obligation to provide the defense with information that affects a government
witness’s credibility. In order to meet this obligation, Department policy requires the
FBI, as well as other Department components, to receive inquiries from federal
prosecutors regarding their employees and advise the prosecutors of any finding of
misconduct that reflects upon the truthfulness or possible bias of an employee, any
past or pending criminal charge, and any credible allegation of misconduct that reflects
                                                                                  (Cont’d.)

U.S. Department of Justice                                                            110
Office of the Inspector General
Evaluation and Inspections Division
       Incorrect Time and Attendance Records. We found that the time
and attendance records for 9 of 83 suspended employees (11 percent)
showed the employees as being absent for reasons other than a
suspension. According to the FBI, the time and attendance records
should reflect that a suspended employee was on “leave without pay due
to a suspension,” which is denoted with a unique code. When properly
entered, the Statements of Earnings and Leave that are mailed to the
employee also show the employee as being on “suspension.” However,
our review revealed that although suspensions had been imposed on
these nine employees, their records showed them on leave for the
following reasons:

       •   The Statements of Earnings and Leave for five employees
           indicated they were on “leave without pay.” Leave without pay
           is a separate code that the Office of Personnel Management
           describes as being “granted at the employee’s request,” which is
           contrary to the definition of a suspension.

       •   The records for two employees indicated they were on “absence
           without official leave.” The Office of Personnel Management
           describes absence without official leave as “[a]bsence without
           prior approval, a nonpay status resulting from an Agency
           determination that it will not grant any type of leave (not even
           leave without pay) for a period of absence for which the
           employee did not obtain advance authorization or for which a
           request for leave has been denied.”

       •   The records for one employee indicated he was on “furlough.”
           The Office of Personnel Management describes furlough as
           unpaid absence due to “lack of work or funds, or for other
           non-disciplinary reasons,” which again is contrary to the
           definition of a suspension.

       •   The time and attendance records for one employee stated that
           the employee was on “leave without pay” due to sickness for a
           hospital visit or surgery during the suspension period.

      We asked personnel in the FBI’s Human Resources Division why
employee time and attendance records did not accurately show that the
employees had been suspended. They stated that time and attendance
records are completed by field and headquarters division personnel and

upon the truthfulness or possible bias of the employee that is the subject of a pending
investigation. See United States Attorneys Manual § 9-5.100.



U.S. Department of Justice                                                          111
Office of the Inspector General
Evaluation and Inspections Division
the errors were probably due to clerical data entry errors in the divisions.
They said that the FBI’s process leaves it up to the employees and their
supervisors to ensure that time and attendance records accurately reflect
suspensions.

The FBI’s suspension periods for employees begin at the close of
business on Friday, which is unique among the Department’s law
enforcement components and results in FBI employees serving
shorter suspensions for comparable discipline.

      FBI policy states that a “period of suspension will always
commence at the close of business, Friday of any given week,” except for
extraordinary circumstances due to an employee’s work schedule. This
means that FBI employees who are suspended for 3 days actually serve a
1-day suspension and lose only 1 day’s pay because the first 2 days of
the suspension are Saturday and Sunday, which are normally non-paid
days.

      In contrast, the four other Department components whose
disciplinary systems we previously reviewed – ATF, DEA, USMS, and
BOP – begin employee suspensions on the first workday (usually
Monday) of the workweek. As a result, because FBI suspension periods
begin on the weekend, FBI employees who are suspended for the same
length of time lose less pay than other Department employees. 116

       We asked the FBI why the agency begins its suspensions at the
close of business on Fridays when other Department components begin
their suspensions on the first workday (usually Monday) of the
workweek. According to FBI OPR officials, this practice has been in place
since at least 1996, but the FBI could not locate any specific written
policy explaining why it was implemented.

Conclusion

      For a disciplinary system to be fair and effective, discipline must be
correctly recorded in personnel records and actually implemented.
However, as noted in this section, we found that the FBI did not ensure
that discipline decided for FBI employees was actually imposed. We also
found that the FBI did not ensure that the discipline that was imposed

       116 For example, for discipline that must be implemented Department-wide,
such as a 30-day suspension for misuse of a government vehicle, FBI employees would
lose 20 days of pay, while their counterparts in other Department components would
lose 22 days of pay.



U.S. Department of Justice                                                      112
Office of the Inspector General
Evaluation and Inspections Division
was accurately recorded in the employee’s personnel file. Finally, we
found that, unlike other Department components, the FBI begins
suspensions at the close of business on Friday, resulting in less
punishment for the same discipline.

       We recommend that the FBI review the personnel records and time
and attendance records of FBI employees who have been disciplined
since October 1, 2004, to ensure that the employees actually served the
appropriate suspension, and that the employees’ Official Personnel
Folders contain the appropriate documentation supporting the
disciplinary action and noting that the employee was in a non-pay,
suspended status for the entire suspension period. Moreover, we believe
the FBI should change its disciplinary practice to bring it in line with the
rest of the Department and start discipline at the beginning of the
workweek, which is typically a Monday.

Recommendations

       We recommend that the FBI:

       15. Conduct a review of the personnel files and timekeeping
           records of all employees who were suspended since
           October 1, 2004, to verify that the suspensions were properly
           documented, that the employees served their suspensions,
           and the employees were not paid during their suspension
           periods.

       16. Revise FBI policy to begin suspensions on the first day of the
           workweek, as is done by other Department components.




U.S. Department of Justice                                              113
Office of the Inspector General
Evaluation and Inspections Division
                 CONCLUSION AND RECOMMENDATIONS


      Overall, we found that some aspects of the FBI’s disciplinary
system worked well, but that improvements are needed in several critical
areas. To the FBI’s credit, the timeliness of all phases of the FBI’s
disciplinary process improved since FY 2005. The FBI’s misconduct
investigations are generally thorough, necessary investigative steps
generally are taken, and the investigations are well documented in the
investigative reports.

      However, we found problems with the reporting of misconduct
allegations, the adjudication of investigations, the appeals of disciplinary
decisions, and the implementation of discipline that prevent us from
concluding that the FBI’s disciplinary system overall is consistent and
reasonable.

       We found that most incidents of misconduct were reported to the
FBI’s Inspection Division and to the OIG, as required. However,
30 percent of survey respondents who had observed misconduct said
they either never reported misconduct they observed or reported less
than half the misconduct they observed. Also, some divisions did not
consistently report incidents of potential misconduct to the Internal
Investigations Section, and the FBI’s process for reporting alleged
misconduct to the OIG was not effective in ensuring the OIG was
provided all misconduct allegations or for tracking the OIG’s reviews of
allegations.

       We concluded that the adjudicative decisions reached by FBI OPR
generally were reasonable. However, for almost one-third of
substantiated misconduct cases, FBI OPR did not explain how it
considered precedent cases when it chose non-standard penalties or FBI
divisions did not submit their assessments of the Douglas Factors. We
found some inconsistencies in penalties imposed between factually
similar cases, and the lack of discussion of precedent or the Douglas
Factors made it difficult to determine if these inconsistencies were
appropriate. We also learned that the FBI OPR Assistant Director has at
times considered unwritten information she received outside the normal
disciplinary process before making disciplinary decisions.

      In the appellate stage, we found a lack of clear guidance about
what standard of review appellate officials should apply when reviewing
FBI OPR’s penalty determinations. Further, we are concerned that
appeals of adverse actions by SES employees are decided by a


U.S. Department of Justice                                              114
Office of the Inspector General
Evaluation and Inspections Division
Disciplinary Review Board made up only of fellow SES employees. We
believe that a permanent appeals decision maker or board, rather than a
board composed of SES employees who rotate in and out of their board
service after 6 months, could improve the quality and consistency of
disciplinary decisions, and could also help address concerns about bias
in individual cases or the appearance of SES board members issuing
more lenient decisions for their SES colleagues. Most of the appellate
decisions for non-SES employees that we reviewed were reasonable, but
the majority of appellate decisions for SES employees were not.

      We found there continues to be a significant percentage of FBI
employees who believed that there is a double standard of discipline for
higher-ranking and lower-ranking FBI employees. Our review found that
allegations of misconduct against SES employees were unsubstantiated
at a much higher rate than allegations against non-SES employees.
Even more significant, SES employees’ penalties were mitigated on
appeal at a much higher rate than non-SES employees’ penalties.
Moreover, when we examined the appellate officials’ decisions to mitigate
penalties for SES employees, we found that the mitigation in most of
these SES cases was unpersuasive and unreasonable.

       Finally, we found that the FBI did not ensure that imposed
disciplinary penalties were actually implemented and that discipline was
documented in employees’ personnel files. We found that 15 of the
83 suspended employees we reviewed (18 percent) either did not serve
their suspension at all or were suspended for an incorrect number of
days. We also determined that the personnel and pay records for an
additional 38 employees (46 percent) were incomplete or reflected
incorrect information regarding the suspensions. In addition, because
the FBI begins its suspensions at the close of business on Fridays, FBI
employees actually serve fewer days and receive less time off without pay
than employees in other Department components who are suspended for
the same amount of time.

       In sum, we believe the FBI must take significant action to improve
its disciplinary process, including ensuring that misconduct allegations
are consistently reported, that its adjudicative and appellate disciplinary
decisions are reasonable and well-documented, that discipline is
implemented and recorded in employees’ personnel files, and that
discipline is administered equitably across all grade levels and for all job
categories. Our report makes 16 recommendations to assist the FBI in
improving its disciplinary process. As a result of our review, we
recommend that the FBI:



U.S. Department of Justice                                               115
Office of the Inspector General
Evaluation and Inspections Division
       1.   Remind all employees on an annual basis that all allegations
            of misconduct must be promptly reported to the FBI Internal
            Investigations Section or to the OIG.

       2.   Stress to field and headquarters divisions that they must
            forward all allegations of potential misconduct they receive to
            the Internal Investigations Section.

       3.   Consider automating the allegation-reporting process so that
            allegations can be reviewed by the OIG electronically instead
            of in hard copy.

       4.   Ensure that Internal Investigations Section personnel enter
            information regarding the OIG’s review into the FBI’s Case
            Management System.

       5.   Require field and headquarters divisions to specify, when
            forwarding allegations to the Internal Investigations Section,
            the date they became aware of the potential misconduct.

       6.   Modify the FBI’s Case Management System so that users can
            track the date that divisions become aware of potential
            misconduct.

       7.   Require FBI OPR to document its consideration of precedent
            when a mitigated or aggravated penalty is imposed.

       8.   Require field and headquarters divisions to submit a Douglas
            Factors assessment in misconduct cases, except in
            unsubstantiated Delegated Investigation and Adjudication
            cases.

       9.   Clarify in policy that FBI OPR and appellate officials should
            not seek or consider unwritten information when making
            disciplinary decisions.

       10. Consider changing the adjudicative process to ensure that the
           proposing and deciding officials within FBI OPR are separate.

       11. Clarify FBI policies on the appellate officials’ authority to
           modify findings of fact and penalties to resolve different
           interpretations of the policies by FBI OPR and appellate
           officials.




U.S. Department of Justice                                                 116
Office of the Inspector General
Evaluation and Inspections Division
       12. Consider appointing a permanent appeals decision maker or
           board, rather than an appeals board composed of employees
           who rotate in and out of their board service after 6 months. In
           addition, if the permanent appellate decision-maker is a board
           rather than an individual, expand the board membership for
           SES appeals beyond only SES employees.

       13. Require appellate officials to fully document in writing the
           reasons for their decisions, including their consideration of
           precedent and mitigating or aggravating factors.

       14. In addition to Recommendation 12, which recommends a
           change in the FBI’s appellate process, ensure that FBI policies
           are applied consistently to all levels of employees at all stages
           of the disciplinary process.

       15. Conduct a review of the personnel files and timekeeping
           records of all employees who were suspended since
           October 1, 2004, to verify that the suspensions were properly
           documented, that the employees served their suspensions,
           and the employees were not paid during their suspension
           periods.

       16. Revise FBI policy to begin suspensions on the first day of the
           workweek, as is done by other Department components.




U.S. Department of Justice                                              117
Office of the Inspector General
Evaluation and Inspections Division
     APPENDIX I: RESULTS OF OIG SURVEY TO FBI EMPLOYEES


Reporting Misconduct
This section includes questions about your knowledge of FBI guidelines and
policies for reporting employee misconduct and whether you have witnessed
employee misconduct.

1.     What document do you rely on for a definition of what constitutes
       employee misconduct? (Select all that apply.)
                                                              Number of
                                                              responses Percentage
     Offense Table                                                    174     22%
     Employee Handbook                                                392     49%
     Manual of Investigative Operations and Guidelines                229     29%
     Manual of Administrative Operations and Procedures               372     47%
     Don’t rely on a formal document                                  232     29%
     N = 795
     Respondents could select more than one response.


2.     Have you personally observed, or been made aware of, possible
       misconduct by an FBI employee at any time between January 2005
       and December 2007? (Select one.) [If “No,” skip to Question 4.]
                               Number of responses      Percentage
                         Yes                      228          29%
                         No                       564          71%
                         N = 792

3.     [If “Yes” to Question 2.] Of the times that you observed or were made
       aware of possible FBI employee misconduct, how often did you
       report it to the appropriate authority? (Select one.)
                                        Number of responses Percentage
                     Every time                         130          58%
                     Most of the time                    29          13%
                     Some of the time                    27          12%
                     Never                               40          18%
                     N = 226
                     Percentages do not add to 100 because of rounding.




U.S. Department of Justice                                                       118
Office of the Inspector General
Evaluation and Inspections Division
4.     If you personally observed or were made aware of possible FBI
       employee misconduct, to whom would you report it? (Select all that
       apply.)
                                                          Number of
                                                          responses        Percentage
My immediate supervisor                                            622           84%
The immediate supervisor of the individual whom I
                                                                   177           24%
believed had committed misconduct
My field office’s OPR Coordinator                                     88         12%
Upper management in my division                                    172           23%
Inspection Division                                                   79         11%
FBI Office of Professional Responsibility                          117           16%
Security Division                                                  117           16%
Equal Employment Opportunity Office                                   32          4%
Department of Justice Office of Professional
                                                                      17          2%
Responsibility
Office of the Inspector General                                       17          2%
N = 742
Respondents could select more than one response.

       In addition to these responses, 51 respondents chose “other” and
       provided answers in their own words. The OIG categorized information
       within their answers as follows:
                                                             Number of responses
My field office’s Security Officer                                                24
The employee suspected of having committed misconduct                             11
A supervisor in general                                                              8
It would depend on the situation                                                     7
Employee Assistance Program                                                          3
N = 51
Number of responses adds to more than 51 because some responses fit into more than
one category.

5.     Which of the reasons below would make you choose not to report
       possible misconduct by an FBI employee? (Select all that apply.)
                                                          Number of
                                                          responses        Percentage
I was not familiar with the process for reporting
                                                                      58          8%
misconduct.
I was not certain if it was misconduct or a performance
                                                                   226           29%
issue.



U.S. Department of Justice                                                       119
Office of the Inspector General
Evaluation and Inspections Division
                                                               Number of
                                                               responses        Percentage
I did not want to get involved.                                            32          4%
I thought the process would be too time-consuming.                         14          2%
I believed it was the supervisor’s responsibility to report
                                                                           43          6%
misconduct.
I did not want to get a co-worker in trouble.                              38          5%
The employee was a good performer.                                         22          3%
I believed that management would not be supportive of
                                                                          103         13%
my decision to report misconduct.
I believed that the employee would not be disciplined even
                                                                          111         14%
if I reported the misconduct.
I feared retaliation for reporting misconduct.                            120         16%
Another employee also witnessed, or was aware of, the
                                                                           93         12%
incident and told me that he/she had reported it.
None of the reasons above would make me choose not to
                                                                          404         52%
report possible misconduct.
N = 771
Respondents could select more than one response.

       In addition to these responses, 16 respondents chose “other” and
       provided answers in their own words. The OIG categorized information
       within their answers as follows:
                                                                    Number of responses
Not aware of the details of an incident.                                                  4
Incident was minor or was a technical violation.                                          3
Lack of accountability within the disciplinary process.                                   3
Experienced retaliation for reporting a past incident.                                    3
It would depend on the specific violation.                                                2
Punishments for misconduct are too harsh.                                                 1
The OIG is not impartial.                                                                 1
N = 16
Number of responses adds to more than 16 because some responses fit into more than
one category.

6.     Would you report possible FBI employee misconduct directly to
       appropriate authorities in FBI headquarters if you did not wish to
       report it to anyone in your field office or division?
                                Number of responses Percentage
                          Yes                     641         82%




U.S. Department of Justice                                                            120
Office of the Inspector General
Evaluation and Inspections Division
                              Number of responses Percentage
                         No                       144     18%
                         N = 785

Personal Experience With the FBI’s Disciplinary Process
This section includes questions about your knowledge of how the FBI’s
disciplinary process is structured and your specific knowledge of any
misconduct investigations that were conducted within the last 3 years.

7.     What is your understanding of which entity within the FBI conducts
       misconduct investigations? (Select all that apply.)
                                                            Number of
                                                            responses    Percentage
The FBI’s Inspection Division, Internal Investigations
                                                                   271         35%
Section
The FBI’s Office of Professional Responsibility                    612         79%
The FBI’s Human Resources Division                                  27          4%
The FBI field office or headquarters division where the
employee who is alleged to have committed misconduct               193         25%
works
I don’t know                                                        27          4%
N = 771
Respondents could select more than one response.


8.     What is your understanding of which entity within the FBI decides
       the discipline that will be imposed in cases involving employee
       misconduct? (Select all that apply.)
                                                            Number of
                                                            responses    Percentage
The FBI’s Inspection Division, Internal Investigations
                                                                   106         14%
Section
The FBI’s Office of Professional Responsibility                    688         89%
The FBI’s Human Resources Division                                  34          4%
The FBI field office or headquarters division where the
employee who is alleged to have committed misconduct               121         16%
works
I don’t know                                                        41          5%
N = 770
Respondents could select more than one response.




U.S. Department of Justice                                                     121
Office of the Inspector General
Evaluation and Inspections Division
9.     Have you, or someone you know personally, been the subject of an
       employee misconduct investigation that was active at any time
       between January 2005 and December 2007? (Select all that apply.)
                                                           Number of
                                                           responses        Percentage
Yes – I have been the subject of an investigation                      54          7%
Yes – I know someone personally who has been the
                                                                   309            40%
subject of an investigation
No                                                                 427            56%
N = 767
Respondents could select more than one response.

10.    (IF “YES” TO 9) Which entity conducted the investigation(s)? (Select
       all that apply.)
                                                            Number of
                                                            responses       Percentage
I have not been, nor do I know anyone personally who has
                                                                        5          2%
been, the subject of a misconduct investigation.
The FBI’s Inspection Division                                      104            30%
The FBI field office or headquarters division where the
                                                                       98         29%
employee alleged to have committed misconduct worked
The Department of Justice’s Office of the Inspector
                                                                       70         20%
General
The Department of Justice’s Office of Professional
                                                                   122            36%
Responsibility
The Department of Justice’s Public Integrity Section                    4          1%
Don’t know                                                             57         17%
N = 344
Respondents could select more than one response.

11.    Have you, or someone you know personally, been disciplined by OPR
       between January 2005 and December 2007 as the result of an
       employee misconduct investigation? (Select all that apply.)
                                                            Number of
                                                            responses       Percentage
Yes – I have been disciplined                                          28          4%
Yes – I know someone personally who has been disciplined           293            38%
No                                                                 460            60%
N = 766
Respondents could select more than one response.




U.S. Department of Justice                                                        122
Office of the Inspector General
Evaluation and Inspections Division
12.    Have you, or someone you know personally, appealed a disciplinary
       decision through the FBI’s internal appeals process between
       January 2005 and December 2007? (Select all that apply.)
                                                                 Number of
                                                                 responses       Percentage
Yes – I have appealed a disciplinary decision                             12            2%
Yes – I know someone personally who has appealed a
                                                                         187           24%
disciplinary decision
No                                                                       570           74%
N = 766
Respondents could select more than one response.

13.    Please indicate if you have ever performed any of the following
       assignments: (Select all that apply.)
                                                                 Number of
                                                                 responses       Percentage
I have conducted a misconduct investigation, either in a field
office or in the Internal Investigations Section in                       98           13%
headquarters.
I have adjudicated a misconduct investigation.                            19            3%
I have reviewed appeals as an employee in the Appellate
                                                                             1          0%
Unit.
I have served as a non-voting member of a Disciplinary
                                                                             3          0%
Review Board.
I have served as a voting member of a Disciplinary Review
                                                                          13            2%
Board.
I have not performed any of these assignments.                           648           85%
N = 761
Respondents could select more than one response.

Perception of the FBI’s Disciplinary Process
This section includes questions about your general perceptions of the FBI’s
disciplinary process, regardless of whether you have specific knowledge of
misconduct investigations that were conducted between January 2005 and
December 2007.

14.    If you have been the subject of a misconduct investigation, please
       indicate how much you agree or disagree with the following
       statement: When I was the subject of a misconduct investigation,
       my case was handled in a timely manner.
                                    Number of responses Percentage
                 Strongly Agree                           9         6%
                 Agree                                   23        16%



U.S. Department of Justice                                                             123
Office of the Inspector General
Evaluation and Inspections Division
                                     Number of responses Percentage
                 Neutral                                11         8%
                 Disagree                               16         11%
                 Strongly Disagree                      36         25%
                 Don’t Know                             50         35%
                 N = 145
                 Percentages do not add to 100 because of rounding.


                                                                         Number of
                                                                         responses
      I have not been the subject of a misconduct investigation.               517


15.    Please indicate how much you agree or disagree with the following
       statement: The disciplinary process is generally timely. (Select
       one.)
                                     Number of responses Percentage
                 Strongly Agree                         16         2%
                 Agree                                  71         10%
                 Neutral                                83         12%
                 Disagree                              110         15%
                 Strongly Disagree                      99         14%
                 Don’t Know                            339         47%
                 N = 718

16.    (IF “DISAGREE” OR “STRONGLY DISAGREE” TO EITHER 14 OR 15)
       Which part(s) of the process do you consider not to be timely?
       (Select all that apply.)
                                                     Number of responses Percentage
  The investigation of employee misconduct                           131         30%
  The deciding of discipline (adjudication) by OPR                   165         38%
  The FBI’s internal appeals process                                  70         16%
  Don’t know                                                         222         51%
  N = 432
  Respondents could select more than one response.

17.    Please indicate how much you agree or disagree with the following
       statement: Misconduct investigations adequately address the
       relevant issues. (Select one.)
                                     Number of responses Percentage
                 Strongly Agree                         21         3%


U.S. Department of Justice                                                           124
Office of the Inspector General
Evaluation and Inspections Division
                                      Number of responses Percentage
                  Agree                                   144         20%
                  Neutral                                 138         19%
                  Disagree                                 61         9%
                  Strongly Disagree                        34         5%
                  Don’t Know                              320         45%
                  N = 718
                  Percentages do not add to 100 because of rounding.

18.      (IF “DISAGREE” OR “STRONGLY DISAGREE” TO 17) Why do you
         believe the investigations do not adequately address the relevant
         issues? (Select all that apply.)
                                                                Number of
                                                                responses        Percentage
The investigation did not address all allegations.                          23         15%
The investigation addressed some allegations more
                                                                            29         19%
thoroughly than others.
Relevant witnesses were not interviewed.                                    40         26%
The witness interviews were not adequate, in that relevant
                                                                            36         24%
questions were not asked.
The interview of the employee under investigation was not
                                                                            23         15%
adequate, in that relevant questions were not asked.
More documentary evidence (e.g., phone, computer, or
travel records) should have been obtained during the                        24         16%
investigation.
It is unclear why the investigations did not adequately
                                                                            41         27%
address the relevant issues.
Other.                                                                      66         43%
N = 152
Respondents could select more than one response.

19.      (IF “DISAGREE” OR “STRONGLY DISAGREE” TO 17) Please explain
         your response to Question 18 in more detail.
         Seventy-three respondents provided answers in their own words. The
         OIG categorized information within their answers as follows:

                                                                            Number of
                                                                            responses
Misconduct investigations are biased against the employee under
                                                                                        15
investigation.
Investigations do not result in consistent or reasonable penalties.                     14




U.S. Department of Justice                                                             125
Office of the Inspector General
Evaluation and Inspections Division
                                                                       Number of
                                                                       responses
Nothing happened to the employee under investigation as a result
                                                                                   12
of the investigation.
Individuals with relevant information were not interviewed during
                                                                                   10
the investigation.
Investigators would not consider other issues that were relevant to
                                                                                     9
the investigation.
Investigations were incomplete.                                                      6
Investigations take too long.                                                        5
Investigations expanded to consider issues that were not relevant to
                                                                                     5
the investigation.
Employees are investigated for behavior that should not be
                                                                                     4
considered misconduct.
Employees are investigated for allegations that prove to be
                                                                                     3
unfounded.
Investigations show favoritism toward some employees.                                2
Investigator not sufficiently independent from employee being
                                                                                     2
investigated.
N = 73
Number of responses adds to more than 73 because some responses fit into more than
1 category.


20.    In imposing discipline, do you believe the FBI appropriately
       considers the following factors? (Select one for each row in the table.)

                        An employee’s past disciplinary history
                                            Number of responses Percentage
           Gives too little consideration                       77     11%
           Gives proper consideration                         194      27%
           Gives too much consideration                         10     1%
           Don’t know                                         440      61%
           N = 721

      Past discipline imposed against other individuals for similar misconduct
                                            Number of responses Percentage
           Gives too little consideration                       64     9%
           Gives proper consideration                         178      25%
           Gives too much consideration                         17     2%
           Don’t know                                         460      64%
           N = 719



U.S. Department of Justice                                                       126
Office of the Inspector General
Evaluation and Inspections Division
                 An employee’s job level and type of employment,
                        including prominence of position
                                            Number of responses Percentage
           Gives too little consideration                   31         4%
           Gives proper consideration                      141        20%
           Gives too much consideration                    152        21%
           Don’t know                                      395        55%
           N = 719

                 An employee’s tenure and overall job performance
                                            Number of responses Percentage
           Gives too little consideration                  104        15%
           Gives proper consideration                      163        23%
           Gives too much consideration                     21         3%
           Don’t know                                      429        60%
           N = 717
           Percentages do not add to 100 because of rounding.

     Notoriety of the offense or its impact upon the reputation of the agency
                                            Number of responses Percentage
           Gives too little consideration                   33         5%
           Gives proper consideration                      192        27%
           Gives too much consideration                     71        10%
           Don’t know                                      422        59%
           N = 718
           Percentages do not add to 100 because of rounding.

   Nature and seriousness of the offense, and its relationship to an employee’s
duties, including whether the offense was intentional or technical or inadvertent,
      or was committed maliciously or for gain, or was frequently repeated
                                            Number of responses Percentage
           Gives too little consideration                   86        12%
           Gives proper consideration                      212        30%
           Gives too much consideration                       6        1%
           Don’t know                                      407        57%
           N = 711




U.S. Department of Justice                                                      127
Office of the Inspector General
Evaluation and Inspections Division
 Mitigating circumstances surrounding the offense, such as unusual job tensions,
  personality problems, mental impairment, harassment, or bad faith, malice or
             provocation on the part of others involved in the matter
                                                 Number of
                                                 responses Percentage
                Gives too little consideration           105       15%
                Gives proper consideration               164       23%
                Gives too much consideration              11         2%
                Don’t know                               435       61%
                N = 715
                Percentages do not add to 100 because of rounding.


21.      Do you believe that the discipline the FBI imposes is generally
         appropriate, is generally too harsh, or is generally too lenient?
         (Select one.)
                                 Number of responses       Percentage
                  Too lenient                        53            7%
                  Appropriate                       262          36%
                  Too harsh                          82          11%
                  Don’t know                        323          45%
                  N = 720
                  Percentages do not add to 100 because of rounding.

22.      (IF “TOO HARSH” OR “TOO LENIENT” TO 21) Why do you believe
         the discipline imposed is not generally appropriate? (Select all that
         apply.)
                                                               Number of
                                                               responses        Percentage
The Table of Penalties does not contain an appropriate
                                                                           23         12%
range of penalties for various types of misconduct.
Mitigating circumstances are not always appropriately
                                                                           61         33%
considered.
Aggravating circumstances are not always appropriately
                                                                           30         16%
considered.
Employees seem to receive very harsh penalties for minor
                                                                           78         42%
misconduct.
Employees seem to receive very lenient penalties for major
                                                                           67         36%
misconduct.
Other.                                                                     62         33%
N = 186
Respondents could select more than one response.




U.S. Department of Justice                                                            128
Office of the Inspector General
Evaluation and Inspections Division
23.    (IF “TOO HARSH” OR “TOO LENIENT” TO 21) Please explain your
       response to Question 22 in more detail.
       Sixty-nine respondents provided answers in their own words. The OIG
       categorized information within their answers as follows:

                                                                      Number of
                                                                      responses
       There is a double standard of discipline.                                 35
       The discipline imposed is unreasonable for the
                                                                                 18
       misconduct that was committed.
       The discipline imposed is inconsistent from case to case.                 16
       Employees are allowed to retire rather than be
                                                                                  4
       disciplined.
       The disciplinary process takes too long.                                   2
       The FBI is afraid of being sued.                                           2
       The FBI doesn’t impose discipline that is in line with past
                                                                                  2
       precedent.
       N = 69
       Number of responses adds to more than 69 because some responses fit
       into more than 1 category.


24.    Do you believe that the discipline imposed following an appeal
       through the FBI’s internal appeals process is generally appropriate,
       is generally too harsh, or is generally too lenient? (Select one.)
                                 Number of responses         Percentage
                  Too lenient                           21           3%
                  Appropriate                        125             18%
                  Too harsh                             26           4%
                  Don’t know                         543             76%
                  N = 715
                  Percentages do not add to 100 because of rounding.


25.    (IF “TOO HARSH” OR “TOO LENIENT” TO 24) Why do you believe
       the discipline imposed is not generally appropriate? (Select all that
       apply.)
                                                                Number of
                                                                responses       Percentage
The Table of Penalties does not contain an appropriate
                                                                           11         10%
range of penalties for various types of misconduct.
Mitigating circumstances are not always appropriately
                                                                           27         24%
considered.




U.S. Department of Justice                                                            129
Office of the Inspector General
Evaluation and Inspections Division
                                                             Number of
                                                             responses       Percentage
Aggravating circumstances are not always appropriately
                                                                     12            10%
considered.
Employees seem to receive very harsh penalties for minor
                                                                     31            27%
misconduct.
Employees seem to receive very lenient penalties for major
                                                                     22            19%
misconduct.
OPR imposes appropriate discipline, but the appeals
                                                                     11            10%
process changes it to discipline that is too lenient.
OPR imposes discipline that is too harsh, but the appeals
                                                                         6           5%
process changes it to discipline that is too lenient.
Other.                                                               62            54%
N = 115
Respondents could select more than one response.

26.      (IF “TOO HARSH” OR “TOO LENIENT” TO 24) Please explain your
         response to Question 25 in more detail.
         Thirty-two respondents provided answers in their own words. The OIG
         categorized information within their answers as follows:

                                                                         Number of
                                                                         Responses
The discipline imposed is inconsistent from case to case.                             7
There is a double standard of discipline.                                             7
The appeals process is a rubber stamp of what FBI OPR already
                                                                                      6
decided.
FBI OPR imposed discipline that was too harsh, but the appeal
                                                                                      4
reduced it to a level that was appropriate.
FBI OPR imposed discipline that was appropriate, but the appeal
                                                                                      4
reduced it to a level that was too lenient
The discipline imposed is unreasonable for the misconduct that was
                                                                                      3
committed.
The FBI is afraid of being sued.                                                      2
The FBI does not apply the correct standard of review during the
                                                                                      1
appellate process.
N = 32
Number of responses adds to more than 32 because some responses fit into more than
1 category.




U.S. Department of Justice                                                         130
Office of the Inspector General
Evaluation and Inspections Division
27.    Please indicate how much you agree or disagree with the following
       statement: There is a double standard of discipline for higher-
       ranking versus lower-ranking FBI employees. (Select one.)
                                     Number of responses Percentage
                 Strongly Agree                       111         16%
                 Agree                                128         18%
                 Neutral                              118         17%
                 Disagree                               50         7%
                 Strongly Disagree                      29         4%
                 Don’t know                           281         39%
                 N = 717
                 Percentages do not add to 100 because of rounding.

28.    Please explain in more detail why you agree or disagree with the
       statement in Question 27.
       One hundred ninety-nine respondents provided answers in their own
       words. The OIG categorized information within their answers as follows:

                                                                        Number of
                                                                        responses
Higher-ranking employees are disciplined more leniently than
                                                                                    116
lower-ranking employees.
There is not a double standard of discipline.                                        36
Special Agents are disciplined more leniently than non-agent
                                                                                     27
personnel.
Employees are allowed to retire rather than be disciplined.                          20
Lower-ranking employees are disciplined more leniently than
                                                                                     12
higher-ranking employees.
Lower-ranking employees fear retaliation.                                             6
Misconduct by higher-ranking employees isn’t always reported.                         6
There is a double standard of discipline based on an employee’s
                                                                                      5
race.
The disciplinary process shows favoritism toward some employees.                      3
There is a double standard of discipline based on an employee’s
                                                                                      1
gender.
Non-agent personnel are disciplined more leniently than Special
                                                                                      1
Agents.
N = 199
Number of responses adds to more than 199 because some responses fit into more than
1 category.




U.S. Department of Justice                                                      131
Office of the Inspector General
Evaluation and Inspections Division
29.    Please indicate how much you agree or disagree with each of the
       following statements: Disciplinary decisions should be influenced
       by . . . (Select one for each row in the table.)

                             An employee’s grade level
                                    Number of responses Percentage
                Strongly Agree                       12          2%
                Agree                                77         11%
                Neutral                              78         11%
                Disagree                            274         38%
                Strongly Disagree                   213         30%
                Don’t know                           65          9%
                N = 719
                Percentages do not add to 100 because of rounding.

          An employee’s job series (e.g., Special Agent, Analyst, Clerical)
                                    Number of responses Percentage
                Strongly Agree                       12          2%
                Agree                                73         10%
                Neutral                              77         11%
                Disagree                            278         39%
                Strongly Disagree                   215         30%
                Don’t know                           64          9%
                N = 719
                Percentages do not add to 100 because of rounding.

              Whether an employee is perceived as a “whistleblower”
                                    Number of responses Percentage
                Strongly Agree                       15          2%
                Agree                                45          6%
                Neutral                              89         12%
                Disagree                            254         35%
                Strongly Disagree                   234         33%
                Don’t know                           81         11%
                N = 718
                Percentages do not add to 100 because of rounding.

                                 An employee’s gender
                                    Number of responses Percentage
                Strongly Agree                          0        0%


U.S. Department of Justice                                                    132
Office of the Inspector General
Evaluation and Inspections Division
                                    Number of responses Percentage
                Agree                                 5         1%
                Neutral                               55        8%
                Disagree                           260         36%
                Strongly Disagree                  342         48%
                Don’t know                            56        8%
                N = 718
                Percentages do not add to 100 because of rounding.

                                 An employee’s race
                                    Number of responses Percentage
                Strongly Agree                        2         0%
                Agree                                 5         1%
                Neutral                               51        7%
                Disagree                           251         35%
                Strongly Disagree                  351         49%
                Don’t know                            56        8%
                N = 716

                        An employee’s geographical location
                                    Number of responses Percentage
                Strongly Agree                        0         0%
                Agree                                 7         1%
                Neutral                               63        9%
                Disagree                           279         39%
                Strongly Disagree                  303         42%
                Don’t know                            63        9%
                N = 715


30.    If any other factors were not mentioned above that you believe
       causes some employees to be disciplined differently, please describe
       them briefly.
       Sixty-two respondents provided answers in their own words. The OIG
       categorized information within their answers as follows:

                                                                Number of
                                                                responses
      No factor should influence discipline.                            16
      Who an employee knows.                                            15



U.S. Department of Justice                                                   133
Office of the Inspector General
Evaluation and Inspections Division
                                                                  Number of
                                                                  responses
      An employee’s tenure, including whether an employee is
                                                                            10
      nearing retirement.
      An employee’s past disciplinary history.                                6
      An employee’s disability status.                                        4
      An employee’s age.                                                      3
      The FBI is afraid of being sued.                                        3
      Politics.                                                               3
      Publicity of misconduct.                                                2
      Prior military or law enforcement experience.                           2
      An employee’s religion                                                  1
      N = 62
      Number of responses adds to more than 62 because some responses fit
      into more than 1 category.


31.    If you answered “Disagree” or “Strongly Disagree” to any of the
       questions in the table in Question 29, why do you believe that some
       employees are disciplined differently? If you can provide specific
       information regarding a case in which you believe an employee received
       different discipline as a result of any factor in the table above, please do
       so in the space below.

       One hundred twenty respondents provided answers in their own words.
       The OIG categorized information within their answers as follows:

                                                                  Number of
                                                                  responses
      No factor should influence discipline.                                71
      Higher-ranking employees are disciplined more leniently
                                                                            17
      than low-ranking employees.
      The disciplinary process shows favoritism toward some
                                                                            15
      employees.
      There is a double standard of discipline based on an
                                                                            13
      employee’s race.
      There is a double standard of discipline based on an
                                                                              6
      employee’s gender.
      Low-ranking employees are disciplined more leniently than
                                                                              3
      high-ranking employees.
      Employees fear retaliation for reporting misconduct.                    2




U.S. Department of Justice                                                        134
Office of the Inspector General
Evaluation and Inspections Division
                                                                    Number of
                                                                    responses
       There is a double standard based on whether the employee
                                                                            1
       who reports misconduct is considered a whistleblower.
       N = 120

32.    If you have been the subject of a misconduct investigation, were you
       treated fairly and objectively in the following situations? If you have
       never been the subject of a misconduct investigation, please skip to
       Question 34. (Select one for each row in the table.)

                     As the subject of a misconduct investigation
                                                  Number of responses Percentage
  I was treated fairly and objectively                              34          51%
  I do not have an opinion one way or the other                      9          13%
  I was not treated fairly and objectively                          24          36%
  N = 67


                                                             Number of
                                                             responses
             Not applicable.                                         465

            When OPR was deciding whether to discipline me following
                         a misconduct investigation
                                                  Number of responses Percentage
  I was treated fairly and objectively                              29          45%
  I do not have an opinion one way or the other                     12          19%
  I was not treated fairly and objectively                          23          36%
  N = 64


                                                             Number of
                                                             responses
             Not applicable.                                         431

                   When I used the FBI’s internal appeals process
                   to appeal a disciplinary decision made by OPR
                                                  Number of responses Percentage
  I was treated fairly and objectively                               2          18%
  I do not have an opinion one way or the other                      3          27%
  I was not treated fairly and objectively                           6          55%
  N = 11


U.S. Department of Justice                                                       135
Office of the Inspector General
Evaluation and Inspections Division
                                                                  Number of
                                                                  responses
             Not applicable.                                             485


33.    Please explain why you do or do not believe you were treated fairly
       and objectively as the subject of a misconduct investigation, when
       OPR was deciding whether to discipline you following a misconduct
       investigation, or when you used the FBI’s internal appeals process
       to appeal a disciplinary decision made by OPR.
       Fifty respondents provided answers in their own words. The OIG
       categorized information within their answers as follows:

                                                                           Number of
                                                                           responses
   Reasons why respondents believed they had not been treated fairly.             35
   Reasons why respondents believed they had been treated fairly.                 15
   N = 50

34.    Based on your time working in the FBI, do you believe you would be
       treated fairly and objectively in the following situations? (Select one
       for each row in the table.)

                If I became the subject of a misconduct investigation
                                                          Number of responses Percentage
I believe I would be treated fairly and objectively                      291        41%
I do not have an opinion one way or the other                            313        44%
I believe I would not be treated fairly and objectively                  108        15%
N = 712

                    If OPR was deciding whether to discipline me
                        following a misconduct investigation
                                                          Number of responses Percentage
I believe I would be treated fairly and objectively                      287        41%
I do not have an opinion one way or the other                            318        45%
I believe I would not be treated fairly and objectively                  102        14%
N = 707

                    If I used the FBI’s internal appeals process to
                     appeal a disciplinary decision made by OPR
                                                          Number of responses Percentage
I believe I would be treated fairly and objectively                      271        38%


U.S. Department of Justice                                                          136
Office of the Inspector General
Evaluation and Inspections Division
                                                          Number of responses Percentage
I do not have an opinion one way or the other                             358       51%
I believe I would not be treated fairly and objectively                    80       11%
N = 709

35.    Please explain why you do or do not believe you would be treated
       fairly and objectively if you were the subject of a misconduct
       investigation, if OPR was deciding whether to discipline you
       following a misconduct investigation, or if you used the FBI’s
       internal appeals process to appeal a disciplinary decision made by
       OPR.
       Two hundred eighteen respondents provided answers in their own words.
       The OIG categorized information within their answers as follows:

                                                                           Number of
                                                                           responses
   Reasons why respondents believed they would be treated fairly.                115
   Reasons why respondents believed they would not be treated fairly.            103
   N = 218

Training and Guidance
This section includes questions about the training you have received regarding
the FBI’s disciplinary process. This section also provides you with an
opportunity to identify any other issues related to the FBI’s disciplinary process
that you believe are significant.

36.    How would you characterize the FBI’s training in the following
       areas? (select one for each row in the table)

                  Types of behavior that are considered misconduct
                                   Number of responses Percentage
                  Sufficient                              339       52%
                  No Opinion                              156       24%
                  Not Sufficient                          162       25%
                  N = 657
                  Percentages do not add to 100 because of rounding.

                       How to report allegations of misconduct
                                   Number of responses Percentage
                  Sufficient                              320       49%
                  No Opinion                              169       26%




U.S. Department of Justice                                                          137
Office of the Inspector General
Evaluation and Inspections Division
                                   Number of responses Percentage
                 Not Sufficient                    168          26%
                 N = 657
                 Percentages do not add to 100 because of rounding.

                    Who to report allegations of misconduct to
                                   Number of responses Percentage
                  Sufficient                      328          50%
                  No Opinion                      162          25%
                  Not Sufficient                  163          25%
                  N = 653

                Time frame for reporting allegations of misconduct
                                   Number of responses Percentage
                  Sufficient                      261          40%
                  No Opinion                      204          31%
                  Not Sufficient                  186          29%
                  N = 651

         How to distinguish between performance issues and misconduct
                                  Number of responses    Percentage
                 Sufficient                       210           33%
                 No Opinion                       204           32%
                 Not Sufficient                   233           36%
                 N = 647
                 Percentages do not add to 100 because of rounding.

          Potential range of discipline for different types of misconduct
                                   Number of responses   Percentage
                 Sufficient                        209          32%
                 No Opinion                        219          34%
                 Not Sufficient                    221          34%
                 N = 649

               Factors that are considered when deciding discipline
                                   Number of responses Percentage
                 Sufficient                        176          27%
                 No Opinion                        218          34%




U.S. Department of Justice                                                  138
Office of the Inspector General
Evaluation and Inspections Division
                                   Number of responses Percentage
                 Not Sufficient                      249          39%
                 N = 643

                   How the FBI’s internal appeals process works
                                   Number of responses Percentage
                 Sufficient                          166          26%
                 No Opinion                          228          35%
                 Not Sufficient                      255          39%
                 N = 649

                             The disciplinary process overall
                                   Number of responses Percentage
                 Sufficient                          197         30%
                 No Opinion                          216         33%
                 Not Sufficient                      235         36%
                 N = 648
                 Percentages do not add to 100 because of rounding.


37.    Were you ever given any written policies that explained which
       divisions, sections, or units within the FBI were responsible for
       different aspects of the disciplinary process?
                              Number of responses Percentage
                        Yes                    285         43%
                        No                     375         57%
                        N = 660


38.    How would you characterize the FBI’s written policies in the
       following areas? (Select one for each row in the table.)

                Types of behavior that are considered misconduct
                                   Number of responses Percentage
                  Sufficient                         277         42%
                  No Opinion                         269         41%
                  Not Sufficient                     113         17%
                  N = 659

                      How to report allegations of misconduct
                                   Number of responses Percentage
                  Sufficient                         278         42%


U.S. Department of Justice                                                 139
Office of the Inspector General
Evaluation and Inspections Division
                                   Number of responses Percentage
                  No Opinion                      268        41%
                  Not Sufficient                  114        17%
                  N = 660

                    Who to report allegations of misconduct to
                                   Number of responses Percentage
                  Sufficient                      283        43%
                  No Opinion                      263        40%
                  Not Sufficient                  110        17%
                  N = 656

                Time frame for reporting allegations of misconduct
                                   Number of responses Percentage
                  Sufficient                      232        36%
                  No Opinion                      294        45%
                  Not Sufficient                  127        19%
                  N = 653

         How to distinguish between performance issues and misconduct
                                   Number of responses Percentage
                  Sufficient                      185        28%
                  No Opinion                      301        46%
                  Not Sufficient                  166        26%
                  N = 652

          Potential range of discipline for different types of misconduct
                                   Number of responses Percentage
                  Sufficient                      212        33%
                  No Opinion                      299        46%
                  Not Sufficient                  139        21%
                  N = 650

               Factors that are considered when deciding discipline
                                   Number of responses Percentage
                  Sufficient                      184        28%
                  No Opinion                      306        47%




U.S. Department of Justice                                                  140
Office of the Inspector General
Evaluation and Inspections Division
                                   Number of responses Percentage
                  Not Sufficient                   166        25%
                  N = 656

                   How the FBI’s internal appeals process works
                                   Number of responses Percentage
                  Sufficient                       170        26%
                  No Opinion                       314        49%
                  Not Sufficient                   163        25%
                  N = 647

                          The disciplinary process overall
                                   Number of responses Percentage
                  Sufficient                       204        31%
                  No Opinion                       303        46%
                  Not Sufficient                   148        23%
                  N = 655

39.    (IF YOU ANSWERED “NOT SUFFICIENT” TO ANY ITEM IN 36 or 38)
       What changes would you recommend to improve the training or
       written policies FBI employees receive? (Select all that apply.)
                                                           Number of
                                                           responses      Percentage
Include additional training during new employee
                                                                    166          51%
orientation
Include additional training for supervisors on how to
                                                                    194          59%
differentiate between misconduct and performance
Include additional information during annual training               201          62%
Provide more frequent training on the guidance                      131          40%
Improve existing written policies and guidance                      115          35%
Make written policies and guidance more easily available            211          65%
N = 327
Respondents could select more than one response.

40.    How beneficial do you find the disciplinary summaries that are
       included in the OPR Quarterly Reports? (Select one.)
                                             Number of responses Percentage
      Very Beneficial                                         276          41%
      Somewhat Beneficial                                     238          35%
      Neutral                                                  91          13%


U.S. Department of Justice                                                       141
Office of the Inspector General
Evaluation and Inspections Division
                                               Number of responses Percentage
      Not Too Beneficial                                          15        2%
      Not At All Beneficial                                       14        2%
      I don’t read the OPR Quarterly Reports                      46        7%
      N = 680


41.    Please explain why you do or do not believe the OPR Quarterly
       Reports are beneficial.
       One hundred fifty-seven respondents provided answers in their own
       words. The OIG categorized information within their answers as follows:

                                                                       Number of
                                                                       responses
   The OPR Quarterly Reports serve as a deterrent because
                                                                              101
   employees learn what they should not do.
   The OPR Quarterly Reports are entertaining to read.                           21
   The information in the OPR Quarterly Reports is not
                                                                                 21
   comprehensive enough.
   The OPR Quarterly Reports show that the penalties are
                                                                                 16
   inconsistent from case to case.
   The OPR Quarterly Reports show cases where the punishment is
                                                                                   8
   unreasonable for the misconduct.
   The OPR Quarterly Reports show that the disciplinary process
                                                                                   2
   takes too long.
   The OPR Quarterly Reports illustrate the difference between
                                                                                   1
   performance issues and misconduct.
   The OPR Quarterly Reports show that the penalties are
                                                                                   1
   consistent from case to case.
   N = 157
   Number of responses adds to more than 157 because some responses fit into
   more than 1 category.

42.    Please provide any additional comments or opinions you believe
       would aid or improve our review of the FBI’s disciplinary process. If
       you would like to expand on any of your responses to earlier questions,
       please include the question number in your comment.

       One hundred respondents provided answers in their own words. The
       OIG categorized information within their answers as follows:

                                                                       Number of
                                                                       responses
   Provide more training                                                         36


U.S. Department of Justice                                                         142
Office of the Inspector General
Evaluation and Inspections Division
                                                                         Number of
                                                                         responses
   Other assorted suggestions                                                    25
   Compliments for the FBI                                                           8
   Needs to be more timely                                                           7
   Make existing policies more easily available                                      6
   Reevaluate levels of discipline imposed for various misconduct                    5
   Concerns about differentiating between performance issues and
                                                                                     4
   misconduct
   Eliminate the double standard between higher-ranking and
                                                                                     4
   lower-ranking employees
   Misconduct investigations should be performed by a neutral
                                                                                     3
   entity
   The process is unreasonable                                                       3
   The process is inconsistent                                                       3
   The process needs to be more confidential                                         2
   Concerns with following the chain of command in misconduct
                                                                                     2
   situations
   Eliminate the double standard between Special Agents and non-
                                                                                     2
   agent personnel
   Inform the victim of the final result of a misconduct investigation               2
   Process can never be made completely fair                                         1
   N = 100
   Number of responses adds to more than 100 because some responses fit into
   more than 1 category.




U.S. Department of Justice                                                           143
Office of the Inspector General
Evaluation and Inspections Division
                     APPENDIX II: DOUGLAS FACTORS


In Douglas v. Veterans Administration (1981), the Merit Systems
Protection Board identified 12 relevant factors that agency management
needs to consider and weigh in deciding an appropriate disciplinary
penalty. The 12 Douglas Factors are:

       1.   The nature and seriousness of the offense and its
            relation to the employee’s duties, position, and
            responsibilities, including whether the offense was
            intentional or technical or inadvertent, or was
            committed maliciously or for gain, or was frequently
            repeated;

       2.   The employee’s job level and type of employment,
            including supervisory or fiduciary role, contacts with the
            public, and prominence of the position;

       3.   The employee’s past disciplinary record;

       4.   The employee’s past work record, including length of
            service, performance on the job, ability to get along with
            fellow workers, and dependability;

       5.   The effect of the offense upon the employee’s ability to
            perform at a satisfactory level and its effect upon
            supervisors’ confidence in the employee’s ability to
            perform assigned duties;

       6.   Consistency of the penalty with those imposed upon
            other employees for the same or similar offenses;

       7.   Consistency of the penalty with the applicable agency
            table of penalties (which are not to be applied
            mechanically so that other factors are ignored);

       8.   The notoriety of the offense or its impact upon the
            reputation of the agency;

       9.   The clarity with which the employee was on notice of
            any rules that were violated in committing the offense,
            or had been warned about the conduct in question;



U.S. Department of Justice                                               144
Office of the Inspector General
Evaluation and Inspections Division
       10. The potential for employee’s rehabilitation;

       11. Mitigating circumstances surrounding the offense, such
           as unusual job tensions, personality problems, mental
           impairment, harassment, or bad faith, malice or
           provocation on the part of others involved in the matter;
           and

       12. The adequacy and effectiveness of alternative sanctions
           to deter such conduct in the future by the employee or
           others.




U.S. Department of Justice                                             145
Office of the Inspector General
Evaluation and Inspections Division
 APPENDIX III: CONFIDENCE INTERVALS FOR EMPLOYEE SURVEY


      As mentioned in the “Purpose, Scope, and Methodology” section,
we surveyed a stratified sample of 1,449 FBI employees out of a
population of approximately 30,300. Fifty-six percent (818 of 1,449)
responded. In our “Results of the Review” section, we cite
the percentages of employees having certain opinions; their 95%
confidence intervals are presented below. 117

 Table 3: Responses to Survey Question: “Please indicate how much you
agree or disagree with the following statement: Misconduct investigations
            adequately address the relevant issues.” (page 50)
                              Percentage              95% Confidence Interval
         Agree                 22.98%                     19.83% - 26.13%
        Neutral                19.22%                     15.99% - 22.45%
       Disagree                13.23%                     10.52% - 15.94%
      Don’t Know               44.57%                     40.52% - 48.61%


    Table 5: Responses to Survey Question: “Do you believe that the
   discipline the FBI imposes is generally appropriate, is generally too
              harsh, or is generally too lenient?” (pp. 53-54)
                                        Percentage          95% Confidence Interval
  Penalties are too lenient                7.36%                   5.20% - 9.52%
  Penalties are appropriate                36.39%                32.56% - 40.22%
  Penalties are too harsh                  11.39%                8.95% - 13.82%
  Don’t Know                               44.86%                40.74% - 48.98%




        117 We could not calculate confidence intervals for all survey results in this report

for three reasons. First, confidence intervals cannot be calculated for questions that are
not asked of everyone who takes the survey. In this survey, for example, we only asked
respondents how often they reported misconduct if their answer to a previous question
indicated they had observed misconduct. Second, confidence intervals cannot be
calculated for questions in which the respondents are allowed to identify more than one
response. For example, respondents were allowed to identify more than one reason why
they might not report misconduct. Third, confidence intervals cannot be calculated when
the survey was sent to more than half of a subgroup’s population. In this survey, for
example, we included more than half of the FBI’s SES employees in our stratified sample.



U.S. Department of Justice                                                            146
Office of the Inspector General
Evaluation and Inspections Division
   Figure 7: FBI Employees’ Perception of a Double Standard (pp. 77-78)
                                                Percentage   95% Confidence Interval
There is a double standard of discipline for
higher- and lower-ranking employees
                                                  33.33%        29.39% - 37.27%
(employees who answered “strongly agree”
or “agree”)
There is not a double standard of discipline
for higher- and lower-ranking employees
                                                  11.02%         9.28% - 12.75%
(employees who answered “strongly
disagree” or “disagree”)
Neutral opinion regarding whether there is
a double standard of discipline for higher-       16.46%        13.48% - 19.44%
and lower-ranking employees
Employees who do not know whether there
is a double standard of discipline for            39.19%        35.09% - 43.30%
higher- and lower-ranking employees
Among employees who had an opinion,
those who agreed that there is a double
                                                  54.82%        49.46% - 60.17%
standard of discipline for higher- and lower-
ranking employees
Employees who strongly agree that there is
a double standard of discipline for higher-       15.48%        12.42% - 18.54%
and lower-ranking employees
Employees who agree that there is a double
standard of discipline for higher- and lower-     17.85%        14.55% - 21.15%
ranking employees
Employees who disagree that there is a
double standard of discipline for higher-         6.97%          5.47% - 8.48%
and lower-ranking employees
Employees who strongly disagree that there
is a double standard of discipline for            4.04%           3.14% - 4.95%
higher- and lower-ranking employees

Figure 8: FBI Employees’ Perception of a Double Standard of Discipline for
       Higher-Ranking versus Lower-Ranking Employees (pp. 78-79)
            Survey statement                    Percentage   95% Confidence Interval
Non-SES employees who believe there is a
double standard of discipline for higher-
and lower-ranking employees (non-SES             36.80%         32.84% - 40.76%
employees who answered “strongly agree” or
“agree”)
Non-SES employees who are neutral as to
whether there was a double standard of
                                                 16.32%         13.33% - 19.31%
discipline for higher-and lower-ranking
employees




U.S. Department of Justice                                                        147
Office of the Inspector General
Evaluation and Inspections Division
             Survey statement                  Percentage     95% Confidence Interval
Non-SES employees who believe there is not
a double standard of discipline for higher-
and lower-ranking employees (non-SES             4.80%             3.06% - 6.54%
employees who answered “strongly
disagree” or “disagree”)
Among non-SES employees who had an
opinion, those who agreed that there is a
                                                63.54%            58.16% - 68.92%
double standard of discipline for higher-
and lower-ranking employees

   Table 8: Responses to Survey Question: Based on your time working
   in the FBI, do you believe you would be treated fairly and objectively
                         in the following situation:
        If I became the subject of a misconduct investigation. (p. 79)
                                              Percentage    95% Confidence Interval
   I believe I would be treated fairly and
                                               40.87%          36.92% - 44.82%
   objectively
   I do not have an opinion one way or
                                               43.96%          39.77% - 48.15%
   the other
   I believe I would not be treated fairly
                                               15.17%          12.07% - 18.27%
   and objectively


               If FBI OPR was deciding whether to discipline me
                  following a misconduct investigation. (p. 80)
                                              Percentage    95% Confidence Interval
   I believe I would be treated fairly and
                                               40.59%          36.60% - 44.59%
   objectively
   I do not have an opinion one way or
                                               44.98%          40.76% - 49.20%
   the other
   I believe I would not be treated fairly
                                               14.43%          11.41% - 17.44%
   and objectively


                If I used the FBI’s internal appeals process to
              appeal a disciplinary decision made by OPR (p. 80)
                                              Percentage    95% Confidence Interval
   I believe I would be treated fairly and
                                               38.22%           34.33% - 42.11%
   objectively
   I do not have an opinion one way or the
                                               50.49%           46.31% - 54.68%
   other
   I believe I would not be treated fairly
                                               11.28%           8.46% - 14.11%
   and objectively




U.S. Department of Justice                                                          148
Office of the Inspector General
Evaluation and Inspections Division
                                      Table 9: FBI Employees’ Perceptions of Whether the FBI Appropriately Considered Various Factors When
Evaluation and Inspections Division
Office of the Inspector General
U.S. Department of Justice




                                                                         Choosing Discipline (pp. 82-83)
                                                                                                                    Percentage
                                                                                                               (Confidence Interval)
                                                                                The FBI gives too     The FBI gives proper    The FBI gives too
                                                                                                                                                    Don’t Know
                                                                               little consideration      consideration       much consideration
                                      An employee’s past disciplinary                10.68%                 26.91%                  1.39%              61.03%
                                      history                                   (8.11% - 13.25%)       (23.61% - 30.21%)       (0.29% - 2.48%)    (57.20% - 64.85%)
                                      Past discipline imposed against
                                                                                     8.90%                  24.76%                  2.36%              63.98%
                                      other individuals for similar
                                                                                (6.61% - 11.19%)       (21.63% - 27.88%)       (1.22% - 3.51%)    (60.28% - 67.67%)
                                      misconduct
                                      An employee’s job level and type of
                                                                                      4.31%                 19.61%                 21.14%              54.94%
                                      employment, including prominence
                                                                                 (2.61% - 6.02%)       (16.78% - 22.45%)      (17.77% - 24.51%)   (50.89% - 58.99%)
                                      of position
                                      An employee’s tenure and overall job          14.50%                  22.73%                  2.93%              59.83%
                                      performance                              (11.67% - 17.34%)       (19.65% - 25.81%)       (1.48% - 4.38%)    (55.96% - 63.71%)
                                      Notoriety of the offense or its impact          4.60%                 26.74%                 9.89%               58.77%
                                      upon the reputation of the agency          (2.85% - 6.35%)       (23.52% - 29.97%)      (7.34% - 12.43%)    (54.91% - 62.64%)
                                      Nature and seriousness of the
                                      offense, and its relationship to an
                                      employee’s duties, including
                                                                                     12.10%                 29.82%                  0.84%              57.24%
                                      whether the offense was intentional
                                      or technical or inadvertent, or was
                                                                                (9.32% - 14.87%)       (26.41% - 33.22%)       (0.04% - 1.65%)    (53.31% - 61.18%)
                                      committed maliciously or for gain, or
                                      was frequently repeated
                                      Mitigating circumstances
                                      surrounding the offense, such as
                                      unusual job tensions, personality
                                                                                    14.69%                  22.94%                  1.54%              60.84%
                                      problems, mental impairment,
                                                                               (11.85% - 17.52%)       (19.79% - 26.09%)       (0.50% - 2.57%)    (56.97% - 64.71%)
                                      harassment, or bad faith, malice or
                                      provocation on the part of others
                                      involved in the matter
                      149
                        APPENDIX IV: FBI RESPONSE



                                         U.S. Department of Justice
                                         Federal Bureau of Investigation

                                         Washington, D. C. 20535-0001
                                         May 1, 2009


Honorable Glenn A. Fine
Office of the Inspector General
U.S. Department of
Justice 950 Pennsylvania
Avenue, NW Washington,
D.C. 20530

Dear Mr. Fine:

      The Federal Bureau of Investigation (FBI) appreciates the
opportunity to review and respond to your report entitled, "A Review of
the Federal Bureau of Investigation's Disciplinary System" (hereinafter,
"Report").

      The Report documents the consistency, reasonableness, and
timeliness of the FBI's disciplinary system. As the Report notes to the
FBI's credit, the timeliness of all phases of the FBI's disciplinary process
improved since Fiscal Year 2005, and the FBI's misconduct
investigations were generally thorough, conducted in a consistent
manner, and well documented in investigative reports. Likewise, the
Report found most penalty and appellate decisions reviewed were
reasonable.

       Consistent with the Report's findings that most disciplinary
investigations and the Office of Professional Responsibility (OPR) penalty
decisions are reasonable, the Report's survey response shows that only
11 % to 15% of the FBI's workforce believed they would not be treated
fairly and objectively if they were subject to the disciplinary process. We
are heartened to learn that so few of our employees have concerns about
the process. We commend OPR and the Inspections Division for their
work.

       We have made great strides in the disciplinary process over the


U.S. Department of Justice                                               150
Office of the Inspector General
Evaluation and Inspections Division
years and we remain committed to making the FBI's disciplinary process
completely fair for all employees in all cases. In that regard, the Report
finds that the investigations and penalty decisions for Senior Executive
Service (SES) employees were reasonable and notes that during the
more than three year period examined in the audit, there were only six
SES appeals. While your report disagrees with the ultimate outcome in
three of the six SES cases, we note that: 1) the appeals process has
been changed; and 2) so few cases present an insufficient sample to
draw conclusions regarding the overall fairness of the process.

      In conclusion, based upon a review of the Report, the FBI concurs
with all 16 recommendations directed to the FBI and has already
implemented measures to resolve many of the identified issues. The FBI
appreciates the professionalism exhibited by your staff in working jointly
with our representatives to complete this audit. Enclosed herein is the
FBI's response to the report. Please feel free to contact me should you
have any questions.

                                           Sincerely yours,


                                           John S. Pistole
                                           Deputy Director

Enclosure




U.S. Department of Justice                                             151
Office of the Inspector General
Evaluation and Inspections Division
RE: REVIEW OF THE FEDERAL BUREAU OF INVESTIGATION'S
     DISCIPLINARY SYSTEM

Recommendation 1: "Remind all employees on an annual basis that all
allegations of misconduct must be promptly reported to the FBI Internal
Investigations Section or to the OIG."

FBI Response: RESOLVED - The Federal Bureau of Investigation (FBI)
concurs with this recommendation. Language will be inserted in all
future Office of Professional Responsibility (OPR) Quarterly All Employee
E-Mails to remind all employees to promptly report allegations of
misconduct to the FBI Internal Investigations Section (IIS) or the
Department of Justice (DOJ) Office of the Inspector General (OIG).

Recommendation 2: "Stress to field and headquarters divisions
that they must forward all allegations of potential misconduct they
receive to the Internal Investigations Section."

FBI Response: RESOLVED - The FBI concurs with this
recommendation. The FBI will remind field and headquarters divisions
of their duty to forward all allegations of potential misconduct to the
FBI's IIS by including such a reminder in OPR's Quarterly All Employee
E-Mails.

Recommendation 3: "Consider automating the allegation-reporting
process so that allegations can be reviewed by the OIG electronically
instead of in hard copy."

FBI Response: RESOLVED - The FBI concurs with this
recommendation. The FBI will consider the effectiveness of automating
the allegation-reporting process. Additionally, it remains the FBI's
practice that upon receipt of each allegation, a summary is entered into
the FBI's Case Management System (CMS) for electronic viewing by the
DOJ/OIG. DOJ/OIG representative with access to CMS have the ability
to view these summaries online at their discretion.

Recommendation 4: "Ensure that Internal Investigations Section
personnel enter information regarding the OIG's review into FBI's Case
Management System."

FBI Response: RESOLVED - The FBI concurs with this
recommendation. The FBI will ensure that information regarding the
OIG's review has been entered into CMS. The FBI will also upgrade the
CMS program to build in a report mechanism which can query for any
case(s) pending over 30 days which lacks information confirming the

U.S. Department of Justice                                              152
Office of the Inspector General
Evaluation and Inspections Division
OIG has reviewed the allegation.

Recommendation 5: "Require field and headquarters divisions to
specify, when forwarding allegations to the Internal Investigations
Section, the date they became aware of the potential misconduct. "

FBI Response: RESOLVED - The FBI concurs with this
recommendation. The FBI will instruct both field and headquarters
divisions to specify the date on which they became aware of potential
misconduct. To accomplish this, the FBI will issue an All Office EC
instructing that this information be provided. In addition, the FBI will
include such a reminder in OPR's Quarterly All Employee E-Mails.

Recommendation 6: "Modify the FBI's Case Management System so
that users can track the date that divisions become aware of potential
misconduct."

FBI Response: RESOLVED - The FBI concurs with this
recommendation. The CMS has been modified to include a field for entry
of the date when the reporting entity first became aware of the potential
misconduct. Based upon the foregoing, this recommendation can be
closed.

Recommendation 7: "Require FBI OPR to document its
consideration of precedent when a mitigated or aggravated penalty is
imposed."

FBI Response: RESOLVED - The FBI concurs with this
recommendation. FBI OPR will document its consideration of
precedent in all cases, even those in which a standard penalty is
imposed. OPR already serializes relevant cases from the precedent
database into the Bureau's official disciplinary file for the AD's
consideration. In the future, OPR will document, under Douglas Factor
#6 of the addendum, its already thorough consideration of precedent
in all substantiated cases.

Recommendation 8: "Require field and headquarters divisions to
submit a Douglas Factors assessment in misconduct cases, except in
unsubstantiated Delegated Investigation and Adjudication cases."

FBI Response: RESOLVED - The FBI concurs with this
recommendation. The FBI will require field and headquarters divisions
to submit a Douglas Factors assessment in misconduct cases, except
in unsubstantiated Delegated Investigation and Adjudication cases.


U.S. Department of Justice                                                 153
Office of the Inspector General
Evaluation and Inspections Division
Recommendation 9: "Clarify in policy that FBI OPR and appellate
officials should not seek or consider unwritten information when making
disciplinary decisions."

FBI Response: RESOLVED - The FBI concurs with this
recommendation. The FBI will clarify in policy that FBI OPR and
appellate officials should not seek or consider unwritten information
when making disciplinary decisions. This policy is in keeping with
current practice whereby anyone who wishes his/her views to be
considered is required to submit them in writing for serializing into the
Bureau's official disciplinary file (e.g., character references). Also in
keeping with current practice, communications relating to matters other
than disciplinary decision-making (e.g., responding to inquiries about
process), are not serialized into the Bureau's official disciplinary files.

Recommendation 10: "Consider changing the adjudicative process to
ensure that the proposing and deciding officials within FBI OPR are
separate."

FBI Response: RESOLVED - The FBI concurs with this
recommendation. The FBI will evaluate changing the adjudicative
process to ensure that the proposing and deciding officials within FBI
OPR are separate.

Recommendation 11: "Clarify FBI policies on the appellate officials'
authority to modify findings of fact and penalties to resolve different
interpretations of the policies by FBI OPR and appellate officials."

FBI Response: RESOLVED - The FBI concurs with this
recommendation. The FBI will issue a policy clarification document to
clarify that the Substantial Evidence Standard is the only appellate
standard of review used in the FBI's internal appellate process. The
policy clarification will emphasize that all aspects of the appellate review
of OPR's decisions, including the appellate review of OPR's underlying
findings of misconduct, as well as the sanctions assessed by OPR, will be
reviewed using the Substantial Evidence Standard.

Recommendation 12: "Consider appointing a permanent appeals
decision maker or board, rather than an appeals board composed of
employees who rotate in and out of their board service after six months.
In addition, if the permanent appellate decision-maker is a board rather
than an individual, expand the board membership for SES appeals
beyond only SES employees."

FBI Response: RESOLVED - The FBI concurs with this

U.S. Department of Justice                                                154
Office of the Inspector General
Evaluation and Inspections Division
recommendation. The FBI will begin to utilize one Disciplinary Review
Board (DRB) to analyze both Senior Executive Service (SES) and non-SES
appeals comprised of five voting members; one non-voting mid-level
manager observer; one non-voting observer from the Office of Equal
Employment Opportunity Affairs; and one non-voting observer from the
Office of the General Counsel. Additionally, the FBI's IIS and OPR will
each have the opportunity to delegate a non-voting representative to
observe DRBs should either entity choose to do so.

The five voting members of the DRB will be comprised of the following
individuals: 1) The AD, HRD, as the permanent voting SES chair; two
voting SES employees selected by the Associate Deputy Director (ADD) or
designee; and two voting non-SES mid-level managers selected by the
ADD or designee.

The FBI will increase the term of service for the DRB from the current
six month term to a term of one year to increase DRB members'
experience and expertise. A finite term of one year will allow for
members' promotions, transfers, lateral movements, or separation from
management ranks without unduly disrupting the DRB process. The
FBI will continue to evaluate the ability to create permanent positions
for members of the DRB, given the nature of the FBI's management
ranks where transfers, reassignments, promotions and even separations
from management responsibilities occur with regular frequency.

Policy documentation reflecting these changes will be completed shortly.

Recommendation 13: "Require appellate officials to fully document in
writing the reasons for their decisions, including their consideration of
precedent and mitigating or aggravating factors."

FBI Response: RESOLVED - The FBI concurs with this
recommendation. In conjunction with the policy clarification document
which will be issued for Recommendations #11 and #12, discussed
above, the FBI will reiterate what current FBI policy already requires;
namely, that appellate officials fully document in writing the reasons
for their decisions, including their consideration of precedent and
mitigating or aggravating factors.

Recommendation 14: "In addition to recommendation 12, which
recommends a change in the FBI's appellate process, ensure that FBI
policies are applied consistently to all levels of employees at all stages of
the disciplinary process."

FBI Response: RESOLVED - The FBI concurs with this

U.S. Department of Justice                                                155
Office of the Inspector General
Evaluation and Inspections Division
recommendation. In keeping with current practice, the FBI will continue
to ensure that FBI policies are applied consistently to all levels of
employees at all stages of the disciplinary process.

Recommendation 15: "Conduct a review of the personnel files and
timekeeping records of all employees who were suspended since October
1, 2004, to verify that the suspensions were properly documented, that
the employees served their suspensions, and the employees were not
paid during their suspension periods."

FBI Response: RESOLVED - The FBI concurs with this
recommendation. The FBI agrees to conduct a review of the personnel
files and timekeeping records of all employees who were suspended since
October 1, 2004, to verify that the suspensions were properly
documented, that the employees served their suspensions, and that the
employees were not paid during their suspension periods. In addition,
the FBI will continue this practice hereinafter, to ensure that
suspensions are properly served.

Recommendation 16: "Revise FBI policy to begin suspensions
on the first day of the workweek, as is done by other Department
components."

FBI Response: RESOLVED - The FBI concurs with this
recommendation. A policy document will be issued revising FBI policy
and informing all employees that the FBI will begin suspensions on the
first day of the workweek. This revision will be implemented to ensure
that the FBI, although an excepted service, has a suspension policy
consistent with other Department of Justice components.




U.S. Department of Justice                                          156
Office of the Inspector General
Evaluation and Inspections Division
            APPENDIX V: OIG ANALYSIS OF FBI RESPONSE


      The Office of the Inspector General (OIG) provided a draft of this
report to the Federal Bureau of Investigation (FBI) for its comments. The
FBI’s response is included in Appendix IV of this report. The OIG’s
analysis of the FBI’s response and the actions necessary to close the
recommendations are discussed below.

       Recommendation 1. Remind all employees on an annual basis
       that all allegations of misconduct must be promptly reported
       to the FBI Internal Investigations Section or to the OIG.

       Status. Resolved – open.

      Summary of FBI Response. The FBI concurred with this
recommendation and stated that it would insert language into FBI OPR’s
quarterly e-mails to all employees to remind them to promptly report
allegations of misconduct to the FBI Internal Investigations Section or to
the OIG.

     OIG Analysis. The action planned by the FBI is responsive to our
recommendation. Please provide the OIG with a copy of the first FBI
OPR quarterly e-mail to include this language.

      Recommendation 2. Stress to field and headquarters divisions
that they must forward all allegations of potential misconduct they
receive to the Internal Investigations Section.

       Status. Resolved – open.

       Summary of FBI Response. The FBI concurred with this
recommendation and stated that it would remind field and headquarters
divisions of their duty to forward all allegations of potential misconduct
to the FBI’s Internal Investigations Section by including such a reminder
in FBI OPR’s quarterly e-mails to all employees.

       OIG Analysis. The action planned by the FBI is partially
responsive to our recommendation. We believe it is important for the FBI
to provide this reminder directly to field and headquarters division
officials through an annual electronic communication to all offices, in
addition to including a reminder in the quarterly e-mails distributed to
all employees, since FBI OPR e-mails are not directive in nature and may
not be read by all field and headquarters managers. Please provide the


U.S. Department of Justice                                             157
Office of the Inspector General
Evaluation and Inspections Division
OIG with a copy of the first FBI OPR quarterly e-mail to include this
language and a copy of the first annual electronic communication to all
offices reflecting this reminder.

      Recommendation 3. Consider automating the allegation-
reporting process so that allegations can be reviewed by the OIG
electronically instead of in hard copy.

       Status. Resolved – open.

      Summary of FBI Response. The FBI concurred with this
recommendation and stated that it would consider the effectiveness of
automating the allegation-reporting process. The FBI further stated that
it remains FBI practice that upon receipt of each allegation a summary is
entered into the FBI’s Case Management System, and that the Case
Management System is accessible to the OIG Assistant Special Agent in
Charge assigned to monitor allegations of FBI misconduct.

      OIG Analysis. The action planned by the FBI is responsive to our
recommendation. Please provide the OIG with a statement describing
what options the FBI considered to automate the allegation-reporting
process and the reasons supporting the option it chose.

      Recommendation 4. Ensure that Internal Investigations
Section personnel enter information regarding the OIG’s review into
the FBI’s Case Management System.

       Status. Resolved – open.

       Summary of FBI Response. The FBI concurred with this
recommendation and stated that it would ensure that information
regarding the OIG’s review has been entered into the FBI’s Case
Management System. The FBI also stated that it would upgrade the
Case Management System by creating a query that identifies cases
pending over 30 days that lack information confirming the OIG’s review
of the allegations.

      OIG Analysis. The actions planned by the FBI are responsive to
our recommendation. Please provide the OIG with a copy of a report that
was generated using this query. Please also provide the OIG with a
screen shot of the Case Management System showing that the fields that
document the OIG’s review of allegations have been filled in.




U.S. Department of Justice                                           158
Office of the Inspector General
Evaluation and Inspections Division
      Recommendation 5. Require field and headquarters divisions
to specify, when forwarding allegations to the Internal
Investigations Section, the date they became aware of the potential
misconduct.

       Status. Resolved – open.

      Summary of FBI Response. The FBI concurred with this
recommendation and stated that it would issue an electronic
communication to all offices instructing that this information be
provided. The FBI also stated that it would include this instruction in
FBI OPR’s quarterly e-mails to all employees.

       OIG Analysis. The actions planned by the FBI are responsive to
our recommendation. Please provide the OIG with a copy of the
electronic communication, as well as a copy of the first FBI OPR
quarterly e-mail including this language. Please also provide the OIG
with a screen shot of the Case Management System showing records
where this information has been provided and tracked.

      Recommendation 6. Modify the FBI’s Case Management
System so that users can track the date that divisions became aware
of potential misconduct.

       Status. Resolved – open.

       Summary of FBI Response. The FBI concurred with this
recommendation and stated that it has already modified the Case
Management System to include a field that tracks the date that divisions
first become aware of potential misconduct.

      OIG Analysis. The action undertaken by the FBI is responsive to
our recommendation. Please provide the OIG with screen shots to show
how the FBI’s Case Management System was modified to track this
information.

      Recommendation 7. Require FBI OPR to document its
consideration of precedent when a mitigated or aggravated penalty
is imposed.

       Status. Resolved – open.

     Summary of FBI Response. The FBI concurred with this
recommendation and stated that it will document its consideration of


U.S. Department of Justice                                             159
Office of the Inspector General
Evaluation and Inspections Division
precedent in all substantiated cases by including this information under
its discussion of Douglas Factor number 6 in the FBI OPR addendum.

      OIG Analysis. The action planned by the FBI is responsive to our
recommendation. Please provide the OIG with a revised policy that
includes this requirement for FBI OPR to document its consideration of
precedent in all cases, including those in which a standard penalty is
imposed. Please also provide the OIG with a copy of the first five FBI
OPR addendums in cases in which a standard penalty was imposed that
include this discussion of precedent under Douglas Factor number 6.

      Recommendation 8. Require field and headquarters divisions
to submit a Douglas Factors assessment in misconduct cases, except
in unsubstantiated Delegated Investigation and Adjudication cases.

       Status. Resolved – open.

       Summary of FBI Response. The FBI concurred with this
recommendation and stated that it would require field and headquarters
divisions to submit a Douglas Factors assessment in misconduct cases,
except in unsubstantiated Delegated Investigation and Adjudication
cases.

        OIG Analysis. The action planned by the FBI is partially
responsive to our recommendation. We believe it also is important for
the FBI to identify the steps it will take if a field or headquarters division
fails to submit a Douglas Factors assessment. Please provide the OIG
with a copy of an electronic communication to all offices reminding them
of this requirement, as well as written procedures explaining how FBI
OPR intends to respond if a division fails to submit a Douglas Factors
assessment.

      Recommendation 9. Clarify in policy that FBI OPR and
appellate officials should not seek or consider unwritten
information when making disciplinary decisions.

       Status. Resolved – open.

      Summary of FBI Response. The FBI concurred with this
recommendation and stated that it would clarify in policy that FBI OPR
and appellate officials should not seek or consider unwritten information
when making disciplinary decisions. The FBI noted that its current
practice is to require individuals who want to have their views considered
to submit those views in writing. The FBI also noted that under its


U.S. Department of Justice                                                160
Office of the Inspector General
Evaluation and Inspections Division
current practice, communications that are not related to disciplinary
decision-making are not included in disciplinary files.

       OIG Analysis. The action planned by the FBI is partially
responsive to our recommendation. We believe the FBI also should
clarify how FBI OPR or appellate officials should respond to any attempts
to provide them unwritten information related to disciplinary decision-
making. Please provide the OIG with a copy of revised policies for the
adjudicative and appellate phases of the disciplinary process that clearly
state that FBI OPR and appellate officials should not seek or consider
unwritten information when making disciplinary decisions. Please also
provide the OIG with written procedures describing how FBI OPR or
appellate officials should respond if anyone attempts to provide
unwritten information that could be relevant to disciplinary
decision-making.

     Recommendation 10. Consider changing the adjudicative
process to ensure that the proposing and deciding officials within
FBI OPR are separate.

       Status. Resolved – open.

      Summary of FBI Response. The FBI concurred with this
recommendation and stated that it would evaluate changing the
adjudicative process to ensure that the proposing and deciding officials
within FBI OPR are separate.

      OIG Analysis. The action planned by the FBI is responsive to our
recommendation. Please provide the OIG with a written response
describing what options the FBI considered in evaluating whether to
separate the proposing and deciding officials within FBI OPR are
separate and the reasons supporting the option it chose.

       Recommendation 11. Clarify FBI policies on the appellate
officials’ authority to modify findings of fact and penalties to
resolve different interpretations of the policies by FBI OPR and
appellate officials.

       Status. Resolved – open.

      Summary of FBI Response. The FBI concurred with this
recommendation and stated that it would clarify its policies to state that
the substantial evidence standard is the only standard of review used in
the FBI’s internal appellate process. The clarification will emphasize that


U.S. Department of Justice                                              161
Office of the Inspector General
Evaluation and Inspections Division
all aspects of the appellate review of FBI OPR’s decisions, including both
the review of FBI OPR’s factual findings and the review of FBI OPR’s
penalty decisions, will be reviewed under the substantial evidence
standard.

       OIG Analysis. The action planned by the FBI is responsive to our
recommendation. We believe the policy clarification also should be
incorporated into the training materials provided to new members of the
Disciplinary Review Board. Please provide the OIG with a copy of the
policy clarification, as well as a copy of any training materials for new
members of the Disciplinary Review Board that discuss this policy
clarification.

      Recommendation 12. Consider appointing a permanent
appeals decision maker or board, rather than an appeals board
composed of employees who rotate in and out of their board service
after 6 months. In addition, if the permanent appellate decision-
maker is a board rather than an individual, expand the board
membership for SES appeals beyond only SES employees.

       Status. Resolved – open.

       Summary of FBI Response. The FBI concurred with this
recommendation and stated that it would eliminate the use of an all-SES
Disciplinary Review Board to hear SES appeals. Instead, all adverse
appeals will now be decided by one Disciplinary Review Board consisting
of the Assistant Director of the Human Resources Division as the
permanent chair, two SES managers selected by the Associate Deputy
Director or designee, and two non-SES mid-level managers selected by
the Associate Deputy Director or designee. The FBI said that it would
also extend the term of service on the Disciplinary Review Board from
6 months to 1 year. The FBI agreed to evaluate whether to make service
on the Disciplinary Review Board a permanent assignment.

      OIG Analysis. The actions planned by the FBI are partially
responsive to our recommendation. We agree that the FBI should not
have separate Disciplinary Review Boards for SES and non-SES
employees, and that non-SES employees should serve on the Board
deciding appeals for SES employees. However, we also believe that the
FBI should consider appointing a permanent decision maker or Board,
rather than having FBI employees rotate on and off the appellate board.
We believe that a permanent appeals decision maker or board, rather
than a board composed of SES employees who rotate in and out of their
board service after 6 months, could improve the quality and consistency


U.S. Department of Justice                                             162
Office of the Inspector General
Evaluation and Inspections Division
of disciplinary decisions and could also help address concerns about bias
in individual cases or the appearance of SES board members issuing
more lenient decisions for their SES colleagues. In addition, appointing
permanent decision makers could help improve the appellate process, in
contrast to the current practice in which members rotate on and off the
Disciplinary Review Board in temporary assignments that do not allow
them to develop expertise in the disciplinary process.

      To respond to this recommendation please provide the OIG with a
copy of the revised policy reflecting any changes to the appellate process.
Please also provide the OIG with a statement summarizing the steps the
FBI is taking to evaluate whether to make service as an appellate
decision maker a permanent assignment and the timeframe for
completing that evaluation.

     Recommendation 13. Require appellate officials to fully
document in writing the reasons for their decisions, including their
consideration of precedent and mitigating or aggravating factors.

       Status. Resolved – open.

       Summary of FBI Response. The FBI concurred with this
recommendation and stated that when it issues the revised appellate
policies in response to Recommendations 11 and 12, it will reiterate that
FBI policy already requires appellate officials to fully document in writing
the reasons for their decisions, including their consideration of precedent
and mitigating or aggravating factors.

       OIG Analysis. The action planned by the FBI is responsive to our
recommendation. Please provide the OIG with a copy of the revised
appellate policies reflecting this language, as well as a copy of training
materials for new members of the Disciplinary Review Board that
reiterate this requirement.

       Recommendation 14. In addition to Recommendation 12,
which recommends a change in the FBI’s appellate process, ensure
that FBI policies are applied consistently to all levels of employees
at all stages of the disciplinary process.

       Status. Resolved – open.

     Summary of FBI Response. The FBI concurred with this
recommendation and stated that it would ensure that FBI policies are



U.S. Department of Justice                                              163
Office of the Inspector General
Evaluation and Inspections Division
applied consistently to all levels of employees at all stages of the
disciplinary process.

       OIG Analysis. The action planned by the FBI is partially
responsive to our recommendation. In its response, the FBI did not state
how it plans to ensure that FBI policies are applied consistently to all
levels of employees at all stages of the disciplinary process. In light of
our findings, please provide the OIG with a written description of the
process the FBI intends to undertake that, at a minimum, identifies:

       •   the number of cases the FBI intends to review to ensure that its
           disciplinary policies are applied consistently,
       •   how the FBI will select the cases it reviews,
       •   the standards the FBI will use to determine whether policies
           were applied consistently in all cases reviewed, and
       •   the frequency with which the FBI intends to repeat the review.

      Recommendation 15. Conduct a review of the personnel files
and timekeeping records of all employees who were suspended since
October 1, 2004, to verify that the suspensions were properly
documented, that the employees served their suspensions, and the
employees were not paid during their suspension periods.

       Status. Resolved – open.

      Summary of FBI Response. The FBI concurred with the
recommendation and stated that it would review the personnel files and
timekeeping records of all employees who were suspended since
October 1, 2004. The FBI also said that it would continue the practice
hereinafter to ensure that suspensions are properly served.

      OIG Analysis. The actions planned by the FBI are responsive to
our recommendation. Please provide the OIG with a spreadsheet
containing the following information for each suspended employee:

       •   the employee’s name;
       •   the file number of the investigative file (the 263 number);
       •   the total number of days in the employee’s suspension, as
           stated in the final decision letter from FBI OPR or, in appealed
           cases, the final appellate decision letter;
       •   calculation of the number of workdays in the employee’s
           suspension;
       •   the start date of the suspension, as reflected on the SF-50 in
           the employee’s file or in BPMS;

U.S. Department of Justice                                               164
Office of the Inspector General
Evaluation and Inspections Division
       •   the end date of the suspension, as reflected on the SF-50 in the
           employee’s file or in BPMS;
       •   confirmation that the total number of days in the suspension as
           reflected in the SF-50s or BPMS matches the final decision
           letter; and
       •   confirmation that the employee’s National Finance Center
           records reflect that the employee was in a suspended status for
           the correct number of workdays.

Please note that to close this recommendation, the FBI should confirm
the accuracy of the National Finance Center records to establish that
employees were not paid during their suspension periods, because the
FBI considers the National Finance Center to be the official system of
record for payroll and personnel actions.

     Recommendation 16. Revise FBI policy to begin suspensions
on the first day of the workweek, as is done by other Department
components.

       Status. Resolved – open.

     Summary of FBI Response. The FBI concurred with this
recommendation and stated that it would revise FBI policy to begin all
suspensions on the first day of the workweek.

       OIG Analysis. The action planned by the FBI is responsive to our
recommendation. Please provide the OIG with a copy of the revised
policy.

     Please provide the OIG with the information described above before
October 1, 2009.




U.S. Department of Justice                                             165
Office of the Inspector General
Evaluation and Inspections Division
